OFFICE OF INSPECTOR GENERAL

 SEMIANNUAL REPORT TO
     THE CONGRESS




  October 1, 2009–March 31, 2010
    OFFICE OF INSPECTOR GENERAL
SEMIANNUAL REPORT TO THE CONGRESS
    OCTOBER 1, 2009–MARCH 31, 2010
               Inspector General

        HOTLINE
The Hotline makes it easy to report allegations of fraud, waste, abuse, mismanagement, or
misconduct in the programs and operations of the United States Agency for International
Development (USAID), the Inter-American Foundation (IAF), the United States African
Development Foundation (USADF), and the Millennium Challenge Corporation (MCC).
USAID, IAF, USADF, and MCC employees, contractors, and program participants or the
general public may report allegations directly to the Office of Inspector General (OIG).
Complaints may be submitted electronically by using email or OIG’s online complaint
form.

Email           ig.hotline@usaid.gov

Complaint
Form            http://www.usaid.gov/oig/hotline/hotline.htm

Individuals who are concerned about the confidentiality or anonymity of electronic
communication may submit allegations by telephone or mail.

Telephone       1–202–712–1023
                1–800–230–6539

Mail            USAID OIG HOTLINE
                P.O. Box 657
                Washington, DC 20044–0657

The Inspector General Act of 1978, as amended, and other laws protect persons making
Hotline complaints. Individuals who contact the Hotline are not required to identify
themselves and may request confidentiality when submitting allegations. However, OIG
encourages those who report allegations to identify themselves so that they can be
contacted if OIG has additional questions.

OIG will not disclose the identity of an employee of USAID, IAF, USADF, or MCC who
provides information unless that employee consents or unless the Inspector General
determines that such disclosure is unavoidable during the course of an investigation.
                                                       CONTENTS

Message From the Inspector General................................................................................................... 1 

Introduction ................................................................................................................................................ 3 

Semiannual Report to the Congress ..................................................................................................... 7 

      United States Agency for International Development (USAID)

      United States African Development Foundation (USADF)

      Inter-American Foundation (IAF)

Significant Accomplishments ................................................................................................................... 9 

      Peace and Security ................................................................................................................................ 9 
          Afghanistan ................................................................................................................................... 9 
          Pakistan .......................................................................................................................................15 
          Iraq ...............................................................................................................................................17 
          West Bank and Gaza................................................................................................................ 19 

      Just and Democratic Government ..................................................................................................... 19 
           Democracy .................................................................................................................................19 
           Human Rights.............................................................................................................................22 

       Economic Growth and Prosperity ...................................................................................................... 23 
           Economic Security ....................................................................................................................23 

       Investment in People........................................................................................................................... 27 
           Health ..........................................................................................................................................27 
           Education ....................................................................................................................................32 

       Management Capabilities .................................................................................................................. 33 
          Information Technology ..........................................................................................................33 

       Financial Management ....................................................................................................................... 34 
           Management Accountability ................................................................................................... 34 
           Expanding Accountability ........................................................................................................38 
           Accountability Over Contractors and Grantees .............................................................. 40 




                                                                    SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010
Significant Accomplishments—USADF............................................................................................... 43 

Significant Accomplishments—IAF ......................................................................................................45 

Appendix I: Reporting Requirements..................................................................................................47 

Appendix II: Summary Tables ............................................................................................................ 101 

Semiannual Report to the Congress—Millennium Challenge Corporation ........................... 107 

Introduction ........................................................................................................................................... 109 

Significant Accomplishments .............................................................................................................. 111 

      Economic Growth and Prosperity ................................................................................................... 111 
          Economic Security ................................................................................................................. 111 

      Management Capabilities ............................................................................................................... 114 
         Financial Management ........................................................................................................... 114 
         Fund Accountability Statements ......................................................................................... 115 

Appendix III: Reporting Requirements and Summary .................................................................. 119 

Appendix IV: Abbreviations................................................................................................................ 133 




USAID OFFICE OF INSPECTOR GENERAL
                       MESSAGE FROM THE
                      INSPECTOR GENERAL
I am pleased to present the Semiannual Report to the Congress for the 6-month period
ending March 31, 2010. This report features highlights of oversight activities of the Office of
Inspector General (OIG) for the U.S. Agency for International Development (USAID), the
United States African Development Foundation (USADF), the Inter-American Foundation
(IAF), and the Millennium Challenge Corporation (MCC). We have prepared this report in
accordance with the requirements of the Inspector General Act of 1978, as amended.

During the reporting period, OIG activities resulted in:

•   257 audits issued
•   $23,476,502 in questioned costs and funds put to better use
•   55 investigations opened and 64 investigations closed
•   1 arrest, 6 indictments, and 6 convictions
•   1 administrative action
•   $3,513,552 in investigative recoveries and savings
•   59 fraud awareness briefing sessions with 1,464 attendees


With the support of Congress and the administration, we moved forward during this
reporting period to expand OIG’s staffing in Afghanistan and Pakistan. By the end of
fiscal year (FY) 2010, OIG will have a fully staffed office in each country so that our
auditors and investigators can better perform oversight work and coordinate with other
organizations. We will continue to focus our oversight work in these countries and in
areas that are of greatest national priority—Afghanistan, Pakistan, Iraq, West Bank and
Gaza, Haiti, HIV/AIDS, malaria, and tuberculosis.

In Afghanistan, our work since 2002 has paralleled the evolution of USAID’s programs
from relief and stabilization to reconstruction to sustainable development. In this
reporting period, we found successes and problems in USAID/Afghanistan programs in
education, power sector improvements, civilian assistance, and human resources and
logistical support in the event of an earthquake.

In Pakistan, we worked with local institutions, such as the Supreme Audit Institution (SAI,
which is similar to the U.S. Government Accountability Office), to help strengthen the
accountability environment. Our collaboration with the SAI will provide audit coverage of
USAID funds directed to local ministries for implementation of development programs.
OIG has also forged a new relationship with the National Accountability Bureau, Pakistan’s
anticorruption agency. In addition to our collaborative efforts, our audit activities in
Pakistan showed that little real progress had been made to build the capacity of either
governmental or nongovernmental entities in Pakistan’s Federally Administered Tribal
Areas.

OIG’s direct oversight of programs in Iraq continues as the U.S. mission there
transitions to greater civilian control. During the reporting period, we completed an



                                    SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010   1
audit of USAID activities to support internally displaced persons and a successful
investigation into allegations of contractor extortion and embezzlement that produced
$1.5 million in savings and recoveries.

Another priority area for OIG has been oversight of programs to combat HIV/AIDS,
malaria, and tuberculosis. Our recommendations have involved strengthening contract
oversight and improving data integrity and quality.

Since the January 2010 earthquake in Haiti, we have closely monitored response and
recovery efforts in that devastated nation. In the weeks following the disaster, we
devised and published a framework for our oversight efforts, assessed risks to USAID
operations on the ground, and pursued outreach and education activities in Haiti to
address risks of fraud, waste, and abuse.

Our oversight seeks to improve USAID programs and operations, but we also have a
responsibility to prevent fraud, waste, and abuse in foreign assistance programs. OIG
investigators work diligently to ensure that appropriate action is taken against those
who would illegally divert U.S. Government funds.

In this reporting period, we published our findings on the suspension and debarment
processes that prevent poorly performing or dishonest contractors from harming the
U.S. Government. By excluding ineligible entities from doing business with the
Government, the suspension and debarment processes reinforce the credibility and
effectiveness of USAID’s efforts and those of its implementing partners. In March 2010,
I testified on these processes before the House Committee on Oversight and
Government Reform and recommended that USAID consider more matters for
suspension and debarment and improve its methods for handling such actions.

We know that, within OIG, we must also work on improving our own programs and
initiatives. We continually reexamine our strategies and goals and adopt technologies
that help us to better implement our programs and respond to our stakeholders.

This report further describes OIG activities and achievements and includes
comprehensive statistics and data regarding our efforts. OIG supports USAID, USADF,
IAF, and MCC programs and operations through collaboration and proactive, results-
oriented oversight. We look forward to working with the Congress and our partners
and stakeholders to continue to improve the efficiency and effectiveness of U.S. foreign
assistance programs.




                                                         Donald A. Gambatesa
                                                         Inspector General




2   USAID OFFICE OF INSPECTOR GENERAL
                               INTRODUCTION

        HISTORY AND MANDATED AUTHORITY

USAID’s OIG was established on December 16, 1980, by statutory amendment to the
Foreign Assistance Act of 1961. 1 On December 29, 1981, the President signed the
International Security and Development Cooperation Act of 1981, 2 bringing the USAID
Inspector General under the purview of the Inspector General Act of 1978. 3 OIG
assumed audit and investigative oversight of USADF and IAF in 1999, 4 and of MCC in
2004. 5

The Inspector General Act of 1978, as amended, authorizes the Inspector General to
conduct and supervise audits and investigations. Our mission is to protect and enhance
the integrity of U.S. foreign assistance programs and operations administered by USAID,
USADF, IAF, and MCC. Some of our work is mandated by statute or other requirements,
and other work is performed at the discretion of OIG. When identifying the audits and
activities to undertake, and setting priorities in performing them, we consider stakeholder
interests and needs, alignment with strategic goals, and program funding levels. Each
decision to perform specific work is made after considering the risks associated with the
agencies’ programs and assessing potential vulnerabilities in internal controls.



                      AREAS OF RESPONSIBILITY

Audits. OIG audits activities relating to worldwide foreign assistance programs and
agency operations of USAID, USADF, IAF, and MCC. Audit activities include
performance audits of programs and management systems, financial statement audits
required under the Chief Financial Officers Act, and audits related to financial
accountability of grantees and contractors.

Investigations. OIG investigates activities relating to the foreign assistance programs
and agency operations of our client agencies. Investigations of criminal, civil, and
administrative violations cover all facets of these worldwide operations. We also
conduct proactive investigations and fraud awareness training, develop and distribute
fraud awareness literature and audiovisual aids, and offer advice on antifraud strategies.

Millennium Challenge Corporation. OIG is responsible for oversight of the
Corporation’s programs and operations worldwide. Our MCC office has its own


1 International Security and Development Cooperation Act of 1980, Public Law 96–533; Foreign Assistance

Act of 1961, Public Law 87–195.
 2 Public Law 97–113.

 3 Public Law 95–452.

 4 Admiral James W. Nance and Meg Donovan Foreign Relations Authorizations Act, Fiscal Years 2000 and

2001, Public Law 106–113, appendix G.
 5 Millennium Challenge Act of 2003, Public Law 108–199, division D, title VI.




                                        SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010   3
performance and financial audit divisions, but it coordinates with OIG’s Investigations
and Audit offices for investigative and supplementary audit support. Budget, information
technology, and human resources support is provided by our Office of Management.

Overseas Offices of Inspector General. OIG carries out its audit and investigative
work in about 100 countries through offices in:

•   Kabul, Afghanistan
•   Islamabad, Pakistan
•   Baghdad, Iraq
•   Cairo, Egypt
•   Dakar, Senegal
•   Manila, Philippines
•   Pretoria, South Africa
•   San Salvador, El Salvador



                    JOINT WORK AND PARTNERS

OIG participates on task forces and cooperates with other interagency groups. In this
reporting period, OIG contributed to task forces to provide oversight for accountability
and transparency in USAID operations in Afghanistan and Pakistan and to assist the
Department of Justice in addressing procurement and grant fraud, especially in Iraq and
Afghanistan.

Southwest Asia Joint Planning Group. This group, formed to coordinate oversight
activities in Afghanistan and other countries in the region, issued its first Comprehensive
Audit Plan for Southwest Asia in June 2008, in accordance with the FY 2008 National
Defense Authorization Act. 6 The group comprises representatives of the Offices of
Inspector General for USAID and the Department of State, the Special Inspector
General for Iraq Reconstruction, the Special Inspector General for Afghanistan
Reconstruction, the U.S. Army Audit Agency, the Naval Audit Service, the Air Force
Audit Agency, and the Defense Contract Audit Agency.

Afghanistan–Pakistan Subgroup. The U.S. Government’s efforts to stop terrorism
require support from the major oversight organizations to ensure accountability and
transparency in multi-billion-dollar programs implemented in Southwest Asia. To avoid
overlapping efforts and reduce the burden that the oversight process places on overseas
staff, a subgroup of the Southwest Asia Joint Planning Group has been formed to
coordinate multiagency work to guard against fraud, waste, and abuse in military and
civilian programs implemented in Afghanistan and Pakistan. The Afghanistan–Pakistan
Subgroup comprises representatives of the Offices of Inspector General for USAID and
the Departments of State and Defense, the Government Accountability Office (GAO),
and the Special Inspector General for Afghanistan Reconstruction. The subgroup acts as

6 Public Law 110–181, section 842, “Investigation of Waste, Fraud, and Abuse in Wartime Contracts and

Contracting Processes in Iraq and Afghanistan.”



4    USAID OFFICE OF INSPECTOR GENERAL
the central point for sharing information and coordinating planned and ongoing audits,
reviews, and inspections. The subgroup is chaired by a representative from USAID/OIG.

Iraq Council of Inspectors General. Oversight organizations operating in Iraq meet
quarterly to discuss ongoing and planned activities to share information, resolve
conflicts, and avoid duplication. The Special Inspector General for Iraq Reconstruction
chairs the meetings, which are attended by representatives of Offices of Inspectors
General for USAID and the Departments of State and Defense; other oversight offices
within the Department of Defense, such as the Army Audit Agency and the Defense
Contract Audit Agency; and GAO. Representatives located in Washington, DC, and Iraq
participate in these meetings, either in person or by phone.

USAID Afghanistan–Pakistan Task Force. The USAID Afghanistan–Pakistan Task
Force is a multi-agency planning group that seeks to make USAID assistance to U.S.
Government reconstruction and development efforts in Afghanistan and Pakistan as
effective as possible by providing analyses, strategies, and recommendations and by
cultivating interagency coordination and cooperation. The task force includes a
USAID/OIG representative to respond to the Agency’s oversight needs and to promote
accountability and transparency in these two countries critical to U.S. foreign policy.

National Procurement Fraud Task Force. OIG participates on two Department of
Justice task forces—the National Procurement Fraud Task Force (NPFTF) and the
International Contract and Corruption Fraud Task Force (ICCTF). The mission of both
task forces is to promote the early detection, prevention, and prosecution of
procurement and grant fraud associated with increased contracting activity for national
security and other Government programs.



        OIG PROGRAM AREAS AND PRIORITIES

OIG structures its work to provide oversight in worldwide U.S. foreign assistance
programs. Our audits include recommendations to improve the infrastructure of USAID
systems and operations to increase the efficiency of the work the Agency undertakes.

Priority program areas covered in this reporting period include:

Peace and Security
•   Afghanistan
•   Pakistan
•   Iraq
•   West Bank and Gaza

Just and Democratic Government
•   Democracy
•   Human Rights




                                  SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010   5
Economic Growth and Prosperity
•   Economic Security

Investment in People
•   Health
•   Education

Management Capabilities
•   Information Technology

Financial Management
•   Management Accountability
•   Expanding Accountability
•   Accountability Over Contractors and Grantees




6   USAID OFFICE OF INSPECTOR GENERAL
SEMIANNUAL REPORT TO THE CONGRESS

United States Agency for International Development (USAID)
 United States African Development Foundation (USADF)
                            and
              Inter-American Foundation (IAF)




                     SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010   7
8   USAID OFFICE OF INSPECTOR GENERAL
        SIGNIFICANT ACCOMPLISHMENTS
                    USAID

                         PEACE AND SECURITY

Afghanistan
Audit of USAID/Afghanistan’s Power Sector Activities Under Its Afghanistan
Infrastructure Rehabilitation Program. Providing electrical power to the Afghan
population is crucial to Afghanistan’s development. A sufficient supply of reliable
electrical power contributes to political stability, especially in the capital city of Kabul as
well as in the southern agricultural provinces of Helmand and Kandahar.

To improve the availability of electricity in these areas, USAID/Afghanistan awarded two
major task orders under this program to the Louis Berger Inc./Black and Veatch Special
Projects Corp. Joint Venture.

•   One task order, awarded in July 2007, was to build a diesel-powered electricity-
    generating plant that would provide 105 megawatts of additional power to Kabul—
    most of it in time for the 2008–09 winter season. This plant had a budget of
    $261.8 million and was scheduled to be completed by April 2009.
•   The other task order, awarded in January 2007, was to complete work begun under
    an earlier USAID project at the Kajakai Dam in Helmand Province. The objective
    was to increase capacity of the dam’s power plant by 35 megawatts (51.5 megawatts
    total) by June 2008.

OIG conducted this audit as part of its FY 2009 audit plan to determine whether
USAID/Afghanistan was achieving its main goal for these power sector activities.
Together, these two activities were expected to deliver 140 megawatts of additional
electrical power to two strategically important areas of Afghanistan.

The audit concluded that, because of construction delays, the mission had not achieved
its goal of providing the increased power to these two areas within the planned
timeframes. For the Kabul power plant, the delays were caused by an initial inability to
obtain adequate title to land for the power plant; an ambiguous statement of work that
resulted in inadequate planning and implementation; subcontractor performance
problems; lack of mission onsite quality assurance; and problems in clearing equipment
and material through customs. For the Kajakai Dam project, deteriorating security in
southern Afghanistan and inconsistent contractor performance contributed to the delay.

By the end of audit field work in May 2009, the mission-funded projects had completed
construction of generators with the ability to produce only 12 megawatts of power out
of the original goal of 140 megawatts—and this increase in power had not actually been
delivered to the Afghan population. As a result, the economic benefits anticipated for
Kabul and the southern provinces of Helmand and Kandahar are not being realized.
Additionally, the contractor estimated that cost overruns attributable to the delays
would amount to $39 million in order to complete the Kabul power plant by


                                     SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010   9
             The Kajakai power house in Helmand Province. (Photograph by OIG.)


December 31, 2009. As for the Kajakai Dam project, the original subcontractor left
after its personnel received kidnapping threats, and the project cannot be completed
until a new subcontractor is selected. The mission will have to continue paying the fixed
costs of securing and maintaining the facility until work on the plant can be resumed.
These fixed costs amount to an estimated $1 million monthly, even though none of the
extra 35 megawatts of power has been delivered.

In addition, the audit found that the Afghan Government may not be able to afford to
operate the Kabul power plant once it is completed. Specifically, the government may
not be able to meet its commitment to pay for diesel fuel to operate the plant because
of the fuel’s rising cost and the government’s inability to collect revenue for the
generated electricity. Further complicating operation of the power plant is the
configuration of the Kabul transmission system, which does not allow for the use of
other power sources that cost less at certain times of the year.




     A 105-megawatt power plant and supporting structures under construction in Kabul.
                        (Photograph by implementing partner.)



10   USAID OFFICE OF INSPECTOR GENERAL
Although the mission has not succeeded in providing the electrical power in accordance
with its original schedule, the mission has experienced some successes. With regard to
the Kabul power plant, seven engineering interns had completed training designed to
help maintain the plant, and the transmission line from the plant to the main power grid
had been completed and tested. For the Kajakai Dam power plant, some equipment and
parts that were too large to be moved by air had been kept in storage since June 2006,
and the mission coordinated with the International Security Assistance Force to move
them by road to the dam to restart the project.

The audit found problems with overbilling by the contractor. The contractor charged
USAID for subcontractor costs that the contractor had not paid the subcontractor
because of disputes and questionable claims in the subcontractor’s invoices. The amount
that the contractor had received from USAID for these questionable costs (including
contractor overhead, fixed fees, and imputed interest) constituted an overbilling of
approximately $2.1 million.

The audit made eight recommendations to USAID/Afghanistan, advising the mission to
develop plans that address the tasks that must be accomplished to complete both
projects, develop a comprehensive sustainability plan for the Kabul power plant, and
recover the $2.1 million overbilled by the Kabul power plant contractor.

Final actions have been taken on five recommendations and management decisions have
been reached on the remaining three.

(Audit Report No. 5-306-10-002-P)

Audit of USAID/Afghanistan’s Afghan Civilian Assistance Program. The main
goal of the Afghan Civilian Assistance Program is to help Afghan families and communities
that have suffered losses as a result of military operations against insurgents and the Taliban.
Most assistance under the program is provided in goods and services to those who have
suffered losses—a farmer
might receive a tractor or
livestock, or a grocer might
receive merchandise to
restock his store. The
program is being
implemented through a
$27 million, 3-year
cooperative agreement
(April 2007 to April 2010)
with the International
Organization for Migration
(IOM). As of December 31,
2008, $18.5 million had
been obligated and about
$6.4 million had been spent
for program activities.
                                     The program purchased materials to rebuild a home for
                                      19 family members in Kabul after an aerial bombing
The audit concluded that               destroyed the building during a military operation.
the program is not on target                         (Photograph by OIG.)




                                     SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010   11
to assist eligible beneficiaries. IOM reported that as of September 1, 2008, close to the
midpoint of the program, only 803 of the more than 6,000 eligible families were receiving
assistance (about 13 percent). As of January 22, 2009, IOM had actually assisted only about
40 percent of the estimated target number of 5,102 eligible families included in a recovery
plan it had developed in October 2008.

In addition, until about the midpoint of the program, USAID/Afghanistan had very
limited involvement in the program and little information about its progress. The
mission had not followed up regularly on the status of IOM’s implementation plan,
monitoring and evaluation plan, or quarterly program reports. The mission also had not
made enough site visits to adequately evaluate the program’s progress and had not
properly monitored the staffing of IOM positions. In addition, security concerns
hampered efforts to staff the program, and understaffing continued to be a challenge at
the time of the audit. As of January 2009, a subcontractor for IOM had hired only 56 of
the 86 employees deemed necessary to meet program goals. IOM’s documents
indicated that its subcontractor was still in the process of hiring 30 staff members for
the 6 regional offices where the program was being implemented. In addition, IOM had
not taken advantage of opportunities to improve the effectiveness and efficiency of the
program, such as limiting the program’s eligibility period or requiring beneficiaries to
present Afghan national identification cards.

The audit made seven recommendations to help the mission properly oversee
implementation and evaluation of the program. Final actions have been taken on six
recommendations and a management decision has been reached on one.

(Audit Report No. 5-306-10-004-P)

Audit of USAID/Afghanistan’s Building Education Support Systems for
Teachers Project. The USAID/Afghanistan’s Building Education Support Systems for
Teachers Project is meant to improve the quality of education in Afghanistan by training
Afghan teachers and institutionalizing structures and systems in the Afghan Ministry of
Education that support high-quality teaching.

Under the project, teachers already working for the Ministry of Education were chosen
as instructors to train approximately 54,000 teachers in 11 Afghan provinces. The
project also assisted the Ministry of Education with its 5-year strategic plan and
developed a curriculum to train ministry officials in management skills.
USAID/Afghanistan made a $94 million, 5-year contract with Creative Associates
International, Inc., for implementation from January 27, 2006, to January 26, 2011. As of
September 30, 2009, $56 million had been obligated and $48 million had been spent for
program activities.

The audit concluded that the project is making progress but has not achieved its two
main goals. Creative Associates stated that they hope to complete all required project
efforts by the end of the contract. Of the target of 54,000 teachers in 11 Afghan
provinces, 50,600 had received inservice training for teachers already working for the
Ministry of Education. Also, most of the 444 candidates that were part of the project’s
plan to develop capacity at the Ministry of Education had been recruited and selected.
Some tasks had not been completed, however, such as an accelerated learning program
for teachers and database training for human resources staff.



12   USAID OFFICE OF INSPECTOR GENERAL
Some areas needed improvement. For example, the August 2007 memorandum of
agreement between the mission, Creative Associates, and the Ministry of Education had
not been reviewed annually and had not been revised. Because of significant changes that
the mission had planned for the remaining period of the project, the memorandum of
agreement was outdated.

In addition, high-value modifications to subcontracts awarded by Creative Associates had
not received the required approval of the mission’s contracting officer. The subcontract
modifications pertained to such significant issues as (1) the terms of subcontractor
performance, (2) changes in the duration of subcontracts, (3) significant increases in
subcontract funding, and (4) one subcontract termination. The mission should have had
a chance to review and approve these issues. In the case of the terminated subcontract,
the mission had not been given information on how subcontractor tasks would be
completed. Moreover, the mission could be liable for contract termination costs.

Furthermore, Creative Associates and a subcontractor did not comply with USAID branding
and marking requirements for the project. When the audit team visited the main office of
Creative Associates in Kabul and the regional office of a subcontractor in Balkh Province,
the team found no prominent display of the USAID identity or logo or any other evidence
to visibly acknowledge USAID as the sponsor of the project work. Even some teachers who
had received training under the project did not know that USAID was funding the project.

The audit made four recommendations to help the mission properly oversee
implementation and evaluation of the project. Management decisions have been reached
on the recommendations.

(Audit Report No. 5-306-10-006-P)

Audit of USAID/Afghanistan’s Human Resources and Logistical Support
Program. In February 2006, USAID/Afghanistan launched its Human Resources and
Logistical Support Program to provide a broad range of human resources and logistical
support to help design, monitor, and support the activities of USAID-funded contractors.
The program would also provide consulting services to selected ministries of the Afghan
Government. USAID/Afghanistan awarded a 5-year, $58 million contract to International
Relief and Development, Inc., to implement the program. In September 2009,
USAID/Afghanistan increased the contract ceiling price to $72 million. As of September 30,
2009, USAID/Afghanistan had obligated $47 million and disbursed $36 million for program
activities. The main goals of the program are to (1) enhance capacity at selected ministries;
(2) identify USAID-constructed buildings that do not meet seismic standards; and
(3) provide quality assurance and engineering oversight for mission construction projects.

In support of the first goal, the program provided the Afghan Government with
additional capacity, mainly within three ministries. Technical consultants hired under the
program assisted Ministry of Mines personnel in preparing a proposal for the
rehabilitation of gas fields to generate electrical power for the country. Meanwhile, at
the Ministry of Public Works, program advisers initiated the development of a pilot
program to teach ministry staff how to implement and monitor road construction
projects and provide them with a more efficient means of managing and maintaining
roads in the future. At the Ministry of Energy and Water, the program contractor




                                    SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010   13
provided a transboundary water-rights adviser to help the ministry develop water
policies for negotiations with neighbors in other countries.

With regard to the second, the program was successful in establishing a process for
identifying structures that are not earthquake resistant. The mission has a database of
1,474 USAID-built structures, but the database is not complete. The mission will likely
identify and add more structures as it updates the database. As of October 2009, the
program had completed preliminary assessments of 468 of these structures and detailed
structural seismic evaluations of 35. So far, the program has found 15 structures to be
unsafe for occupancy.

With regard to the third, the program has succeeded in providing quality assurance and
engineering oversight for projects initiated by the mission’s Office of Infrastructure,
Engineering and Energy. However, the mission has not been as successful in providing
quality assurance services for construction projects initiated by other
USAID/Afghanistan program offices.

Despite the program’s progress, it has serious issues that need to be addressed. The
most critical issue is to identify the many defective structures that probably remain
among the estimated 1,474 mission-built structures. The total number of defective
structures will be determined when the remainder of the preliminary assessments and
any subsequent detailed seismic evaluations are completed. The mission anticipates that
the contractor will complete 200 seismic evaluations by the end of the contract. In
addition, significant defects in five buildings reported in a prior OIG audit report 7 had
yet to be corrected. If all defective structures are not identified, and if those already
identified are not repaired or rebuilt, a catastrophic earthquake could cause many
injuries and deaths.

This report made 12 recommendations to improve implementation of the mission’s
construction programs. These recommendations address the need for plans to:

•    Repair or rebuild structures that are seismically unsafe.
•    Correct defects found in five USAID-built structures identified in a previous OIG
     report.
•    Ensure that all mission construction projects are subject to adequate quality assurance.
•    Ensure the sustainability of a $3.9 million data center developed under the program.
•    Ensure that contractor performance reports are completed annually.

Final actions have been taken on six recommendations, and management decisions have
been reached on the other six recommendations.

(Audit Report No. 5-306-10-007-P)

One Australian and Two Americans Pleaded Guilty Pursuant to Investigation
of Conspiracy To Solicit Kickbacks. In a previous reporting period, we noted that
an investigation of a conspiracy to sell privileged information for a security contractor in
Afghanistan, valued at $60 million, led to the arrest of two Americans and termination

7 “Audit of USAID/Afghanistan’s Accelerating Sustainable Agriculture Program,” Audit Report

No. 5-306-08-009-P, August 8, 2008.



14   USAID OFFICE OF INSPECTOR GENERAL
of the related procurement. During this reporting period, one of the co-conspirators, an
Australian, surrendered and was arrested upon entry into the United States. The party
subsequently pleaded guilty to one count of conspiracy to solicit a kickback and received
a 9-month prison sentence. The subject will be deported after the conclusion of the
sentence.

Another of the co-conspirators, an American, pleaded guilty to one count of aiding and
abetting the solicitation of a kickback. The subject is free on bail awaiting sentencing,
scheduled for later this year.

A third co-conspirator, an American, pleaded guilty and was sentenced to 12 months and
1 day. The subject has reported to the Bureau of Prisons to begin serving his sentence.

Pakistan
Audit of USAID/Pakistan’s Capacity Building Program for the Federally
Administered Tribal Areas Development Program. Pakistan’s Federally
Administered Tribal Areas (FATA) are located along the country’s border with
Afghanistan, and for the last three decades, FATA and the surrounding region have
witnessed unprecedented turmoil and instability. The FATA region is the most
economically depressed area of Pakistan, and some 66 percent of the population there
lives below the national poverty line. The literacy rate of the FATA population is
estimated at only 17 percent.

To improve the development of this region, the Governor of the North-West Frontier
Province established the FATA Secretariat in 2002. The Secretariat is responsible for
overall governance in the tribal areas and for providing services such as health care,
education, and public works. The FATA Development Authority, another FATA
governmental institution, was established in 2006 and is responsible for economic
development. However, neither institution has the capacity to plan and manage public
services and development resources at the level of funding programmed by the
Government of Pakistan and international donors.

In January 2008, to increase the capacity of FATA governmental institutions—and FATA
nongovernmental organizations (NGOs)—USAID/Pakistan awarded a 3-year,
$43.4 million contract to Development Alternatives, Inc. (DAI), to carry out the
Capacity Building for the Federally Administered Tribal Areas Development Program. In
May 2009, to cover the cost of security measures, the mission increased the contract
amount by $2.2 million to a total of $45.6 million. As of October 31, 2009, USAID had
obligated approximately $19.7 million and expended approximately $15.5 million.




                                   SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010   15
OIG conducted this audit to determine whether the program is helping to improve the
capacity of FATA governmental institutions to govern and increasing the capacity of
FATA NGOs to promote good governance. Although the program has provided
training, taken initial steps to automate FATA institutions, and completed some media
activities, little has been achieved in building the capacity of FATA governmental
institutions and NGOs. As of October 31, 2009, the capacity building program had been
in place for 22 months of a 36-month program but had achieved little with regard to the
program’s two main goals. Additional time may be needed, as many planned activities
are scheduled to be completed over 3 years, and most capacity building activities began
after October 2008—10 months into the 3-year performance period.

Regarding the first goal—improving the capacity of FATA governmental institutions to
govern—the audit found that little progress had been achieved to build the capacity of
the FATA Secretariat and the FATA Development Authority, in part because the
program got off to such a slow start. During the first year, the contractor focused its
resources on working out best approaches to designing and implementing activities,
building up relationships with FATA institutions, and developing work plans. Also, the
deteriorating security situation in Peshawar and the assassination in November 2008 of
the chief of party of another USAID program delayed the program’s progress. However,
certain activities have achieved some progress. For example, in its second year the
program focused on training in project management, development planning, and financial
management. As of September 30, 2009, 74 training events had been completed for
1,224 FATA government staff members.

Regarding the second goal, the program did not increase the capacity of these NGOs to
promote good governance, but it made some progress. For example, the program
implemented a few activities to address weaknesses of FATA NGOs, such as providing
formal training classes and purchasing office equipment for 42 NGOs working in FATA.
However, the few NGOs that exist there lack the human and financial resources to
promote good governance effectively. In most instances, FATA NGOs needed first to
strengthen their proposal
preparation skills, financial
management practices, and
monitoring and evaluation
capabilities before they could
start to promote good
governance.

Because of a high-level change
of emphasis in U.S. Government
strategy toward greater
involvement of Pakistani
organizations in implementing
assistance programs, the
mission began to rethink its
strategy of providing the bulk of
its program assistance through           Laptops, servers, and other communication equipment
U.S.-based implementers such                delivered to the FATA Secretariat in Peshawar,
as DAI. As a result, in June 2009               Pakistan, remained unused and in boxes.
the mission refrained from fully                         (Photograph by OIG.)



16   USAID OFFICE OF INSPECTOR GENERAL
funding a DAI incremental funding request of $15.3 million and, 4 months later, approved
only $4.7 million in additional funds. In October 2009, the mission asked DAI to consider
preparing a 90-day demobilization plan. However, as of November 2009, no final decision
had been made to terminate the DAI contract or, if it were terminated, what program
implementation mechanisms would replace the U.S.-based contractor.

The audit discusses three areas in which program accomplishments have been delayed
and improvements can be made:

•   The transition to a new implementation strategy has impeded the program’s progress.
•   Capacity building in automation has had little success, and most of the computer
    hardware purchased for the program has remained boxed up and unused.
•   Monitoring and reporting systems for managing development projects—such as a
    geographic information system that enables project information to be represented
    on maps and a database system to document the life cycle of development
    projects—have not been completed, and they may not be completed until June
    2010.

The report contained four recommendations to address these issues and to help
improve implementation of the program. Final action has been taken on one
recommendation, and management decisions have been reached on three
recommendations.

(Audit Report No. 5-391-10-005-P)

Iraq
Audit of USAID’s Internally Displaced Persons Activities in Iraq. Sectarian
violence has led to the most significant wave of displacement in Iraq’s history, prompting
more than 1.6 million people to flee their homes and bringing the total internally
displaced population to more than 2.8 million people by late 2007. From 2004 to 2009,
USAID’s Office of U.S. Foreign Disaster Assistance (OFDA) awarded 14 grants and
cooperative agreements to 7 implementing partners to help Iraq’s internally displaced
persons meet their basic needs. OFDA’s awards to these seven organizations during
FY 2007 and 2008 totaled $190 million. Our audit reviewed eight awards implemented
by three organizations: International Medical Corps, International Relief and
Development, Inc., and Mercy Corps. The value of their awards during fiscal years 2007
and 2008 totaled $115 million.

For the activities reviewed, OFDA’s emergency activities, through its implementing
organizations, had achieved OFDA’s goals to save lives, alleviate human suffering, and
reduce the social and economic impact of humanitarian emergencies for the internally
displaced and vulnerable persons of Iraq. Some of the activities provided basic
emergency supplies (such as bedding, soap, and jerry cans); commodities and
infrastructure for public hygiene, safe water, and electricity; vocational training; and
construction at a health center. Although OFDA’s partners had completed 90 percent
of activities reviewed, several issues required OFDA’s attention:




                                    SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010   17
•    For four activities, anomalies in signatures and fingerprints submitted as evidence of
     payments to beneficiaries indicated that they may have been falsified. As a result, we
     questioned $766,490 in costs incurred for these activities. The suspicious activities
     were referred to OIG Investigations.
•    OFDA’s partners reported 33.7 million beneficiaries as a result of their activities.
     This figure overstated the population of Iraq by 3 million individuals. For example,
     262,482 individuals reportedly had benefited from the purchase of medical supplies
     meant to treat only 100 victims of a specific attack.
•    Although lacking properly delegated authority, OFDA personnel extended five of
     seven awards beyond the existing award completion dates.
•    Although OFDA had agreed to implement the recommendations from our July 2007
     OIG audit report on OFDA’s Iraq activities, its actions were neither timely nor
     sufficient. For example, final action on one recommendation began in July 2008—
     12 months after our report was issued. Had OFDA taken action earlier, $10 million
     in unauthorized commitments could have been prevented.

In response to our audit report and its 12 recommendations, OFDA:

•    Agreed to establish and implement a plan to provide performance monitoring and
     oversight for its awards in Iraq.
•    Did not determine the allowability of $766,490 in questioned costs from four
     recommendations.
•    Agreed to provide clear guidance on how to count beneficiaries.
•    Reviewed its portfolio of awards in Iraq, although it disagreed with the
     recommendation, and ensured that each award had a designated agreement officer’s
     technical representative (AOTR).
•    Disagreed with asking the Director, Office of Acquisition and Assistance, to ratify
     $10 million in unauthorized commitments from five recommendations. OFDA’s
     disagreement was based on the claim that a designated AOTR had approved the no-
     cost extensions and that it was within the AOTR’s authority to do so. However,
     OFDA has yet to provide support that the specific individuals who approved the no-
     cost extensions of the grants had been designated in writing as the AOTRs for the
     five grants. Without such evidence, the individuals who authorized the extensions of
     the awards did not have the authority do so; these actions must be ratified by the
     Director, Office of Acquisition and Assistance.

(Audit Report No. E-267-10-001-P)

Investigation of Alleged Kickbacks Leads to $1 Million Civil Action. OIG
initiated an investigation on the basis of allegations that an employee of a USAID
contractor had accepted kickbacks to direct the award of a security subcontract. The
contractor had received orders under the U.S. Air Force Augmentation Program
contract for work on a USAID project to provide potable water for the populace of
Baghdad, Iraq.

The investigation revealed that a security subcontractor had offered a $1.2 million
kickback to the contractor employee in exchange for being awarded a $10 million
security subcontract. The investigation further determined that the contractor
employee received at least $125,000 of the $1.2 million kickback offer.


18   USAID OFFICE OF INSPECTOR GENERAL
As a result of the investigation, the Department of Justice reached a settlement
agreement with the USAID contractor for $1 million in damages.

One Estonian Pleaded Guilty Pursuant to Investigation of Major Fraud
Against the United States. A former USAID contractor, who had worked from May
through October 2003 on the $239 million USAID governance contract, pleaded guilty
to major fraud against the United States. As reported in our last semiannual report, the
subject was the first Estonian national ever extradited to the United States. The
investigation revealed that the subject had unlawfully directed two subcontract
agreements worth $1 million to a Dubai firm in return for hundreds of thousands of
dollars worth of goods and services, including improvements to a home in North
Carolina and the purchase of two condominiums in Miami, Florida.

West Bank and Gaza
Oversight Activities Continue in the West Bank and Gaza. OIG’s oversight
activities in the West Bank and Gaza included an examination of USAID’s cash-transfer
program to the Palestinian Authority and continuing audits of USAID’s contractors and
grantees.

USAID contracted with independent public accounting firms to conduct examination
procedures of cash transfers to the Palestinian Authority; financial audits; and
examination procedures of contractors, grantees, subcontractors, and subgrantees.
These audits help ensure the validity of costs claimed and compliance with Executive
Order 13224 regarding blocking assistance to terrorist organizations. 8 During this
period, OIG issued 11 final reports. The reports identified questioned costs of
approximately $159,000 of the $23.8 million audited. In addition, the reports identified
areas for improvement in internal controls and instances of noncompliance with
agreements. OIG oversight activities during this period did not identify any instances in
which terrorist organizations had received USAID funds.



        JUST AND DEMOCRATIC GOVERNMENT

Democracy
Audits of Democracy and Governance Activities in Egypt and Guatemala.
USAID conducts assistance programs to promote democracy, rule of law and human
rights, good governance, and civil society.

USAID/Egypt. Since FY 2004, USAID/Egypt has designed democracy and governance
programs valued at more than $181 million. The programs will continue through FY 2012.

USAID/Egypt has used two types of instruments to administer its democracy and
governance activities: a bilateral agreement and a direct-grants program. USAID and the

 8 Executive Order 13224 of September 23, 2001, “Blocking Property and Prohibiting Transactions With

Persons Who Commit, Threaten to Commit, or Support Terrorism.”



                                        SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010   19
Egyptian Government have implemented programs in the three major areas—rule of
law and human rights, good governance, and civil society programs. Using the direct-
grants program, USAID/Egypt has awarded grants and cooperative agreements to
NGOs and other civil society organizations without prior approval from the Egyptian
Government.

Of the seven awards under the bilateral program, USAID/Egypt awarded three contracts
totaling $55 million to Management Sciences for Development, Inc., for the Family
Justice Project; to AECOM International Development for the Egyptian Decentralization
Initiative; and to Management Systems International, Inc., for the Media Development
Program, to conduct activities in rule of law and human rights, good governance, and
civil society, respectively. In FY 2005–08, USAID/Egypt also awarded 80 grants and
cooperative agreements valued at $59 million under its civil society direct-grants
program to expand and strengthen civil society organizations’ activities in human rights,
anticorruption and transparency, elections and political processes, civic participation,
and civic education.

The audit found that the programs have achieved only limited results for 13 judgmentally
selected awards. In FY 2008, USAID/Egypt achieved only 52 percent of its planned
results for the 13 awards and completed only 65 percent of its activities. In addition, the
audit determined that these activities have had only a limited effect in strengthening
democracy and governance in Egypt. In separate, recently published reports,
independent NGOs ranked Egypt unfavorably in indexes of media freedom, corruption,
civil liberties, political rights, and democracy, and its rankings remained unchanged or
declined for the past 2 years.




      Five digital cameras and media lab equipment sitting idle in poor storage conditions.
                                    (Photographs by OIG.)

The program achieved some results for its planned activities. During FY 2008, the
implementers completed 119 of 182 (65 percent) of their activities for the bilateral and
direct-grants program activities designed to strengthen the administration of justice,
promote a more accountable local government, promote greater independence and
professionalism in the media, and strengthen the organizational capabilities of civil
society organizations. Among the program’s results, (1) the Family Justice Project
trained 562 family court judges in more than 20 governorates; (2) the Egyptian
Decentralization Initiative assisted districts in enhancing automation systems in at least
four service centers; and (3) the Media Development Program assisted in broadening




20   USAID OFFICE OF INSPECTOR GENERAL
English language skills among Egyptian media professionals and trained journalists in local
media.

USAID/Egypt has tried to implement its democracy and governance programs in a
restrictive political environment. Although the Egyptian Government signed a bilateral
agreement to support democracy and governance activities, it has shown reluctance to
cooperate with or support many of USAID’s democracy and governance programs;
instead, it has impeded the implementers’ activities. Despite the spirit with which the
U.S. Congress espoused the civil society direct-grants program, the Egyptian
Government’s lack of cooperation—evidenced by delays and cancellations—hindered
some implementers’ efforts to begin projects and activities in a timely manner.

OIG made 10 recommendations to improve management controls, and management
decisions were reached on all of them.

(Audit Report No. 263-6--10-001-P)

USAID/Guatemala. The democracy and governance program began in September 2004
and was scheduled to end in September 2009, with an estimated budget of $36.7 million.
As of September 30, 2008, the mission had obligated $36.1 million and expended
$23.8 million under the program. The program was implemented through 12 contracts
and agreements.

The audit team had difficulty in assessing the overall results or impact of the program
because USAID/Guatemala had not prepared a complete program management plan that
included performance measures and targets. The available information showed some
important results, however. These included (1) establishment of four model 24-hour
courts, in which police, public defenders, prosecutors, and judges are colocated to
improve efficiency in processing criminal cases; (2) improvement of administrative
processes in 13 targeted municipalities, including making these processes more
transparent; (3) expansion of voting locations into rural areas, helping to increase voter
participation in the 2008 presidential elections; and (4) passage of a law providing for
public access to government information.

Despite these achievements, the activities financed by USAID/Guatemala generally had
not achieved sufficient scale to significantly influence national democracy and governance
trends, many of which are negative.

Although USAID/Guatemala’s reporting on its democracy and governance program
provided stakeholders with complete and accurate information for 16 of 30 items
tested, the mission had reported inaccurate results for 14 of 30 items tested. In
addition, USAID/Guatemala had not established targets for some performance
indicators, and the performance management plan had not been updated since 2006.

The report included eight recommendations for USAID/Guatemala. The mission has
taken final action on four and reached management decisions on the rest.

(Audit Report No. 1-520-10-001-P)




                                     SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010   21
Human Rights
Audit of USAID/Cambodia’s Counter-Trafficking in Persons Project.
USAID/Cambodia’s operational plan highlights the overall goal of reducing the incidence of
trafficking in persons in Cambodia. This goal is implemented through the Counter-
Trafficking in Persons Project. The project aims to (1) provide protection to victims of
human trafficking in Cambodia, (2) increase prosecution of human traffickers, (3)
coordinate targeted prevention and awareness-raising activities, and (4) assist with the
reintegration of trafficking survivors into Cambodian society. The project is implemented
through a cooperative agreement between USAID/Cambodia and The Asia Foundation.

The agreement was awarded on August 4, 2006, and was scheduled to end on
September 30, 2009. The total amount obligated for the project was approximately
$4.6 million, and as of June 24, 2009, about $3.8 million had been disbursed to The Asia
Foundation. On September 29, 2009, USAID/Cambodia extended the project an
additional 2 years from September 30, 2009, to September 30, 2011, and increased the
total estimated amount by $2.7 million to $7.3 million.

The project completed or substantially completed 32 of 37 target activities. However,
the project did not have the baseline data or measurable indicators with which to assess
its progress.

The mission noted that previous attempts by other organizations and researchers to
collect data in Cambodia had been unsuccessful. A 2006 GAO audit report on human
trafficking found that the accuracy of the estimates of trafficking is in doubt because of
methodological weaknesses, gaps in data, and numerical discrepancies. A 2007 GAO
audit report on human trafficking states that baseline and target values of indicators are
needed to assess project performance. The United Nations Children’s Fund noted that
Cambodia has some issues in data collection because no judicial database is operational.

The first year of the project experienced programmatic changes caused by severe cuts
in funding to USAID programs and revisions to the project to reflect USAID’s new
program focus on collaboration between the Government of the United States and the
Royal Government of Cambodia. The mission extended the 3-year project an additional
2 years in order to complete project activities in the four main component areas:
coordination, prevention, protection and reintegration, and prosecution.

Over the life of the project, USAID/Cambodia has focused on the coordination
component and has helped build the Royal Government of Cambodia’s capacity to take
the lead in coordinating joint actions with NGOs. However, USAID/Cambodia has not
developed measurable performance indicators and targets to gauge the success of the
coordination efforts.

Although USAID/Cambodia’s efforts to assist the Royal Government of Cambodia in
combating human trafficking have achieved some results, the mission did not establish
baseline data and did not develop measureable performance indicators to monitor and
evaluate progress toward project goals and objectives. Audit findings include the need to
(1) collect baseline data on trafficking, (2) develop performance indicators and targets to
measure progress and achievement of project goals, and (3) develop a standard
methodology to track arrests, prosecution, and conviction cases through the judicial



22   USAID OFFICE OF INSPECTOR GENERAL
system. The report contains three recommendations to address these concerns.
USAID/Cambodia generally agreed with all three recommendations and discussed
actions it has taken and target completion dates to implement each recommendation.

(Audit Report No. 9-000-10-002-P)

Audit of USAID/Democratic Republic of Congo’s Displaced Children and
Orphans Fund Activities. For more than a decade, the Democratic Republic of
Congo has experienced war and unrest. Approximately 1.1 million people have been
displaced, and the pressures of rapidly growing urban populations have contributed to
increased poverty, marginalized the poor, and weakened social and legal structures. The
overall objectives of USAID’s Displaced Children and Orphans Fund (DCOF) activities
have been to help vulnerable children who have been abandoned by or separated from
their families as well as to promote advocacy at the local and national levels. The fund
supports the United Kingdom’s Save the Children UK program for Reducing
Abandonment of Children in the Democratic Republic of Congo, working in the three
urban centers of Kinshasa, Mbuji Mayi, and Bukavu. USAID awarded $3.6 million to Save
the Children UK through a cooperative agreement, beginning September 30, 2006, and
ending September 30, 2009. As of September 30, 2008, the full amount of the award had
been obligated, and $2.2 million had been disbursed (62 percent of the award).

As of September 30, 2008, USAID/Democratic Republic of Congo’s DCOF activities had
achieved only 52 percent of planned results. Nonetheless, the program achieved positive
results within the target population, including the release of 556 children who had been
wrongfully detained in local jails, reunification of 683 children with their families, and
sensitization efforts to reduce the causes of child abandonment.

We also noted that staff turnover had prevented the mission from updating its
performance management plan to reflect the DCOF program’s current activities. The
performance management plan is a critical tool for planning, managing, and documenting
the program’s performance, and updating it could strengthen program management.

The report’s one recommendation advised the mission to update the DCOF
performance management plan and develop procedures to assign responsibility for
updating the document regularly. USAID agreed with the recommendation.

(Audit Report No. 7-660-10-001-P)



       ECONOMIC GROWTH AND PROSPERITY

Economic Security
Audit of USAID/Jordan’s Sustainable Achievement of Business Expansion
and Quality Project. USAID/Jordan developed a program under its Sustainable
Achievement of Business Expansion and Quality (SABEQ) Project to improve private
sector competitiveness within Jordan during FY 2007–11. On September 26, 2006,
USAID/Jordan awarded a 5-year, $69 million SABEQ contract to BearingPoint, Inc.
(BearingPoint), designed to assist the Government of Jordan in enhancing the country’s


                                    SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010   23
competitiveness in global markets, deepening the public sector reform process, and
increasing the number of available jobs.

The audit determined that USAID/Jordan is making progress toward improving
Jordanian private sector competitiveness and increasing jobs available to Jordanians by
the end of fiscal year 2011. We based this determination on a review of a statistical
sample of 72 of 189 (38 percent) of the total project activities. Moreover, USAID/Jordan
reported in FY 2008 that annual exports from Jordan to the United States and other
countries had increased by more than $78 million. In addition, the mission reported that
more than 1,400 university graduates had joined the workforce as a result of U.S.
Government-supported training and that more than 410 small and medium-sized
enterprises had enhanced their business prospects.

OIG made eight recommendations to strengthen the mission’s overall administration of
the SABEQ project. These include (1) ensuring that required audits of foreign
organizations are conducted; (2) reviewing and testing conflict of interest mitigating
processes; (3) reviewing and obtaining antiterrorism certifications; and (4) updating the
performance management plan.

Mission officials generally agreed with four recommendations and took final action on
one of them. However, the mission did not agree with four other recommendations,
which address the improvement of controls to strengthen management oversight
regarding antiterrorism certification measures and audits of locally incurred costs by
local for-profit organizations. Management decisions for those are pending.

(Audit Report No. 6-278-10-004-P)

Audits of USAID Food for Peace Programs Sierra Leone and Haiti. The Food
for Peace Act 9 is the principal mechanism through which the U.S. Government
implements its international food assistance initiatives. The intent of this legislation is to
promote food security in the developing world through humanitarian and developmental
uses of food aid. Through title II of this act, the United States has provided 106 million
metric tons of American agricultural commodities to address food insecurity in foreign
countries. Title II projects are implemented through cooperating sponsors that include
private voluntary organizations, NGOs, and international organizations. With USAID’s
approval, cooperating sponsors may either distribute the commodities directly to
recipients or sell the commodities to generate proceeds to support local development
programs.

USAID/West Africa (Sierra Leone). The USAID Office of Food for Peace funds the
$30 million Livelihood Expansion and Asset Development Program in Sierra Leone,
which is implemented by a coalition of private voluntary organizations known as the
Consortium for Rehabilitation and Development. The consortium, headed by the
Cooperative for Assistance and Relief Everywhere (CARE) International, operates under
a multiyear assistance program agreement with USAID. The agreement between USAID
and CARE started on October 1, 2006, and will end on May 31, 2010. The main goals
are to reestablish and expand the agricultural sector, implement programs focused on


 9 This act was formerly known as the Agricultural Trade and Development Assistance Act of 1954, Public

Law 83–480 (commonly known as P.L. 480). It was renamed the Food for Peace Act in June 2008.



24   USAID OFFICE OF INSPECTOR GENERAL
youth, children under age 5, and pregnant and lactating women, and provide
commodities to relieve chronic food insecurity. The program intended to distribute
44,440 metric tons of food, but the cooperating sponsor had requested only 27,070
metric tons of food as of September 30, 2009. USAID explained that the program will
fall short of its intended commodity distribution because there will be no further food
distributions under the program. A late startup of the program reduced the timeframe
for implementation and prevented the program’s full achievement.

This audit was conducted to determine whether USAID and its cooperating sponsor
have established and implemented adequate controls to minimize food losses and ensure
that food aid was received, stored, and distributed in accordance with existing
guidelines. The audit found that, for the most part, USAID and its cooperating sponsor
have implemented adequate controls over the receipt, storage, and distribution of food.
Nevertheless, the audit found some areas for improvement.

OIG found that commodities were vulnerable to losses during shipment because they
were not required to be sealed in secure shipping containers during transatlantic
passage. For this program, 86 percent of the monetary value of food losses occurred
during ocean transport and at the receiving port. At central and regional warehouses,
we found some departures from the storage guidelines of USAID and the cooperating
sponsor. Some warehouses had water leaks, several were missing fire extinguishers, and
one had an unsecured opening. We found that food had not always been distributed to
the beneficiaries immediately after it was delivered to the communities and that relevant
documentation of distribution—such as copies of food distribution waybills and
beneficiary lists—had not always been maintained at the food distribution sites. We also
found that the process for reporting and resolving food losses needed improvement.
Loss reports were incomplete, and $93,434 in losses incurred and reported by the
cooperating sponsor as far back as 2007 remained uncollected and unresolved. Finally,
the USAID branding guidelines were not being followed. None of the eight sites visited
displayed USAID banners or posters, road rehabilitation projects visited were not
marked with the USAID emblem, and beneficiaries did not know that the food was
provided by USAID.

The report made eight recommendations to correct the deficiencies described above.
USAID’s Office of Food for Peace agreed with most of the recommendations in the
report.

(Audit Report No. 7-685-10-003-P)

USAID/Haiti. USAID addresses the food security issue in Haiti through multiyear food
security programs, stabilization programs that generate much-needed disposable
income, watershed restoration programs with direct technical assistance for improved
agricultural production, financing programs that target rural poor and vulnerable farmers
and cooperatives, health programs, and disaster mitigation programs. USAID/Haiti began
a new, multiyear development food aid program in 2008. This 5-year program runs from
2008 to 2012 and totals $191 million over the life of the program. The program is
implemented by three cooperating sponsors: Catholic Relief Services, $61.7 million;
World Vision, $91 million; and ACDI/VOCA, $37.4 million.




                                    SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010   25
OIG determined that the commodities at selected sights had been adequately protected
against loss and diversion. During our inspections of 6 commodity warehouses and 14
distribution sites, the audit confirmed that commodities at these locations had been
stored properly in most cases and that cooperating sponsors had maintained accurate
inventory records.

However, OIG noted some areas that need improvement. Some distribution centers
had experienced periodic shortages of commodities and had provided reduced rations
to beneficiaries. Also, a cooperating sponsor had not provided sufficient training to
warehouse staff, had not aggressively pursued action against an employee who had
stolen commodities, and had no written policies and procedures for food distribution
practices.

The report contained five recommendations to address these problems. Management
decisions were reached on all recommendations.

(Audit Report No. 1-521-10-002-P)

Audit of USAID/Ethiopia’s Agricultural Sector Productivity Activities. The
main strategy of the agricultural program is to transition from an emergency response
program to one that proactively builds capacity to prevent famine and promote
economic growth. Since 2004, USAID/Ethiopia has supported agricultural activities
valued at $116 million. As of March 2009, the mission had obligated approximately
$70 million of this amount to 19 implementing partners for these activities, which will be
implemented through September 2010. The agricultural program’s goals are to assist
Ethiopia in achieving market-led economic growth and to improve the resiliency of
farmers, pastoralists, and other beneficiaries.

The audit found that the program is contributing to its goals. However, we could not
determine the extent of that contribution because of weaknesses in the mission’s
performance management and reporting system. Moreover, the audit could not
determine whether the results reported in USAID/Ethiopia’s performance plan and
report were valid, because mission staff could neither explain how the results had been
derived nor provide support for those reported results.

Despite the program’s positive contributions that we observed for selected agricultural
activities, the audit identified several areas for improvement. The audit made 17
recommendations, advising the mission to improve its performance management and
reporting system, strengthen its preparation of awards, and improve compliance with
key requirements, such as branding, environmental requirements, and participant
training.

USAID/Ethiopia agreed with the majority of the recommendations. Management
decisions were reached on nine recommendations, final action was taken on four, and
management decisions are pending on the remainder.

(Audit Report No. 4-663-10-003-P)

Audit of USAID/Dominican Republic’s Rural Economic Diversification
Project. The Central American-Dominican Republic-United States Free Trade
Agreement (CAFTA-DR) entered into force between the United States and the


26   USAID OFFICE OF INSPECTOR GENERAL
Dominican Republic on March 1, 2007. This agreement offers Dominican farmers
opportunities as well as challenges as participating countries are asked to eliminate
tariffs. To support the Dominican Republic’s transition to more open agricultural
markets, on February 1, 2008, USAID/Dominican Republic (USAID/DR) signed an
$11.7 million, 3-year contract with Abt Associates to implement the USAID Rural
Economic Diversification (USAID/RED) Project. The main goal of the project is to help
create and strengthen viable, sustainable agricultural clusters made up of competitive
and profitable producers, processors, buyers, and suppliers of nontraditional agricultural
products.

As of October 30, 2009, the mission had obligated $7.9 million and had expended
$5.76 million under this contract.

The audit concluded that the project has provided considerable assistance to the
Dominican Republic’s agricultural sector. However, the project achieved only limited
progress in developing sustainable agricultural clusters. To improve the likelihood of
project success, USAID/DR needs to refocus project funds and resources, develop more
effective performance measures, and refine and expand the credit program to better
support program goals.

The report included four recommendations for USAID/Dominican Republic.
Management decisions have been reached on two recommendations, and management
decisions on the remaining two are pending action by the mission.

(Audit Report No. 1-517-10-005-P)



                       INVESTMENT IN PEOPLE

Health
Audit of Selected USAID/Bangladesh Population and Health Activities.
Bangladesh is one of the most densely populated countries in the world, and almost half
of its approximately 145 million people live below the poverty line. The Bangladesh
Government’s pressing priorities are to reduce fertility, improve health outcomes, and
alleviate poverty. However, the public health system struggles with problems, especially
in the rural areas, and many people rely on NGOs as their main source of health care.
USAID has supported these NGOs over the past three decades, and as a result many
NGOs have the technical and managerial skills to provide high-quality health services.
However, their financial sustainability is limited.

To help the Government of Bangladesh provide sustainable health services, in
September 2007 USAID/Bangladesh awarded a 4-year, $46.5 million contract to
Chemonics International, Inc. (contractor), to implement the Smiling Sun Franchise
Program. The program intends to convert the existing NGO network into a viable
franchise system that will make individual clinics increasingly self-sustaining over the life
of the program. As of September 30, 2008, USAID/Bangladesh had obligated
$22.1 million and disbursed $8.2 million for the health activities of the franchise



                                    SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010   27
program. Of the $8.2 million disbursed, $6.3 million was in grants awarded to 29 NGOs
to provide maternal, child, and reproductive health care services.

The audit concluded that the program had generally achieved planned results by the end
of its first year of implementation. For the nine performance indicators selected for
review, actual results reached 82 percent to 128 percent of targeted performance levels,
with 100 percent or greater accomplishment of five performance indicators. For
example, the program had a target of 2,169 deliveries with a skilled birth attendant, and
2,470 such deliveries were achieved—easily exceeding the program’s first-year target.
Also, by the end of the first year, the 319 clinics under the program had surpassed the
program’s target of an average cost recovery of 25 percent—achieving an average cost
recovery rate of 32 percent. On the other hand, the program’s first-year target for
treating child diarrhea was 2.07 million treatments, and only 1.70 million were
accomplished. However, even though planned results had generally been achieved in the
first year of the program, the mission lacked assurance that one of the program’s main
objectives—eliminating program health clinics’ reliance on USAID funding—would be
achieved by the fourth year of program implementation.

OIG recommended that USAID/Bangladesh require the contractor to develop a plan to
maintain and expand a financially sustainable network of franchise clinics. A management
decision has been reached on the recommendation.

(Audit Report No. 5-388-10-003-P)

Audit of USAID/Rwanda’s HIV/AIDS Treatment Activities. In May 2003,
Congress enacted legislation to fight HIV/AIDS globally through the President’s
Emergency Plan for AIDS Relief (PEPFAR). 10 PEPFAR was a commitment of $15 billion
over 5 years (2003–08) for the prevention, treatment, and care of individuals with
HIV/AIDS. On July 30, 2008, additional legislation extended the program for 5 additional
years, from 2009 through 2013. 11 The legislation also increased the U.S. financial
commitment to $48 billion to combat global HIV/AIDS, tuberculosis, and malaria, of
which $39 billion was set aside for HIV/AIDS programs.

HIV/AIDS treatment programs aim to dramatically decrease the number and severity of
illnesses associated with HIV infection and to significantly improve the duration and
quality of life of HIV-positive individuals. USAID/Rwanda’s support for the
Government of Rwanda’s treatment activities—including procuring, storing, and
distributing related commodities through the government’s system—are a critical part
of the mission’s HIV/AIDS program. During FY 2008 the treatment program involved
four major implementing partners (Family Health International, Elizabeth Glaser Pediatric
AIDS Foundation, IntraHealth International Inc., and Partnership for Supply Chain
Management) who received $23.6 million under a variety of agreements.

The audit determined that significant numbers of patients were receiving treatment
services at the hospitals and health centers visited. Nearly 4,700 people were treated at
the 11 hospitals or clinics visited during the audit. However, because of problems with

10 United States Leadership Against HIV/AIDS, Tuberculosis, and Malaria Act of 2003 (22 U.S.C. 7601).
11 The Tom Lantos and Henry J. Hyde United States Global Leadership Against HIV/AIDS, Tuberculosis,
and Malaria Reauthorization Act of 2008 (Public Law 110–293).



28   USAID OFFICE OF INSPECTOR GENERAL
data quality encountered during the audit, USAID/Rwanda could not provide valid and
reliable information on the total number of persons on HIV/AIDS program-supported
antiretroviral therapy.

The audit also found that USAID/Rwanda had provided technical assistance to the
Government of Rwanda to procure, store, and distribute treatment commodities.
Although USAID/Rwanda did not have specific performance indicators for procuring,
storing, and distributing treatment commodities, mission management contributed to
the results reported for other treatment activities by supporting the Government of
Rwanda in supplying the commodities necessary to accomplish those results. Without
the commodities, treatment services could not have been provided.

To improve the quality of performance planning, reporting, and monitoring, the audit
made nine recommendations. These included training the staff of treatment service
outlets; improving the management of treatment commodities and laboratory
equipment issued to treatment service outlets; developing a complete performance
management plan; and requiring that mission staff perform and document adequate data
quality assessments and site visits.

Management decisions were reached on all nine recommendations, and final action was
taken upon two at the time of report issuance.

(Audit Report No. 4-696-10-002-P)

Followup Audit of USAID/Guyana’s Progress in Implementing the
President’s Emergency Plan for AIDS Relief. In Guyana, the 5-year goals through
FY 2008 were to prevent 14,000 HIV infections, provide palliative care and support
services to 9,000 persons infected or affected by HIV/AIDS, and provide treatment to
1,800 HIV-infected people.

The audit found that USAID/Guyana’s HIV/AIDS activities had partially achieved their
goals for FY 2008. USAID/Guyana substantially met or exceeded its performance targets
for the number of individuals who had received services for prevention of mother-to-
child transmission (PMTCT) of HIV, orphans and vulnerable children served, and
individuals provided with HIV-related palliative care. However, it was not clear whether
goals had been achieved for voluntary counseling, testing services, or outreach programs
because reported results for three of six goals tested were not supported with
adequate documentation or were not always accurate.

In other findings, the audit also disclosed that three of the six planned targets in
USAID/Guyana’s 2008 operational plan were inconsistent with the aggregate subgrantee
targets. USAID/Guyana needs to take additional steps to improve the quality of data
from its recipients, subrecipients, and the Guyanese Ministry of Health. There were
allegations of sexual misconduct between a member of a subgrantee’s board of directors
and minor children participating in a program for orphans and vulnerable children.
Finally, although the mission has made progress in implementing a strategy to promote
sustainability, USAID/Guyana could take additional steps, such as requiring implementing
partners to provide cost-sharing contributions.

OIG recommended that USAID/Guyana develop and implement written procedures for
its operational plans. The mission should require its contractors to monitor subgrantees


                                    SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010   29
and confirm that results are accurate and supported by source documentation.
Furthermore, the mission should provide training to the Ministry of Health and to its
subgrantees to prepare accurate, well-documented results data. OIG also recommended
that USAID/Guyana require its contractor to establish a standard code of conduct for all
subgrantees involved in activities for orphans and vulnerable children and include
provisions in its subgrant agreements for cost-share contributions.

USAID/Guyana concurred with five of the six recommendations and took final action in
response to these five recommendations. A management decision was reached for the sixth.

(Audit Report No. 1-504-10-003-P)

Worldwide Audit of the PEPFAR-Funded Activities and Commodities for the
Prevention of Mother-to-Child Transmission of HIV. As part of a worldwide
audit of USAID’s procurement and distribution of HIV/AIDS commodities, OIG
conducted audits at four selected missions: Ethiopia, Kenya, Nigeria, and Tanzania. The
audits assessed whether the activities had met mandated targets and, specifically,
whether USAID had procured, stored, and distributed commodities for the prevention
of mother-to-child transmission of HIV.

At the four countries audited, USAID’s efforts contributed toward meeting mandated
targets, and the results have helped prevent the transmission of HIV from pregnant
women to their children. However, the audit also found that USAID could not measure
the impact of the PMTCT activities. Further, the activities faced many challenges—such
as data quality deficiencies, incomplete performance management plans, lack of technical
oversight, and failure to conduct thorough site visits.

For PMTCT commodities, the audit found that USAID had achieved its intended results
during FY 2008. It had procured the desired commodities, and upon arrival incountry the
commodities were inventoried, segregated, stored, and distributed to intended beneficiaries.
However, OIG found commodity management problems in each of the four countries.
Examples included shortages of commodities at some health centers, inaccurate and
incomplete inventory records, and test kits mislabeled as antiretroviral medication. Despite
these problems, PMTCT activities helped pregnant women gain access to test kits to
determine their HIV status. If results were positive, the women could take antiretroviral
prophylaxis medication to prevent the transmission of HIV to their unborn children.
Without USAID-provided commodities, these services could not have been provided.

Recommendations were made in the individual audits to address the problem areas
noted above. Therefore, this audit made no recommendations.

(Audit Report No. 9-000-10-005-P)

Audit of USAID/Senegal’s Implementation of the President’s Malaria
Initiative. As part of its implementation of the President’s Malaria Initiative (PMI),
USAID/Senegal supports (1) distribution of insecticide-treated nets, especially to children
under 5 years of age and pregnant women, (2) indoor residual spraying in three districts, and
(3) training for case managers for improved malaria diagnosis and treatment.

To implement the initiative, the mission entered into cooperative agreements with
Intrahealth (June 2006–September 2011) and Christian Children’s Fund (July 2006–


30   USAID OFFICE OF INSPECTOR GENERAL
September 2011) and participated in USAID/Washington’s centrally funded mechanisms
with the Academy for Educational Development and Research Triangle Institute. During
FY 2008, USAID/Senegal obligated $15.8 million and disbursed $15.1 million.

In FY 2008, the PMI program exceeded its performance target for training and for
purchasing insecticide-treated bed nets. The program did not meet its target for distributing
and selling bed nets, mainly because the regions for the free net distribution were not
selected until March and free distribution of bed nets had cannibalized sales to some degree.
The mission reported that it had exceeded the target for spraying houses, but OIG could
not verify this accomplishment because of deficiencies in program records.

PMI has had a positive effect overall, as measured by the decrease in the under-5
mortality rate from 121 per 1,000 live births in 2005 to 85 per 1,000 live births in
2008–09. Although other factors may have contributed to the decrease in mortality, the
increase in net ownership and use and the high occurrence of malaria in Senegal prior to
the beginning of PMI indicate that a significant amount of this reduction is probably due
to malaria control interventions.

The audit found that, for the subsidized bed-net voucher system, financial accountability
has been deficient and bed nets have been stored in unsanitary conditions. For the
spraying activities, program records for the number of houses sprayed exhibited significant
discrepancies. The implementing partner could not provide documentation to show that
more than 11 percent of the houses had been sprayed in a judgmental sample of 10,320
houses selected for testing. Also, the partner did not adhere to USAID branding policies,
as none of the three district warehouses or any of the items stored in them displayed the
USAID logo. However, after the audit was completed, USAID/Senegal and the partner-
trained staff and took action to mark USAID-financed commodities and equipment.

USAID/Senegal did not agree with all the recommendations but took actions to address
the issues identified in the report.

(Audit Report No. 7-685-10-005-P)

Audit of USAID/Angola’s Procurement and Distribution of Commodities
Under the President’s Malaria Initiative. Angola was one of the first three countries
selected for assistance through PMI, with a goal of reducing malaria-related mortality by
50 percent by the end of 2010. The initiative intends to reach 85 percent coverage of the
most vulnerable groups—children under age 5 and pregnant women—with proven
preventive and therapeutic interventions, including artemisinin-based combination therapies,
insecticide-treated nets, intermittent preventive treatment of pregnant women, and indoor
residual spraying. To accomplish the goals, USAID/Angola, in consultation with the Angolan
National Malaria Control Program and with participation of national and international
partners, is working to facilitate the purchase and distribution of these commodities in
Angola. USAID/Angola’s FY 2008 funding for PMI totaled $19 million, of which
51 percent was for the purchase of commodities, in grants to and cooperative
agreements with implementing partners, who in turn provide services to the Angolan
Ministry of Health. PMI started in Angola in 2005 and is expected to end in 2010.




                                    SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010   31
The audit found that USAID/Angola’s
procurement and distribution of
commodities are helping the program
meet its goals. Commodities financed by
USAID were reaching the intended
beneficiaries, including those at some of
the remotest health facilities in the
country. These commodities included
millions of malaria treatment drugs,
hundreds of thousands of rapid test kits
for diagnosing malaria, as well as
hundreds of thousands of insecticide-
treated mosquito nets, in FY 2008 alone.
However, the audit also found that
(1) the mission could not track its
progress toward achieving the PMI goal
of reducing malaria mortality, because of
a delay in the release of the multi-
indicator cluster survey by the
Government of Angola, (2) a persistent
                                                U.S. Government-subsidized mosquito nets
diversion of PMI commodities—over                 in a Quibala shop. (Photograph by OIG.)
$650,000 lost since January 2008—has
limited the mission’s ability to manage the program properly, and (3) a potential
overstatement of the incidence of malaria in Angola, caused by issues with diagnosis,
may cloud the impact of the PMI program on Angola’s malaria-related mortality rate.

The report included eight recommendations to strengthen USAID/Angola’s
procurement and distribution of commodities under PMI. Management decisions have
been reached on all recommendations. Final action has been taken on two
recommendations and is pending on the remaining six.

(Audit Report No. 4-654-10-001-P)

Education
Audit of USAID/Mali’s Education Program. Mali has some of the most pressing
education needs in the world. Ministry of Education statistics show that only about
29 percent of adults in Mali (and only 21 percent of women) are literate, and more than
a third of Mali’s children, aged 7 to 12 (about 890,000), do not attend school at all.

USAID/Mali developed a strategy to expand access to basic education with an emphasis on
reinforcing lifelong literacy. The strategy included (1) improving instruction to reinforce
literacy and numeracy, (2) improving the Ministry of Education’s capacity to implement
decentralization, (3) improving coordination among school-, district-, and regional-level
planning, and (4) improving access to basic education for targeted populations. During the
period covered by this audit, FY 2008–09, USAID/Mali’s education team engaged in closing
out four programs that had been put in place under the 2003–12 country strategic plan. The
team also worked to develop and initiate a new strategy for 2009–13, with programs
capable of absorbing the mission’s rapidly increasing education budget.



32   USAID OFFICE OF INSPECTOR GENERAL
USAID/Mali entered into agreements with three main implementing partners: Education
Development Center ($4.9 million, February 2004 through July 2008, and $29.9 million,
August 2008 through July 2013); Academy for Educational Development ($4.5 million,
September 2004 through June 2009, and $22.5 million, May 2009 through April 2014);
and World Education Development ($15.5 million, August 2003 through October 2008).
During FY 2008 and 2009, $27.2 million was obligated and $11.8 million was disbursed
for USAID/Mali’s education program.

OIG could not determine whether USAID/Mali’s education program was achieving its
main goals because the auditors could not obtain sufficient evidence to support the
results reported by the mission. The scope of the audit was limited because one
implementing partner had violated record retention regulations by discarding or
misplacing documentation needed to support its reported results, such as sign-in sheets
for the number of administrators and officials trained; also, program records maintained
by another implementing partner were flawed. In addition, an implementer had weak
internal controls over the processes for maintaining accurate teacher training records
and for paying teachers a per diem and transportation allowance. The teacher training
portion of the program was vulnerable to fraud because accountants at the Ministry of
Education were recreating lists for claim purposes that resulted in discrepancies
between the number of training participants who had signed the attendance sheets and
the number who had been paid a per diem and transportation allowance.

Beyond the issues of poor data quality and availability and insufficient monitoring and
evaluation, the program was impaired by delays in implementation in FY 2009,
weaknesses in the mission’s performance management plan and data quality
assessments, inconsistency in broadcasting radio programs, and noncompliance with
branding and forward funding requirements.

OIG made 10 recommendations for USAID/Mali to strengthen its education program
and address the problems described here. We recommended that the mission obtain
adequate documentation from the Education Development Center for the $20,500 in
unsupported questioned costs related to per diem payments or issue a bill for
collection. Also, the mission should follow up with Education Development Center
regarding its internal review, determine whether additional amounts should be
questioned, and request a bill for collection for those amounts. Final action has been
taken on five recommendations and management decisions have been reached on two.
Management decisions on the remaining three are pending.

(Audit Report No. 7-688-10-004-P)



                 MANAGEMENT CAPABILITIES

Information Technology
Audit of USAID’s Compliance With the Federal Information Security
Management Act for FY 2009. An audit was conducted to determine whether
USAID had implemented selected minimum security controls for its information systems



                                    SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010   33
as required by the Federal Information Security Management Act of 2002 (FISMA),
Public Law 107–347.

The audit concluded that USAID had implemented selected minimum security controls
for selected information systems, as required by FISMA. However, several
improvements could be made to the Agency’s information security program. To address
these challenges, OIG made 16 recommendations. Management decisions were made on
all recommendations. USAID’s actions in response to these recommendations will be
reviewed in the FISMA audit for FY 2010.

(Audit Report No. A-000-10-001-P)

Audit of USAID’s Compliance With Section 522 of the Consolidated
Appropriations Act of 2005. An audit was conducted to determine whether USAID
had (1) accurately reported on its use of information in identifiable form along with its
privacy and data protection policies and procedures and (2) developed and implemented
comprehensive privacy and data protection procedures in support of section 522 of the
Consolidated Appropriations Act of 2005.

With respect to the first objective, the audit concluded that USAID had not met all of
the requirements for accurately reporting its use of information in identifiable form,
along with its privacy and data protection policies and procedures.

With respect to the second objective, the audit concluded that USAID had not met all
of the key elements of section 522 of the Consolidated Appropriations Act of 2005 for
developing and implementing comprehensive privacy and data protection procedures.

OIG made 12 recommendations to help USAID improve its privacy program for its
information technology systems. Management decisions have been reached on seven
recommendations, and final action has occurred on five.

(Audit Report No. A-000-10-002-P)



                       FINANCIAL MANAGEMENT

Management Accountability
Audit of USAID Financial Statements. OIG issued an unqualified opinion on
USAID’s FY 2009 and 2008 financial statements and reported one material weakness
and three significant deficiencies in internal controls.

OIG reported a material weakness with respect to USAID’s reconciliation of its fund
balance with the U.S. Department of the Treasury. Additionally, significant deficiencies
were reported in the following areas: process to reconcile loans receivables, accounting
for accrued expenses, and reconciliation of intragovernmental transactions.




34   USAID OFFICE OF INSPECTOR GENERAL
OIG recommended that USAID:

•   Intensify its efforts to reconcile current monthly transactions with the Treasury
    Department and identify, track, and resolve legacy differences recorded in the
    suspense accounts and in other appropriation accounts.
•   Develop and implement procedures to conduct a thorough reconciliation of the
    outstanding loan balances maintained in its accounting system with those maintained
    by its loan service provider, Midland, and those reported by the borrowers.
•   Rectify the flaw in the financial accounting system script to ensure that payments
    made for amounts accrued are applied to the related contract or task order
    accruals before quarterly accruals are recorded against the original contract
    obligation in the accounting system.

Management decisions have been reached on all three recommendations.

(Audit Report No. 0-000-10-001-C)

Audit of USAID’s Process for Suspension and Debarment. OIG conducted this
audit to determine whether USAID’s suspension and debarment process has protected
the public interest by responding to contractor impropriety in accordance with Federal
guidance. The audit found that USAID’s process has not protected the public interest
adequately.

USAID complied with Federal guidelines that proscribe conducting business with parties
ineligible to receive a Federal award and took seven debarment actions and two
suspension actions during the 5-year audited period. However, USAID’s actions were
not responsive enough to protect the public interest. Moreover, USAID did not comply
with Federal guidelines that require agencies to provide notice of final debarment
decisions and enter suspension and debarment information into the Federal database of
excluded parties. Additionally, USAID poorly documented the actions it took.

Some procedures for screening contractors were conducted consistently, but the
screening process did not always fully protect the public interest and did not support
USAID’s suspension and debarment process. USAID has not considered determinations
of nonresponsibility for suspension or debarment and has not always documented
contractor responsibility certifications. Additionally, USAID has not consistently
conducted and documented reviews of the Federal database of excluded parties.

USAID’s decision-making process for suspension and debarment actions is not effective.
The organizational entities have too many responsibilities to devote enough attention to
suspension and debarment. Moreover, the process relies on a single source to identify
matters for consideration. These flaws and constraints reduce USAID’s ability to protect
the public interest and to support fundamental fairness to the Government and its
contractors. Two primary areas need improvement: the supporting organizational
structure and methods for identifying problems.

The report made 12 recommendations to help USAID strengthen the suspension and
debarment process. Management decisions have been reached on all of them.

(Audit Report No. 9-000-10-001-P)



                                    SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010   35
Audit of USAID’s Internal Controls Over the Separate Maintenance
Allowance. USAID may grant a separate maintenance allowance to an employee
assigned to a foreign post when the employee is compelled to maintain any or all family
members at a location other than at the foreign post. The allowance can be requested
to assist in offsetting the additional expense incurred by an employee maintaining two
households. From January 2005 through June 2009, the Agency granted allowances
totaling approximately $4.5 million.

The audit examined involuntary, voluntary, and transitional allowances. An involuntary
allowance may be granted to an employee when dangerous, notably unhealthful, or
other adverse living conditions warrant the exclusion of family members from the area.
A voluntary allowance may be granted when an employee personally requests an
allowance on the basis of special needs or hardship involving the employee or family
members. A transitional allowance may be granted to an employee whose family
members temporarily occupy commercial quarters following termination of an
evacuation or in connection with an unaccompanied assignment.

OIG found that USAID had not adopted appropriate internal controls to prevent
improper use of the allowance. Specifically, USAID’s manual of policies and procedures
governing the allowance was outdated. In addition, USAID provided employees with an
outdated allowance form, and USAID officials approved outdated allowance applications
without the required signature of the employee’s spouse or domestic partner as well as
applications without the required employee certification statements. The documentation
used to authorize allowance payments varied widely among missions. Finally, USAID
could not provide adequate documentation to verify that all allowance transactions had
been properly authorized, and officials could not readily identify employees who had
received allowance payments.

The report included 10 recommendations to strengthen USAID’s internal controls over
the allowance. Final action has been taken on one recommendation and management
decisions have been reached for the rest.

(Audit Report No. 9-000-10-003-P)

Investigation of Funds Used to Support Terrorism Leads to Guilty Plea. OIG
initiated an investigation on the basis of allegations that a U.S.-based NGO that received
USAID funding had misused U.S. Government funds to support terrorism. USAID
terminated its relationship with the NGO after it was identified by the U.S. Treasury
Department as a “Specially Designated Global Terrorist Organization.” The NGO
implemented a water income-generating project and a child survival program in Mali.

The investigation resulted in the indictments of the NGO and several of its principal
officers for money laundering, theft of public money, prohibited transactions with a
Specially Designated Global Terrorist, conspiracy, and obstruction of justice.

One of the defendants pleaded guilty to one count of violating 18 U.S.C. 371 (conspiracy to
commit offense or to defraud the United States) and conspiring to violate 50 U.S.C. 1701–
1706, the International Emergency Economic Powers Act. A sentencing date is pending.

The case was investigated jointly by USAID/OIG, the Federal Bureau of Investigation,
and the Internal Revenue Service.


36   USAID OFFICE OF INSPECTOR GENERAL
Investigation of Purchasing Irregularities Leads to $1.5 Million Savings and
$275,000 Bill of Collection. OIG initiated an investigation on the basis of allegations
that a USAID contractor had purchased and used equipment and vehicles that did not
meet the USAID-funded contract’s source and origin requirements and had knowingly
submitted false certificates to USAID stating that the requirements had been met.
Source, origin, and nationality regulations are in place to ensure that the goods and
services financed by USAID meet the requirements of the Foreign Assistance Act and
benefit the U.S. economy as well as fulfilling the needs of the foreign assistance program.

The OIG investigation revealed that the contractor had knowingly purchased equipment
and vehicles that did not comply with the contract’s source and origin requirements. In
addition, the contractor had falsely certified and billed the amounts to USAID.

As a result of the investigation, USAID withheld approximately $1.5 million from the
contractor for the noncompliant equipment and issued a bill for collection for
approximately $275,000.

Investigation of Inflated Billings Leads to Felony Conviction, 2 Years of
Probation, and $5,000 Fine. OIG initiated an investigation on the basis of allegations
that a U.S. supplier had billed USAID at inflated costs for goods purchased under a
USAID-funded commodity import program.

This investigation revealed that the U.S. supplier had deliberately delayed shipments of
polypropylene and backdated shipping documents in multiple transactions valued at over
$1 million. Polypropylene is used in a wide variety of applications, including packaging,
textiles, and stationery. The supplier had delayed the shipments to take advantage of
falling prices for polypropylene without passing the savings on to the importer. The
scheme increased the supplier’s profit margin while causing USAID to finance an inflated
transaction.

As previously reported, the U.S. supplier’s sales representative was subsequently
indicted on felony bank fraud charges and pleaded guilty to a felony. During this
reporting period, the sales representative was sentenced to 2 years of probation and
fined $5,000.

Investigation of Stolen Commodities Leads to Indictments. OIG initiated an
investigation on the basis of allegations regarding a USAID-funded Democracy, Conflict,
and Humanitarian Assistance program. According to the allegations, 90 percent of
donated commodities distributed under the USAID-funded program never reached the
intended beneficiaries.

The investigation revealed that some of the recipient communities for the commodities
(including food and building materials) were nonexistent, and supporting documentation
for the distribution and receipt of the goods was falsified by members of the NGOs
tasked with implementing the program. As a result, USAID was billed for food
distribution that never reached the intended recipients and community stabilization
projects that were never implemented or completed.

The investigation led to the arrest of three foreign nationals associated with the fraud;
one of them was a former senior official for the NGO. The foreign nationals were
accused of selling the food in local markets and keeping the profits. They were also


                                   SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010   37
alleged to have used USAID-funded construction materials to build themselves multiple
houses. The former senior NGO official and one other foreign national were arrested,
and the third arrest is still outstanding.

The three individuals have been indicted on multiple counts, including (1) conspiracy to
defraud the United States, (2) conspiracy to commit mail and wire fraud, (3) mail fraud,
(4) wire fraud, (5) tampering with a witness, and (6) false claims.

Investigation of Travel Fraud Leads to Termination of Employee and Savings
of $51,000. OIG began an investigation on the basis of allegations that a USAID Foreign
Service National (FSN) employee had used the position as a USAID travel assistant to
obtain restricted and discounted business-class airfares for USAID personnel and then
defrauded the travelers.

The investigation revealed that the employee had received cash payments from USAID
personnel for upgrades to business class on personal travel and then knowingly charged
them the higher, full-fare economy rate. To cover the cash received for the upgrades,
the employee then provided numerous travel authorizations to a locally contracted
travel agency, with specific instructions to overcharge USAID more than $35,000 for
official travel expenses.

The USAID mission terminated the FSN employee for cause and withheld approximately
$51,000 from the individual’s severance benefits.

Investigation of Fraudulent Travel Documents Leads to 48 Months of
Probation and $16,400 Restitution. A former USAID deputy controller pleaded
guilty to and was convicted for theft of Government property in the U.S. District Court
for the District of Columbia in October 2009.

In the plea hearing, the subject admitted to submitting three different fraudulent travel
vouchers to USAID and falsely reporting $16,400 in incurred lodging expenses. Each of
the three travel vouchers was submitted using a phony lodging receipt that the subject
had downloaded from an Internet template.

As part of the plea agreement, the subject voluntarily resigned from USAID and agreed
not to seek employment with any other Federal agency in any capacity. The investigation
resulted in 48 months of supervised probation and a full payment of restitution to
USAID.

Expanding Accountability
Corruption and lack of accountability are major impediments to development. These
issues threaten to negate years of economic growth, especially in areas of the world
subject to political instability and violence. OIG audits and investigations afford one
method of safeguarding USAID funds; however, OIG pursues additional methods to
promote accountability and transparency. For example, OIG works with supreme audit
institutions (SAIs) to expand their capabilities and provides training in cost principles and
fraud awareness.




38   USAID OFFICE OF INSPECTOR GENERAL
Expanding Supreme Audit Institutions’ Capabilities. OIG continues to work
closely with selected SAIs in countries where USAID is present. SAIs are the principal
government audit agencies in the recipient countries and are often the only
organizations that have a legal mandate to audit the accounts and operations of their
governments. Therefore, SAIs may be called upon to audit funds provided to host
governments by USAID or other donors. OIG and USAID missions have now signed
memorandums of understanding (MOUs) with 21 SAIs. During this reporting period,
under OIG oversight, SAIs issued 5 audit reports and identified about $1million in
questioned costs covering $4.4 million audited, 5 internal control weaknesses, and 23
instances of noncompliance.

Before SAIs can conduct audits for USAID, they must have professional capability and
independence. OIG often provides training to SAIs in how to conduct financial audits of
USAID funds in accordance with USAID guidelines and U.S. Government auditing
standards. This training helps build capacity within SAIs to enhance their ability to audit
all public funds. The SAI, the USAID mission, and OIG then sign an MOU detailing
standards and procedures to be used in auditing USAID funds provided to the host
government. The MOU states that OIG will provide technical advice and can perform
quality-control reviews of SAI work.

Training USAID Staff and Others. OIG remains committed to preventing losses
and continues to provide training in cost principles and fraud awareness to USAID
employees, contractors, grantees, SAIs, and auditors from local accounting firms.

Cost Principles Training. USAID’s contracts and grants include provisions (cost
principles) that define what types of costs are legitimate charges to support USAID
programs. Although the full text of these cost principles is contained in voluminous
sections of the Federal Acquisition Regulation (FAR) and various Office of Management
and Budget (OMB) circulars, USAID agreements generally contain only a single sentence
that refers to the applicable section of the FAR or the applicable OMB circular. To
increase awareness of—and compliance with—cost principles and to promote the
highest audit standards, OIG presents training to overseas USAID staff, contractors,
grantees, and others. This training provides both a general overview of U.S.
Government cost principles and examples of actual instances that demonstrate concepts
such as reasonableness, allocability, and various specific cost principles (e.g., travel
expenses or entertainment costs). The training also includes financial audit requirements
and accountability issues.

During this reporting period, OIG provided cost principles and related training in 3
countries and trained about 300 individuals, including USAID staff, local accounting firms,
and contractors.

Fraud Awareness Training. In the reporting period, OIG conducted fraud awareness
training in 57 countries for 1,396 individuals. In March 2010, as part of our oversight
strategy for Haiti, OIG’s investigations and audit staff presented nine fraud awareness
briefings in Haiti to prime implementers and their significant subpartners. The briefings
addressed internal controls systems and factors to consider for minimizing opportunities
for fraudulent acts. See appendix II for more details on fraud awareness training.




                                   SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010   39
Accountability Over Contractors and Grantees
USAID is required by FAR, the Single Audit Act, 12 OMB circulars, and its own internal
policies and procedures to obtain appropriate and timely audits of its contractors,
grantees, and Enterprise Funds. OIG provides oversight of these audit activities,
ensuring that audits are conducted in accordance with appropriate quality standards and
thereby enhancing accountability over USAID contractors and grantees. Also, in
accordance with provisions in USAID contracts and agreements, OIG reviews audit
reports of foreign organizations receiving USAID funds.

Audits of U.S.-Based Contractors. U.S.-based contractors carry out many
USAID-funded activities. The Defense Contract Audit Agency (DCAA) conducts audits,
reviews, and preaward surveys of U.S.-based contractors on USAID’s behalf. OIG then
reviews DCAA’s reports and transmits them to USAID management. During this
reporting period, OIG reviewed and transmitted four DCAA reports covering
approximately $186 million in costs.

Audits of U.S.-Based Grantees and Enterprise Funds. U.S.-based nonprofit
organizations also receive significant USAID funds to implement development programs
overseas. As required by OMB Circular A–133, “Audits of States, Local Governments,
and Non-Profit Organizations,” non-Federal auditors perform annual financial audits of
USAID grantees that spend over $500,000 of Federal funds annually. These auditors are
required to identify:

•     Significant deficiencies involving major programs.
•     Material noncompliance with laws and regulations.
•     Known fraud affecting a Federal award.
•     Misrepresentations of the status of prior audit findings.
•     The reasons why the auditor’s report on compliance for major programs is other
      than unqualified.

OIG provides oversight for the non-Federal auditors performing these audits and
reviews to determine whether auditors prepared audit reports in accordance with OMB
Circular A–133 reporting requirements. OIG also conducts quality-control reviews to
determine whether the underlying audits complied with Circular A–133 audit
requirements and generally accepted government auditing standards. In some instances,
OIG contracts with DCAA to perform special financial audits and, with independent
public accounting firms, to perform Agency-contracted financial audits of U.S.-based
grantees.

Enterprise Funds are U.S.-based nonprofit organizations established under the Support
for Eastern European Democracy Act of 1989 (SEED Act). 13 USAID has established
11 Enterprise Funds, 10 of which invest in countries in Eastern Europe and Eurasia,
while the 11th invests in South Africa. Enterprise Funds are subject to annual financial
statement audits performed by private accounting firms and reviewed by OIG.


12   Single Audit Act of 1984, Public Law 98–502, as amended.
13   Public Law 101–179.



40     USAID OFFICE OF INSPECTOR GENERAL
During the current reporting period, OIG:

•   Issued 23 desk review reports for 7 Agency-contracted audit reports and 16 A–133
    single audit reports covering USAID funds of approximately $845 million spent by
    U.S.-based grantees.
•   Completed one quality control review covering over $9 million in grantee
    expenditures.
•   Issued one report completed by DCAA, covering approximately $33 million spent
    by U.S.-based grantees.
•   Identified over $2 million in questioned costs.
•   Issued 10 Enterprise Fund audits, covering over $1 billion in grantee expenditures.

Audits of Foreign-Based Contractors and Grantees. OMB Circular A–133 does
not apply to foreign-based contractors and grantees. Given the high-risk environment in
which USAID operates, however, USAID has extended similar audit requirements to its
foreign-based contractors and grantees through standard provisions included in grants,
cooperative agreements, and contracts and through OIG’s Guidelines for Financial Audits
Contracted by Foreign Recipients (February 2009). Financial audits of foreign-based
contractors and grantees are normally conducted by independent audit firms approved
by OIG’s overseas regional offices.

Under the recipient-contracted audit program, audits are required for all foreign
nonprofit organizations that spend $300,000 or more per their fiscal year. USAID may
also request financial audits of nonprofit organizations that fall below the $300,000
threshold.

For example, at USAID/Southern Africa, OIG reviewed a recipient contracted closeout
audit of two cooperative agreements. The objectives of the cooperative agreements
included reproductive health and perinatal HIV research. Some of the specific issues
included in these objectives were antiretroviral therapy activities and wellness programs,
operational research on reproductive health issues, and prevention of mother-to-child
transmission. OIG recommended that USAID/Southern Africa recover, as appropriate,
about $1.35 million in questioned costs, covering about $17.3 million audited, and
correct six material internal control weaknesses and six instances of material
noncompliance. The questioned costs were related to operational costs without
supporting documentation. Management decisions are pending for the audit
recommendations.

USAID’s financial audit requirements concerning its contracts, grants, and cooperative
agreements are normally satisfied under the recipient-contracted audit program.
However, Agency-contracted audits may be initiated by either USAID or OIG to
provide additional audit coverage or address specific concerns regarding USAID’s
contracts, grants, or other agreements.

OIG reviews all audit reports and, if they are found to be in compliance with Guidelines
for Financial Audits Contracted by Foreign Recipients, transmits the report to the
appropriate USAID mission for corrective actions. Audit firms are also notified of any
problems identified in the audit reports.




                                   SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010   41
During the reporting period, OIG reviewed and transmitted 146 audits of foreign-based
organizations, covering over $1 billion in expenditures and resulting in over $16 million
in questioned costs. OIG also completed 14 quality-control reviews to ensure that the
audits were completed in accordance with appropriate audit standards.




42   USAID OFFICE OF INSPECTOR GENERAL
       SIGNIFICANT ACCOMPLISHMENTS
                   USADF
Audit of the United States African Development Foundation’s Financial
Statements for the Fiscal Year That Ended September 30, 2009. An audit of
the United States African Development Foundation’s financial statements for the fiscal
year that ended September 30, 2009, was performed by a non-Federal audit firm under
OIG oversight. The audit firm provided an unqualified opinion on the financial
statements. Moreover, the report contained no findings or recommendations for
USADF management relative to noncompliance or material weaknesses or significant
deficiencies in internal control.

(Audit Report No. 0-ADF-10-002-C)




                                    SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010   43
44   USAID OFFICE OF INSPECTOR GENERAL
        SIGNIFICANT ACCOMPLISHMENTS
                     IAF
Audit of the Inter-American Foundation’s Financial Statements for the Fiscal
Year That Ended September 30, 2009. An audit of the Inter-American
Foundation’s financial statements for the fiscal year that ended September 30, 2009, was
performed by a non-Federal audit firm under OIG oversight. The audit firm provided an
unqualified opinion on the financial statements. Moreover, the report did not contain
any findings or recommendations for IAF management relative to noncompliance or
material weaknesses or significant deficiencies in internal control.

(Audit No. 0-IAF-10-003-C)




                                  SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010   45
46   USAID OFFICE OF INSPECTOR GENERAL
                                               APPENDIX I

                   REPORTING REQUIREMENTS
                      USAID, USADF, AND IAF


                                                      List of Tables

1.   Financial Audit Reports Issued ............................................................................................. 49
2.   Performance Audit Reports Issued ..................................................................................... 80
3.   Miscellaneous Audit Reports Issued ................................................................................... 83
4.   Afghanistan, Pakistan, and Iraq Audit Reports Issued ..................................................... 88
5.   Unsupported, Questioned, or Disallowed Costs of Over $10 Million or
     Other Significant Findings ...................................................................................................... 91
6.   Audit Reports Over 6 Months Old With No Management Decision ........................ 93
7.   Significant Audit Recommendations Described in Previous Semiannual
     Reports Without Final Action .............................................................................................. 95
8.   Reports Issued With Questioned and Unsupported Costs .......................................... 98
9.   Reports Issued With Recommendations That Funds Be Put to Better Use ........... 100




                                                          Appendix I


                                                  SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010                   47
48   USAID OFFICE OF INSPECTOR GENERAL
                  FINANCIAL AUDIT REPORTS ISSUED
                              USAID

                         October 1, 2009–March 31, 2010
                                                                                     Amount
                                                                                                    Type
     Report        Date of                                                              of
                                                Report Title                                         of
     Number        Report                                                            Findings
                                                                                                  Findings
                                                                                     ($000s)
                          PROGRAMS AND OPERATIONS
                              Audit of USAID’s Financial Statements for
 0-000-10-001-C    11/13/09
                              Fiscal Years 2009 and 2008
                         FOREIGN-BASED ORGANIZATIONS
                            Audit of Save the Children UK under Multiple
 0-000-10-001-R    10/29/09 Agreements for Fiscal Year Ended March 31,
                            2007
                            Audit of the New Eurasia Foundation, under
                            USAID Award No. 118-A-00-07-00060-00 and
 0-118-10-002-R    12/08/09
                            Other Multiple Agreements, for Fiscal Year
                            Ended December 31, 2008 (Revised)
                            Audit of KNCV Tuberculosis Foundation
                            under USAID Cooperative Agreement No.                       10         QC
 0-000-10-003-R    11/24/09
                            GHS-A-00-05-00019-00 for Fiscal Year Ended                  10         UN
                            September 30, 2007
                            Audit Report of Association of Volunteers in
                            International Services of Rwanda, under
 0-000-10-004-R    03/22/10 USAID Cooperative Agreement No. GPO-A-
                            00-05-00020-00, for Fiscal Year Ended
                            September 30, 2008
                            Audit of Association of Volunteers in
                            International Services of Uganda, under USAID
 0-000-10-005-R    03/22/10
                            Agreement No. GPO-A-00-05-00020-00, for
                            Fiscal Year Ended September 30, 2008
                            Audit Report of Association of Volunteers in
                            International Services of Kenya, under USAID
 0-000-10-006-R    03/22/10 Cooperative Agreement No. GPO-A-00-05-                       3         QC
                            00020-00, for Fiscal Year Ended
                            September 30, 2008




BU—Better Use of Funds   QC—Questioned Costs         UN—Unsupported Costs           Note: UN is part of QC


                                      Appendix I—Table 1


                                      SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010   49
                                                                               Amount
                                                                                             Type
     Report           Date of                                                     of
                                               Report Title                                   of
     Number           Report                                                   Findings
                                                                                           Findings
                                                                               ($000s)
                              Audit Report of Association of Volunteers in
                              International Services of Italy, under USAID
 0-000-10-007-R      03/22/10 Cooperative Agreement No. GPO-A-00-05-
                              00020-00, for Fiscal Year Ended
                              September 30, 2008
                              Audit Report of Moscow Public Science
                              Foundation, under USAID Cooperative
 0-118-10-008-R      03/08/10
                              Agreement No. 118-A-00-02-00135-00, for
                              Fiscal Year Ended December 31, 2008
                              Audit Report of Center for Civic Initiatives
                              (CCI), under USAID Grant Agreements No.
                              168-A-00-05-00105-00 for the Period of
 0-000-10-010-R      03/22/10
                              January 1, 2008 to August 17, 2008 and 168-A-
                              00-08-00104-00 for the Period of August 17,
                              2008 to December 31, 2008
                              Audit Report of Agency for Social Information,
                              Under USAID Cooperative Agreement No.
                              118-A-07-00059-00 and Subcontract ASI-
 0-118-10-011-R      01/25/10
                              2006-1 within Cooperative Agreement No.
                              118-00-06-00074-00, for Fiscal Year Ended
                              December 31, 2008
                              Audit Report of “It’s Your Choice” NGO,
                              under USAID Grant Agreement No. 111-G-
 0-000-10-012-R      01/28/10
                              00-06-00064-00, for Fiscal Year Ended
                              December 31, 2008
                              Audit of Foundation for Independent Radio
                              Broadcasting under USAID Cooperative
                              Agreement No. 118-A-00-04-00075 and
 0-118-10-013-R      12/23/09 International Research and Exchange Board
                              Contract No. IMPP-FY08-04 (within
                              Cooperative Agreement 118-A-00-07-00058-
                              00), for Fiscal Year Ended December 1, 2008
                              Audit of Foundation for Information Policy
                              Development, under USAID Agreement No.
 0-118-10-014-R      01/06/10
                              118-A-00-04-00061, for Fiscal Year Ended
                              December 31, 2008
                              Audit Report of the Russian Microfinance
 0-000-10-015-R      01/13/10 Center, under Multiple Agreements, for Fiscal
                              Year Ended December 31, 2008


BU—Better Use of Funds       QC—Questioned Costs    UN—Unsupported Costs       Note: UN is part of QC


                                         Appendix I—Table 1


50   USAID OFFICE OF INSPECTOR GENERAL
                                                                                    Amount
                                                                                                   Type
     Report        Date of                                                             of
                                               Report Title                                         of
     Number        Report                                                           Findings
                                                                                                 Findings
                                                                                    ($000s)
                            Audit of RCO “GOLOS,” under USAID
 0-118-10-016-R    12/18/09 Agreement No. 118-A-00-07-0028-00, for
                            Fiscal Year Ended December 31, 2008
                            Audit Report of Krasnodar Regional Nonprofit
                            Organization “Southern Regional Resource
                            Center,” under Cooperative Agreement No.
 0-118-10-017-R    01/22/10
                            118-A-00-04-00009-00 and Subgrant No. 1,
                            Cooperative No. 118-00-07-00059-00 for
                            Fiscal Year Ended December 31, 2008
                            Audit of Inter-Regional Public Foundation
                            “Siberian Civic Initiatives Support Center,”
                            Programs under USAID Cooperative
 0-118-10-018-R    01/06/10 Agreement No. 118-A-00-03-00127 and
                            Subgrant Agreements No. 6 118-A-00-07-
                            00059-00 and No. AMR 4/04-08/07, for Fiscal
                            Year Ended December 31, 2008
                            Audit Report of Foundation Open Society
                            Institute Macedonia, under USAID Grant
                            Agreement No. 165-G-00-02-00013-00,
 0-165-10-019-R    01/22/10 USAID Cooperative Agreement No. 165-A-
                            00-04-00101-00, and Agreement from MDC-
                            TI.Net, for Fiscal Year Ended December 31,
                            2008
                            Audit Report of Concern Worldwide LTD. of
                            Ireland (Concern Worldwide IRL), under
 0-000-10-020-R    03/22/10
                            USAID Multiple Grant Agreements for Fiscal
                            Year Ended December 31, 2008
                            Audit Report of The Institute for Urban
 0-118-10-021-R    02/24/10 Economics, under Multiple Agreements for                    6         QC
                            Fiscal Year Ended December 31, 2008
                            Audit Report of Center for Social and Labor
                            Rights, under USAID Cooperative Agreement
 0-118-10-022-R    02/01/10
                            No. 118-A-00-04-00047, for Fiscal Year Ended
                            December 31, 2008
                            Audit of Center for Fiscal Policy, under USAID
 0-118-10-023-R    01/06/10 Agreement No. 118-A-00-03-00084, for Fiscal
                            Year Ended December 31, 2008




BU—Better Use of Funds   QC—Questioned Costs        UN—Unsupported Costs           Note: UN is part of QC


                                     Appendix I—Table 1


                                     SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010   51
                                                                              Amount
                                                                                            Type
     Report           Date of                                                    of
                                               Report Title                                  of
     Number           Report                                                  Findings
                                                                                          Findings
                                                                              ($000s)
                              Audit of the Institute for the Economy in
                              Transition, under USAID Agreement No. 118-
 0-118-10-024-R      01/12/10
                              A-00-00-00130-00, for Fiscal Year Ended
                              December 31, 2008
                              Audit Report of Vétérinaires Sans Frontières
                              ASBL, under USAID Grant Agreement Nos.
                                                                                 33        QC
 0-000-10-025-R      03/08/10 DFD-G-00-06-00054-00 and DFD-G-00-06-
                                                                                 17        UN
                              00057-00, for Fiscal Year Ended December 31,
                              2007
                              Audit Report of Moscow Helsinki Group,
                              under USAID Cooperative Agreement No.
 0-118-10-026-R      01/14/10                                                     2        QC
                              118-A-00-02-00183 for Fiscal Year Ended
                              December 31, 2008
                              Audit Report of “Association of Ukrainian
                              Cities and Communities,” under USAID
 0-121-10-029-R      03/08/10 Cooperative Agreement No. 121-G-00-05-           149         QC
                              00712-00, for Fiscal Year Ended December 31,
                              2008
                              Audit Report of Tearfund, under USAID
                                                                                 22        QC
 0-000-10-029-R      03/18/10 Multiple Agreements, for Fiscal Year Ended
                                                                                 21        UN
                              March 31, 2008
                              Audit Report of Fund for Sustainable
                              Development, under USAID Cooperative                7        QC
 0-118-10-030-R      01/25/10
                              Agreement No. 118-A-00-06-00060, for Fiscal         6        UN
                              Year Ended December 31, 2008
                              Audit Report of KNCV Tuberculosis
                              Foundation, under USAID Grant Agreement             4        QC
 0-000-10-031-R      01/26/10
                              No. GHS-A-00-05-0019-00, for Fiscal Year            2        UN
                              Ended September 30, 2008
                              Audit of the Fund Accountability Statement of
                              the Project “Support to Arising Market of
                              Forest Products” Cooperative Agreement No.
 1-511-10-001-R      10/06/09
                              511-A-00-02-00206-00, Managed by the
                              Amazonian Forest Development Center, for
                              the Year Ended December 31, 2007




BU—Better Use of Funds       QC—Questioned Costs    UN—Unsupported Costs      Note: UN is part of QC


                                         Appendix I—Table 1


52   USAID OFFICE OF INSPECTOR GENERAL
                                                                                    Amount
                                                                                                   Type
     Report        Date of                                                             of
                                               Report Title                                         of
     Number        Report                                                           Findings
                                                                                                 Findings
                                                                                    ($000s)
                            Audit of the Fund Accountability Statement of
                            the Project No. 596-A-00-06-00099-00, for
                            the Project for the Integration of Climate and
                            Weather Indices into the Decision Making
                            Process for Adaptation to Climate Change in
 1-596-10-002-R    10/06/09
                            Central America, Mexico, and the Dominican
                            Republic, Managed by the Water Center for
                            the Humid Tropics of Latin America and the
                            Caribbean, for the Period From October 1,
                            2007 to September 30, 2008
                            Audit of USAID Resource, Program No. 598-
                            0023-00, Managed by Universidad Pedagógica
                            Nacional Francisco Morazán Under
                            Cooperative Agreement No. 522-A-00-06-                   370          QC
 1-522-10-003-R    10/09/09
                            00307-00, Program Center of Excellence for               370          UN
                            Teachers Training in Central American And
                            Dominican Republic, for the Period From
                            October 1, 2007 to September 30, 2008
                            Audit of the Fund Accountability Statement of
                            the Project Health Services for Displaced
                            People and Other Vulnerable Groups
                            Managed by the Association for Colombian
 1-514-10-004-R    10/20/09
                            Family Welfare, PROFAMILIA, Under the
                            Cooperative Agreement 514-A-00-07-00300-
                            00, for the Period November 21, 2006,
                            December 31, 2007
                            Financial Statement Close-Out Audit of
                            Strategic Objective Agreement No. 527-0407,
                                                                                     515          QC
 1-527-10-005-R    10/28/09 Managed by the National Institute of Natural
                                                                                     324          UN
                            Resources for the Period From January 1,
                            2008 to March 31, 2009
                            Audit of Programs No. 526-A-00-01-00074-
                            00, Civil Society and No. 526-A-00-01-00100-
                            00, Health Decentralization and Community
                            Participation, and 526-A-00-07-00052-00
                                                                                       16         QC
 1-526-10-006-R    10/30/09 Improving the Paraguayan Health Information
                                                                                       15         UN
                            System Managed by the Fundación
                            Comunitaria Centro de Información y
                            Recursos Para el Desarrollo for the Year
                            Ended December 31, 2008


BU—Better Use of Funds   QC—Questioned Costs        UN—Unsupported Costs           Note: UN is part of QC


                                      Appendix I—Table 1


                                     SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010   53
                                                                               Amount
                                                                                             Type
     Report           Date of                                                     of
                                               Report Title                                   of
     Number           Report                                                   Findings
                                                                                           Findings
                                                                               ($000s)
                              Financial Statement Audit of USAID/Paraguay
                              Project, Fortalecimiento Institucional del
                              Centro Paraguayo de Estudios de Población
 1-526-10-007-R      11/05/09
                              (CEPEP), Cooperative Agreement No. 526-A-
                              00-99-00008-00, Managed by CEPEP, for the
                              Year Ended December 31, 2008
                              Financial Audit of the Project No. 526-A-00-
                              07-00050-00 Under Cooperative Agreement
                              Good Governance and Political Competition
 1-526-10-008-R      11/09/09                                                     13        QC
                              Executed by Gestión Ambiental—GEAM, for
                              the Period October 1, 2007 to December 31,
                              2008
                              Audit of the Fund Accountability Statement of
                              USAID/Honduras Resources, Under the
                              EDUCATODOS Program, Under Grant                   319         QC
 1-522-10-009-R      11/10/09
                              Agreement No. 522-0436, Managed by the            319         UN
                              Secretariat of Education, for the Period
                              January 1 to December 31, 2008
                              Financial Audit of Cooperative Agreement No.
                              EDG-A-00-02-00036-00, “Andean Center of
                              Excellence for Teacher Training” Financed
 1-527-10-010-R      11/20/09
                              Through USAID, Managed by Universidad
                              Peruana Cayetano Heredia, for the Period
                              From October 1, 2007 to September 30, 2008
                              Financial Audit of USAID Resources Managed
                              by Joint Board of Teacher
                              Education/University of the West Indies
                              (JBTE/UWI) for the Caribbean Centre of            775         QC
 1-532-10-011-R      12/10/09
                              Excellence for Teacher Training Project Under     732         UN
                              Cooperative Agreement 532-A-00-06-00076-
                              00 for the Period October 1, 2006, to
                              September 30, 2007
                              Audit of the Fund Accountability Statement of
                              the Project “Strengthening Health Care and
                              Basic Education” Cooperative Agreement No.
                              519-A-00-06-00033-00 Between the United
 1-519-10-012-R      12/11/09 States Agency for International Development
                              (USAID), Mission in El Salvador, and Fundación
                              Empresarial Para el Desarrollo Educativo
                              (FEPADE), for the Year Ended December 31,
                              2008
BU—Better Use of Funds       QC—Questioned Costs    UN—Unsupported Costs       Note: UN is part of QC


                                         Appendix I—Table 1


54   USAID OFFICE OF INSPECTOR GENERAL
                                                                                    Amount
                                                                                                   Type
     Report        Date of                                                             of
                                               Report Title                                         of
     Number        Report                                                           Findings
                                                                                                 Findings
                                                                                    ($000s)
                            Audit of the Fund Accountability Statement of
                            the Project Crecer (Growing) FFT-A-00-02-
                            00023-00, Administered by Caritas Del Peru,
 1-527-10-013-R    12/16/09 Financed by the United States Agency for
                            International Development (USAID), Mission
                            in Peru, for the Period Ended December 31,
                            2008
                            Financial Audit of the “Quality Assurance and
                            Small Business Development” Program,
                            USAID Cooperative Agreement No. 520-A-
 1-520-10-014-R    12/16/09 00-06-00105-00, Managed by Fundación de
                            Apoyo a la Generación de Ingresos Locales
                            (Fundación AGIL) for the Year Ending
                            December 31, 2008
                            Audit of the USAID Agreement No. 512-A-
                            00-05-00025-00 “Programa de Energia
                            Renovavel e Desenvolvimento—E & D”                       1,311        QC
 1-512-10-015-R    01/13/10
                            Managed by Instituto de Desenvolvimento de               1,311        UN
                            Energias Renovaveis for the Period From
                            October 1, 2006 to November 30, 2008
                            Independent Auditor’s Report of the Family
                            Planning and Reproductive Health Services
                            Program Under USAID’s Cooperative
 1-511-10-016-R    01/19/10 Agreement No. 511-A-00-04-00298-00,
                            Managed by Center for Research Education
                            and Services, for the Period From January 1 to
                            December 31, 2008
                            Financial Audit of Integral Health Coordination
                            Program; USAID Cooperative Agreement No.
                                                                                        4         QC
 1-511-10-017-R    01/20/10 511-A-00-05-00113-00, NGO Paraguas:
                                                                                        1         UN
                            Communitarian Health Project for the Year
                            Ending on December 31, 2008
                            Audit of USAID Resources Managed by the
                            Caribbean Community Secretariat Under
                            Regional Strategic Objectives Grant
 1-538-10-018-R    01/22/10
                            Agreement Numbers 538-009-01 and 538-
                            010-01 for the Period January 1, 2008 to
                            December 31, 2008




BU—Better Use of Funds   QC—Questioned Costs        UN—Unsupported Costs           Note: UN is part of QC


                                      Appendix I—Table 1


                                     SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010   55
                                                                                 Amount
                                                                                               Type
     Report           Date of                                                       of
                                                 Report Title                                   of
     Number           Report                                                     Findings
                                                                                             Findings
                                                                                 ($000s)
                              Financial Ending Audit of the Consolidation
                              and Expansion of Opportunities for Citizen
                              Participation and Political Culture, Project No.
                              517-A-00-03-00105-00, for the Period
                              September 1, 2007 to June 30, 2008 and
 1-517-10-019-R      01/26/10 Permanent Program of Formation of Young
                              People Leaders of the Political Parties of the
                              Dominican Republic, Project No. 517-A-00-
                              05-00111-00, Managed by Participación
                              Ciudadana, for the Period September 1, 2007
                              to November 30, 2008
                              Independent Closeout Auditor’s Report for
                              the Period January 1 to September 30, 2008;
 1-511-10-020-R      01/28/10 Rural Roads Project (CC.VV.) Strategic             2,201        QC
                              Objective for Alternative Development
                              USAID Grant Agreement No. 511-0643
                              Audit of the Fund Accountability Statement for
                              the Rural Roads Project Strategic Objective
 1-511-10-021-R      02/11/10 USAID Grant Agreement No. 511-0660,
                              Integral Development Program—ID, for the
                              Year Ended December 31, 2008
                              Financial Audit of Strategic Objective
                              Agreement No. 527-0404, Managed by the
                                                                                    15        QC
 1-527-10-022-R      02/12/10 Comisión Nacional Para el Desarrollo y Vida
                                                                                     1        UN
                              Sin Drogas (DEVIDA) for the Period From
                              January 1 to December 31, 2008
                              Close-out Audit of the Financial Statement of
                              the USAID/Trade Investment and
                              Competitiveness Program, Cooperative
 1-522-10-023-R      02/16/10 Agreement No. 522-A-00-05-00303-00,
                              Managed by the Foundation for Investment
                              and Development of Exports (FIDE), for the
                              Period From January 1 to June 30, 2009
                              Financial Audit of Multiple Projects Managed
                              by the Inter-American Institute of Human
 1-598-10-024-R      02/16/10                                                        4        QC
                              Rights (IIHR), for the Year Ended
                              December 31, 2008




BU—Better Use of Funds       QC—Questioned Costs     UN—Unsupported Costs        Note: UN is part of QC


                                         Appendix I—Table 1


56   USAID OFFICE OF INSPECTOR GENERAL
                                                                                    Amount
                                                                                                   Type
     Report        Date of                                                             of
                                               Report Title                                         of
     Number        Report                                                           Findings
                                                                                                 Findings
                                                                                    ($000s)
                            Audit of Fund Accountability Statement of
                            Cooperative Agreement Nos. 518-A-00-07-
                            00067-00, “Municipal Integrated Development
                            Program - MIDP,” and 518-A-00-06-00077-00,
 1-518-10-025-R    02/19/10
                            “Program to Combat Trafficking in Persons in
                            Ecuador,” Managed by the International
                            Organization for Migration—IOM, for the
                            Year Ended December 31, 2008
                            Audit of the USAID Resources for the
                            Program Strengthening the Democratic
                            Process in Honduras; Cooperative Agreement
 1-522-10-026-R    02/19/10 No. 522-A-00-06-00302-00 Administered by                   24         QC
                            the Federación de Organizaciones Para el
                            Desarrollo de Honduras (FOPRIDEH) for the
                            Period January 1 through December 31, 2008
                            Audit of the Fund Accountability Statement for
                            the “Expanding Access to Family Planning for
                            Marginalized Rural Populations” Program,
                            Cooperative Agreement No. 522-G-00-06-
 1-522-10-027-R    02/19/10
                            00304-00, Managed by the Asociación
                            Hondureña de Planificación de Familia
                            (ASHONPLAFA), for the Period From
                            January 1 to December 31, 2008
                            Financial Audits of Multiple Projects
 1-511-10-028-R    03/05/10 Implemented by Sustainable Technologies
                            Promotion Center (STPC)
                            Audit of the Fund Accountability Statement of
                            the Program to Strengthen Entrepreneurial
                            Competitiveness, Cooperative Agreement No.
 1-520-10-029-R    03/05/10
                            520-A-00-06-00103-00, Managed by the
                            Asociación Nacional del Café (ANACAFE), for
                            the Period Ending December 31, 2008
                            Revised Independent Audit of the Grant
                            Agreement No. 512-A-00-03-00027-00
 1-512-10-030-R    03/05/10 Managed by World Wild Life Fund Brazil
                            (WWF Brazil) for the Period October 1, 2007,
                            to September 30, 2008, Close Out Audit




BU—Better Use of Funds   QC—Questioned Costs        UN—Unsupported Costs           Note: UN is part of QC


                                     Appendix I—Table 1


                                     SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010   57
                                                                              Amount
                                                                                            Type
     Report           Date of                                                    of
                                               Report Title                                  of
     Number           Report                                                  Findings
                                                                                          Findings
                                                                              ($000s)
                              Fund Accountability Statement Audit of the
                              “Health Protection Association” (PROSALUD)
                              Santa Cruz de la Sierra—Bolivia; Social
                              Marketing - Cooperative Agreement No. 511-
 1-511-10-031-R      03/08/10 A-00-02-00295-00 and Partners for
                              Development—Cooperative Agreement No.
                              511-A-00-02-00261-00; Independent Audit
                              Report for the Year Ended December 31,
                              2008
                              Audit of the Fund Accountability Statement of
                              Cooperative Agreement 520-A-00-05-00084-
                              00 “Sustainability Program,” Asociación Pro-
 1-520-10-032-R      03/08/10
                              Bienestar de la Familia de Guatemala
                              (APROFAM) for the Year Ended
                              December 31, 2008
                              Audit of the Fund Accountability Statement of
                              the Program for Strengthening Democracy in
                              Ecuador, Cooperative Agreement 518-A-00-
 1-518-10-033-R      03/11/10
                              03-00054-00, Managed by Corporación
                              Participación Ciudadana Ecuador for the
                              Period From January 1 to December 31, 2008
                              Close-out Audit of the Fund Accountability
                              Statement of the USAID Cooperative
                              Agreement No. 596-A-00-06-00071-00,
 1-596-10-034-R      03/12/10 Administered by the Secretariat for Economic
                              Integration of Central America (SIECA), for
                              the Period from January 1 to September 3,
                              2008
                              Audit of the Fund Accountability Statement of
                              the USAID Cooperative Agreement No. 596-
                              A-00-06-00092-00, Administered by the
 1-596-10-035-R      03/15/10
                              Secretariat for Economic Integration of
                              Central America (SIECA), for the Year Ended
                              December 31, 2008




BU—Better Use of Funds       QC—Questioned Costs    UN—Unsupported Costs      Note: UN is part of QC


                                         Appendix I—Table 1


58   USAID OFFICE OF INSPECTOR GENERAL
                                                                                    Amount
                                                                                                   Type
     Report        Date of                                                             of
                                               Report Title                                         of
     Number        Report                                                           Findings
                                                                                                 Findings
                                                                                    ($000s)
                            Audit of the Fund Accountability Statement of
                            the Close-out Cooperative Agreement 511-A-
                            00-02-00200-00 “Hydra Forest and
                            Biodiversity Resources Managed for
                            Sustainable Economic Development” and
 1-511-10-036-R    03/22/10 Cooperative Agreement 511-A-00-02-00206-
                            00 “Support to Arising Market of Certified
                            Forest Products” Administered by the
                            Amazonian Forest Development Center
                            (CADEFOR), for the Year Ended
                            December 31, 2008
                            Audit of the Fund Accountability Statement of
                            USAID Resources “MYAP—Multiyear
                            Assistance Program” Under PL-480 Title II,
 1-520-10-037-R    03/29/10 Cooperative Agreement No. FFP-A-00-07-
                            00010-00, Managed by the Asociación SHARE
                            de Guatemala, During the Period From
                            October 1, 2007 to September 30, 2008
                            Financial Audit of USAID Resources Managed
                            by Joint Board of Teacher
                            Education/University of the West Indies
                            (JBTE/UWI) for the Caribbean Centre of                   2,534        QC
 1-532-10-038-R    03/30/10
                            Excellence for Teacher Training Project Under            2,526        UN
                            Cooperative Agreement 532-A-00-06-00076-
                            00 for the Period October 1, 2007, to
                            September 30, 2008
                            Audit of the Fund Accountability Statement of
                            the Audit Resources Under Cooperative
                            Agreement No. 522-A-00-07-00702-00 for the
                            Strengthening of the Decentralization of
                                                                                        33        QC
 1-522-10-039-R    03/30/10 Democracy and Municipal Development
                                                                                        30        UN
                            (SDMD), Managed by the Association of
                            Municipalities of Honduras (AMHON), for the
                            Period From August 13, 2007, to
                            December 31, 2008




BU—Better Use of Funds   QC—Questioned Costs        UN—Unsupported Costs           Note: UN is part of QC


                                     Appendix I—Table 1


                                     SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010   59
                                                                               Amount
                                                                                             Type
     Report           Date of                                                     of
                                               Report Title                                   of
     Number           Report                                                   Findings
                                                                                           Findings
                                                                               ($000s)
                              Audit of the Grant Agreement No. 522-0422,
                              “Investing in People: Healthier and Better
                              Educated People,” Managed by the Unidad de
                                                                                   4        QC
 1-522-10-040-R      03/31/10 Extensión de Cobertura y Financiamiento
                                                                                   4        UN
                              (UECF) Under the Honduran Secretariat of
                              Health (SOH) for the Period From January 1,
                              2008, to December 31, 2008
                              Agency Contracted Close-out Audit of USAID
                              Resources Managed by Forum Empresarial
                              Para O Meio Ambiente, under Cooperative           374         QC
 4-656-10-001-N      12/30/09
                              Agreement No. 656-A-00-00065-00 for the           374         UN
                              period October 4, 2000 to September 30,
                              2005
                              Recipient Contracted Audit of USAID
                              Resources Managed by International Peace-
                              Building Alliance under the Somalia Dialogue      422         QC
 4-623-10-001-R      10/06/09
                              for Peace Program-Phase 2 Grant Agreement         394         UN
                              No. 623-G-00-06-00063-00 for the year ended
                              December 31, 2008
                              Recipient Contracted Audit of USAID
                              Resources Managed by The AIDS Support
                              Organization Uganda Limited (TASO),
 4-617-10-002-R      10/22/09
                              Cooperative Agreement No. 617-A-00-08-
                              00008-00 for the year ended December 31,
                              2008
                              Recipient Contracted Audit of USAID
                              Resources Managed by Khulisa Management
                              Services (Pty) Limited, under the Data Quality
                              Assessment Contract No. 674-C-00-06-
                              00014-00, Community Mitigating Against
 4-674-10-003-R      10/22/09 Trafficking Grant No. 674-G-00-07-00018-00
                              and Emergency Plan Collaborative Workgroup
                              and Data Warehouse Co-operative
                              Agreement No. 674-A-00-08-00010-00, for
                              the period October 1, 2007 to December 31,
                              2008




BU—Better Use of Funds       QC—Questioned Costs    UN—Unsupported Costs       Note: UN is part of QC


                                         Appendix I—Table 1


60   USAID OFFICE OF INSPECTOR GENERAL
                                                                                    Amount
                                                                                                   Type
     Report        Date of                                                             of
                                               Report Title                                         of
     Number        Report                                                           Findings
                                                                                                 Findings
                                                                                    ($000s)
                            Audit of USAID Resources Managed by ORT
                            Namibia Trust under Cooperative Agreement
                            Number 690-A-00-05-00150-00, Helping
 4-673-10-004-R    10/22/09 Young People & Their Families Overcome the                 25         QC
                            Impact of HIV/AIDS in Namibia—Skills,
                            Opportunities, Self-Reliance (SOS) Program
                            for the Year Ended December 31, 2008
                            Recipient Contracted Audit of USAID
                            Resources Managed by The Foundation for
                            Professional Development under Cooperative
 4-674-10-005-R    10/29/09                                                             7         QC
                            Agreement No. 674-A-00-08-0006-00 for the
                            three months period ended December 31,
                            2007
                            Recipient Contracted Audit of USAID
                            Resources Managed by CTA-Confederacao
                            das Associacoes Economicas de Mocambique                 127          QC
 4-656-10-006-R    10/29/09
                            under Cooperative Agreement No. 656-A-00-                 14          UN
                            04-00050 for the year ended September 30,
                            2005
                            Recipient Contracted Audit of USAID
                            Resources Managed by Malaria Consortium
 4-656-10-007-R    10/29/09 under Cooperative Agreement No. 656-A-00-
                            07-00027-00 for the period June 1, 2007–
                            March 31, 2008
                            Recipient Contracted Audit of USAID
                            Resources Managed by Inter-Religious Council
                            of Uganda, under Contract Nos. CRTA-06-10,
                            617-C-00-06-00292-00 and IRCU 060101BB
 4-617-10-008-R    11/24/09 for leadership management and sustainability
                            program and expanding access to HIV/AIDS
                            prevention care and treatment services for
                            people living with HIV/AIDS and their families
                            for the year ended December 31, 2008
                            Recipient Contracted Audit of USAID
                            Resources Managed by the Foundation for
 4-674-10-009-R    11/24/09 Professional Development under Cooperative
                            Agreement No. 674-A-00-08-0006-00 for the
                            year ended December 31, 2008




BU—Better Use of Funds   QC—Questioned Costs        UN—Unsupported Costs           Note: UN is part of QC


                                     Appendix I—Table 1


                                     SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010   61
                                                                             Amount
                                                                                           Type
     Report           Date of                                                   of
                                               Report Title                                 of
     Number           Report                                                 Findings
                                                                                         Findings
                                                                             ($000s)
                              Recipient Contracted Audit of USAID
                              Resources Managed by Southern Nations,
                              Nationalities and Peoples Region Health
 4-663-10-010-R      12/04/09 Bureau under Improved Family Health               26        QC
                              Strategic Objective Grant Agreement (SOAG)
                              No. 663-0080 and 663-014 for the period May
                              6, 2002 to July 7, 2007
                              Audit of USAID Resources Managed by the
                              Common Market for Eastern and Southern
                              Africa (COMESA) under Strategic Grant
                              Agreement (SOAG) Nos. 6231005.01-3-
                                                                                 6        QC
 4-623-10-011-R      12/04/09 30001, 6231006.01-3-30002 and 62300010.02-
                              60100-10 and Limited Scope Grant
                              Agreement (LSGA) Nos. 623-1005.01-3-50079
                              and 623-LSGA0010.02-3-60078 for the year
                              ended December 31, 2008
                              Recipient Contracted Audit of USAID
                              Resources Managed by Maasai Women
                              Development Organization (MWEDO) under
 4-621-10-012-R      01/04/10 Grant Agreement No. 621-G-00-07-00005-00        115         QC
                              and Cooperative Agreement No. 621-A-00-
                              08-00010-00 for the year ended
                              December 31, 2008
                              Recipient Contracted Audit of USAID
                              Resources Managed by The Genesis Trust
                                                                              104         QC
 4-000-10-013-R      01/05/10 under Cooperative Agreement No. GHH-A-
                                                                               94         UN
                              00-07-00014-00 for the year ended
                              December 31, 2008
                              Recipient Contracted Audit of USAID
                              Resources Managed by Wits Health
                              Consortium under Cooperative Agreement
 4-674-10-014-R      01/14/10
                              No. 674-A-00-05-00003-00 and 674-A-00-05-
                              00004-00 for the year ended December 31,
                              2006
                              Recipient Contracted Audit of USAID
                              Resources Managed by Mildmay International-
                                                                                64        QC
 4-615-10-015-R      01/14/10 Kenya under Cooperative Agreement No.
                                                                                39        UN
                              623-A-00-07-00014-00 for the period April 1,
                              2008 to March 31, 2009



BU—Better Use of Funds       QC—Questioned Costs   UN—Unsupported Costs      Note: UN is part of QC


                                         Appendix I—Table 1


62   USAID OFFICE OF INSPECTOR GENERAL
                                                                                    Amount
                                                                                                   Type
     Report        Date of                                                             of
                                               Report Title                                         of
     Number        Report                                                           Findings
                                                                                                 Findings
                                                                                    ($000s)
                            Close-out Audit of USAID Resources
                            Managed by the Ministry of Federal Affairs,
                                                                                       97         QC
 4-663-10-016-R    01/14/10 Peace Building Activities, under Limited Scope
                                                                                       80         UN
                            Grant Agreement No. 663-03-03 for the two
                            year period ended July 7, 2008
                            Recipient Contracted Audit of USAID
                            Resources Managed by Olive Leaf Foundation
                            1989 under Cooperative Agreements
 4-674-10-017-R    01/21/10 Numbered GPO-A-00-05-00007-00 and GPO-
                            A-00-05-00014-00, as well as Sub Agreement
                            No. M5-G-002 for the year ended
                            December 31, 2006
                            Recipient Contracted Audit of USAID
                            Resources Managed by Hospice Africa Uganda,
                            under Cooperative Agreement No. 617-A-00-
 4-617-10-018-R    02/19/10 05-00010-00; Expanding Access and Scope of
                            Palliative Care to People Living with HIV/AIDS
                            and their Families for the year ended
                            March 31, 2009
                            Recipient Contracted Audit of USAID
                            Resources Managed by Sustainable Healthcare
                            Foundation (SHF), under Cooperative
                                                                                        6         QC
 4-615-10-019-R    03/01/10 Agreement No. 623-A-00-07-00005-00 for
                                                                                        4         UN
                            Using Micro-Franchising to Improve Access to
                            Life Saving Medicines, for the period June 1,
                            2007 to December 31, 2008
                            Recipient Contracted Close-out Audit of
                            USAID Resources Managed by Wits Health
                            Consortium under Cooperative Agreement                 1,352          QC
 4-674-10-020-R    03/03/10
                            No. 674-A-00-05-00003-00 and 674-A-00-05-                506          UN
                            00004-00 for the period January 1, 2007 to
                            September 30, 2007
                            Recipient-Contracted Audit of USAID
                            Resources Managed by Mildmay International
                                                                                       94         QC
 4-621-10-021-R    03/04/10 Tanzania Program under Cooperative
                                                                                       50         UN
                            Agreement No. 621-A-00-07-00008-00 for the
                            year ended March 31, 2009




BU—Better Use of Funds   QC—Questioned Costs        UN—Unsupported Costs           Note: UN is part of QC


                                      Appendix I—Table 1


                                     SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010   63
                                                                                Amount
                                                                                              Type
     Report           Date of                                                      of
                                                Report Title                                   of
     Number           Report                                                    Findings
                                                                                            Findings
                                                                                ($000s)
                              Financial Audit of the Afghanistan First Loss
                              Reserve Fund, USAID/Afghanistan
                              Cooperative Agreement No. 306-A-00-05-
 5-306-10-001-D      03/30/10 00512-00, Managed by the Deutsche                    57        QC
                              Investitions- und Entwicklungsgesellschaft mbH
                              (DEG), for the Period from February 4, 2005
                              to December 31, 2008
                              Closeout Financial Audit of the Strengthening
                              India’s Micro Finance Institutions to Enhance
                              Poor Women’s Access to Appropriate
 5-386-10-001-R      10/20/09 Financial Services, Award No. 386-A-00-01-           86        QC
                              00218-00, Managed by Friends of Women’s
                              World Banking (FWWB), for the Period from
                              April 1, 2002 to July 15, 2007
                              Closeout Audit of the Project “Targeted
                              Intervention in Economic Reform and
                              Governance—Institutional Grant for Policy
                              Development,” USAID/Philippines
                              Cooperative Agreement No. 492-A-00-04-
 5-492-10-002-R      10/30/09
                              00025-00 with De La Salle University, Inc.
                              (DLSU), Managed by the Principal Partner
                              Philippine Exporters Confederation, Inc.
                              (PhilExport), for the Period from June 1, 2007
                              to November 30, 2008
                              Financial Audit of USAID Funds Managed by
                              the Asian Disaster Preparedness Center for
 5-493-10-003-R      10/30/09
                              the Period from January 1, 2007, to
                              December 31, 2007
                              Financial Audit of the Condom Social
                              Marketing Project—Maharashtra, Project No.
                              386-A-00-07-00024-00, Managed by Hindustan           96        QC
 5-386-10-004-R      11/10/09
                              Latex Family Planning Promotion Trust                 1        UN
                              (HLFPPT), for the Period from April 1, 2007,
                              to March 31, 2008
                              Financial Audit of the Tuberculosis and
                              Infectious Diseases Program,
                              USAID/Philippines Cooperative Agreement
                                                                                   17        QC
 5-492-10-005-R      11/24/09 No. 492-A-00-06-00032, Managed by the
                                                                                   16        UN
                              Philippine Business for Social Progress (PBSP),
                              for the Period from October 1, 2007 to
                              September 30, 2008
BU—Better Use of Funds       QC—Questioned Costs     UN—Unsupported Costs       Note: UN is part of QC


                                         Appendix I—Table 1


64   USAID OFFICE OF INSPECTOR GENERAL
                                                                                    Amount
                                                                                                   Type
     Report        Date of                                                             of
                                               Report Title                                         of
     Number        Report                                                           Findings
                                                                                                 Findings
                                                                                    ($000s)
                            Financial Audit of the Innovations in Family
                            Planning Services—Uttarakhand, Project No.
 5-386-10-006-R    11/24/09 386-0527, Managed by Uttarakhand Health &
                            Family Welfare Society (UKHFWS), for the
                            Period from April 1, 2007 to March 31, 2008
                            Financial Audit of the Accelerating Economic
                            Recovery in Asia (AERA) Program, Managed
                            by Kenan Foundation Asia (Kenan), USAID
 5-493-10-007-R    11/25/09                                                            57         QC
                            Cooperative Agreement No. 442-A-00-99-
                            00072-00, for the Year Ended September 30,
                            2008
                            Financial Audit of the Innovations in Family
                            Planning Services—Uttar Pradesh, Project No.
                            386-0527, Managed by State Innovations in
 5-386-10-008-R    11/25/09
                            Family Planning Services Agency (SIFPSA), for
                            the Period from April 1, 2007, to March 31,
                            2008
                            Financial Audit of the Project “Ensuring
                            Comprehensive Services to Reduce HIV
                            Transmission and Mitigate the Impacts of
                            HIV/AIDS at the Community Level in                       101          QC
 5-442-10-009-R    12/14/09
                            Cambodia,” USAID Cooperative Agreement                   101          UN
                            No. 442-A-00-06-00012-00, Managed by the
                            Khmer HIV/AIDS NGO Alliance (KHANA),
                            for the Year Ended December 31, 2008
                            Financial Audit of the Enhance Karnataka
                            Project, Project No. 386-A-00-06-00144,
 5-386-10-010-R    12/17/09 Managed by the University of Manitoba
                            (UOM), for the Period from April 1, 2007 to
                            March 31, 2008
                            Financial Audit of USAID Resources Managed
                            by the Reproductive and Child Health Alliance
 5-442-10-011-R    12/17/09
                            (RACHA) for the Year Ended December 31,
                            2008
                            Financial Audit of USAID Funds Managed by
                            Children’s Global Network Pakistan (G)
                                                                                     362          QC
 5-391-10-012-R    12/22/09 Limited (formerly Children’s Resources
                                                                                     320          UN
                            International Pakistan (G) Limited), for the
                            year ended June 30, 2008


BU—Better Use of Funds   QC—Questioned Costs        UN—Unsupported Costs           Note: UN is part of QC


                                      Appendix I—Table 1


                                     SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010   65
                                                                               Amount
                                                                                             Type
     Report           Date of                                                     of
                                                Report Title                                  of
     Number           Report                                                   Findings
                                                                                           Findings
                                                                               ($000s)
                              Closeout Financial Audit of the Water
                              Sanitation and Waste Disposal Project, Project
                              No. 386-G-00-05-0047-01, Managed by the
 5-383-10-013-R      01/27/10                                                      4        QC
                              Lanka Jathika Sarvodaya Shramadana
                              Sangayama (Inc.) (LJSSS), for the Period from
                              January 1 to December 31, 2005
                              Closeout Financial Audit of the Rural
                              Electrification Global Development Alliance of
                              Nepal (REGDAN), Cooperative Agreement
                                                                                   4        QC
 5-367-10-014-R      01/27/10 No. 367-A-00-05-00159-00, Managed by the
                                                                                   4        UN
                              Butwal Power Company Limited (BPC), for
                              the Period from December 2, 2005 to
                              December 1, 2007
                              Financial Audit of the Financial Institutions
                              Reform and Expansion (FIRE D-III) Project,
                              USAID/India Grant Agreement No.386-A-00-
 5-386-10-015-R      01/28/10                                                     18        QC
                              03-00175-00, Managed by the National
                              Institute of Urban Affairs (NIUA), for the
                              Period from April 1, 2007, to March 31, 2008
                              Financial Audit of the Project “Rural
                              Empowerment Through Renewable Energy,”
                              USAID/Bangladesh Grant Agreement No. 388-
 5-388-10-016-R      01/28/10
                              G-00-05-00060-00, Managed by Grameen
                              Shakti, for the Period from January 1, 2006 to
                              December 31, 2006
                              Financial Audit of the Health Policy
                              Development Program, USAID/Philippines
 5-492-10-017-R      01/29/10 Cooperative Agreement No. 492-A-00-06-            155         QC
                              00031, Managed by the UPecon Foundation,
                              Inc., for the Year Ended December 31, 2008
                              Closeout Audit of the Project “Barangay
                              Justice Service System,” USAID/Philippines
                              Grant Agreement No. 492-G-00-98-00044-
 5-492-10-018-R      02/05/10
                              00, Managed by the Gerry Roxas
                              Foundation, Inc. (GRF), for the Period from
                              January 1, 2007 to November 30, 2008




BU—Better Use of Funds       QC—Questioned Costs    UN—Unsupported Costs       Note: UN is part of QC


                                         Appendix I—Table 1


66   USAID OFFICE OF INSPECTOR GENERAL
                                                                                    Amount
                                                                                                   Type
     Report        Date of                                                             of
                                               Report Title                                         of
     Number        Report                                                           Findings
                                                                                                 Findings
                                                                                    ($000s)
                            Financial Audit of the Support to
                            Documentation Center of Cambodia,
                            USAID/Cambodia Cooperative Agreement
                                                                                       57         QC
 5-442-10-019-R    02/08/10 No. 486-A-00-04-00012-00, Managed by the
                                                                                       57         UN
                            Documentation Center of Cambodia (DC
                            Cam), for the Years Ended December 31,
                            2008 and 2007
                            Closeout Financial Audit of the Aga Khan
                            University—Examination Board (AKU-EB),
                                                                                       63         QC
 5-391-10-020-R    02/10/10 USAID/Pakistan Cooperative Agreement No.
                                                                                       63         UN
                            391-A-00-03-01003-00, for the Period from
                            January 1, 2007 to December 31, 2007
                            Financial Audit of the Project “Rural
                            Empowerment Through Renewable Energy,”
                            USAID/Bangladesh Grant Agreement No. 388-
 5-388-10-021-R    02/16/10
                            G-00-05-00060-00, Managed by Grameen
                            Shakti, for the Period from January 1, 2007 to
                            December 31, 2007
                            Closeout Audit of the Energy Conservation
                            and Commercialization (ECO) Program,
 5-386-10-022-R    02/19/10 USAID/India Project No. 386-0542, Managed
                            by the ICICI Bank Ltd., for the Period from
                            April 1, 2008 to March 31, 2009
                            Financial Audit of USAID Resources Managed
                                                                                     100          QC
 5-386-10-023-R    02/25/10 by Voluntary Health Services (VHS) for the
                                                                                       2          UN
                            Year Ended March 31, 2009
                            Financial Audit of the Anti-Trafficking in
                            Persons Pan-Asian Campaign, USAID
                            RDM/Asia Cooperative Agreement No. 486-
 5-493-10-024-R    02/25/10 A-00-06-00015-00, Managed by the MTV                        4         QC
                            Europe Foundation (MTV), for the Period
                            from September 29, 2006 to December 31,
                            2007
                            Financial Audit of the Program Enhancement
                            of Emergency Response (PEER), USAID/Nepal
                            Cooperative Agreement No. 367-A-00-03-
 5-367-10-025-R    03/09/10 00075-00, Managed by the National Society                  15         QC
                            for Earthquake Technology-Nepal (NSET), for
                            the Period from October 1, 2007 to
                            September 30, 2008

BU—Better Use of Funds   QC—Questioned Costs        UN—Unsupported Costs           Note: UN is part of QC


                                     Appendix I—Table 1


                                     SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010   67
                                                                               Amount
                                                                                             Type
     Report           Date of                                                     of
                                               Report Title                                   of
     Number           Report                                                   Findings
                                                                                           Findings
                                                                               ($000s)
                              Closeout Financial Audit of the Program
                              Entitled “Improved Pakistani Family Planning
                              and Reproductive Health Services,”
                              USAID/Pakistan Cooperative Agreement No.
 5-391-10-026-R      03/24/10
                              391-A-00-03-01016-00, Managed by Greenstar
                              Social Marketing Pakistan (Guarantee) Limited,
                              for the Period from July 1, 2007 to
                              December 31, 2007
                              Financial Audit of USAID Resources Managed
                              by the Reproductive Health Association of
 5-442-10-027-R      03/30/10                                                     26        QC
                              Cambodia (RHAC), for the Year Ended
                              December 31, 2008
                              Audit of the Fund Accountability Statement of
                              USAID Resources Managed by Parents Circle,
                                                                                  46        QC
 6-294-10-001-N      10/21/09 Under Grant Number 294-G-00-05-00223-00,
                                                                                  46        UN
                              for the Period From September 2, 2005 to
                              September 1, 2006
                              Financial Audit of Special Expert Technical
                              Assistance for Institutional Development
                              Monitoring Unit, Agreement Number 263-
 6-263-10-001-R      10/07/09 0289.02, Implementation Letter Number 5,
                              Implemented by the Ministry of Investment,
                              for the Period From March 1, 2006 to
                              November 30, 2007
                              Closeout Financial Audit of USAID/Egypt
                              Resources Managed and Expenditures
                              Incurred by African Egyptian Human Rights
 6-263-10-002-R      10/07/09 Organization, Under “Win Your Rights”
                              Program, Grant Agreement Number 263-G-
                              00-07-00052-00, for the Period From June 10,
                              2007 to August 9, 2009
                              Financial Audit of USAID Resources Managed
                              and Expenditures Incurred by the Ministry of
                              Health and Population, Infectious Disease
                              Surveillance and Response, Project Number
 6-263-10-003-R      11/10/09
                              263-0287.03, Element Number 1, Infection
                              Control Program, Implementation Letter
                              Number 3, for the Period From January 1,
                              2007 to March 31, 2008



BU—Better Use of Funds       QC—Questioned Costs    UN—Unsupported Costs       Note: UN is part of QC


                                         Appendix I—Table 1


68   USAID OFFICE OF INSPECTOR GENERAL
                                                                                    Amount
                                                                                                   Type
     Report        Date of                                                             of
                                               Report Title                                         of
     Number        Report                                                           Findings
                                                                                                 Findings
                                                                                    ($000s)
                            Financial Audit of Dialogue for Development
                            Project, Implemented by Arab Media Forum
                            for Environment and Development, Under
 6-263-10-004-R    12/29/09                                                             4         QC
                            USAID/Egypt Agreement Number 263-A-00-
                            08-00080-00, for the Period From
                            September 30, 2008 to August 31, 2009
                            Financial Audit of the Government of Jordan’s
                            Dollar Separate Account Under
 6-278-10-005-N    11/24/09 USAID/Jordan’s Sector Policy Reform
                            Programs for the Period From March 23, 2004
                            to December 31, 2007
                            Financial Audit of the Fund Accountability
                            Statement of USAID Resources Managed by
                            the Egyptian Foundation for Enterprise
 6-263-10-005-R    01/27/10 Development, Cooperative Agreement
                            Number 263-A-00-03-00049-00, for the
                            Period From January 1, 2008 Through
                            December 31, 2008
                            Financial Audit of the Government of Jordan’s
                            Local Currency Special Account Under
 6-278-10-006-N    11/25/09 USAID/Jordan’s Sector Policy Reform
                            Programs, for the Period From March 23,
                            2004 to December 31, 2007
                            Closeout Financial Audit of USAID/Egypt
                            Resources Managed and Expenditures
                            Incurred by the National Population Council,
 6-263-10-007-R    03/09/10 Institutional Development Project, Project
                            Number 263-287.07, Implementation Letter
                            Number 3, for the Period From January 1,
                            2006 to December 10, 2009
                            Closeout Financial Audit of the Fund
                            Accountability Statement of USAID/Egypt
                            Resources Managed by the Ministry of Health
                            and Population, National Program for the
 6-263-10-010-N    01/27/10 Prevention and Control of Viral Hepatitis,
                            Project Number 263-0287.03, Element
                            Number 1, Implementation Letter Number 4,
                            for the Period From October 1, 2008 to
                            September 30, 2009



BU—Better Use of Funds   QC—Questioned Costs        UN—Unsupported Costs           Note: UN is part of QC


                                     Appendix I—Table 1


                                     SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010   69
                                                                              Amount
                                                                                            Type
     Report           Date of                                                    of
                                               Report Title                                  of
     Number           Report                                                  Findings
                                                                                          Findings
                                                                              ($000s)
                              Audit of the Fund Accountability Statement of
                              USAID Resources Managed by
                              EcoPeace/Friends of the Earth Middle East,
 6-294-10-012-N      02/17/10 Under USAID Cooperative Agreement                  10        QC
                              Number 294-A-00-07-00212-00, for the
                              Period From September 28, 2007 to June 30,
                              2008
                              Close-Out Financial Audit of USAID
                              Resources Managed and Expenditures
                              Incurred by the Ministry of Health and
                              Population, National AIDS Program,
 6-263-10-015-N      03/15/10
                              USAID/Egypt Project Number 263-
                              0287.A11.AO47, Implementation Letter
                              Number 1, for the Period From January 1,
                              2008 to September 30, 2009
                              Close out Financial Audit of USAID Resources
                              Managed and Expenditures Incurred by El
                              Nakib Center for Training and Democracy
                              Under “Monitoring EL Shura Election in 2007”
 6-263-10-017-N      03/25/10                                                     2        QC
                              Program, USAID/Egypt Grant Agreement
                              Number 263-G-00-07-00020-00, for the
                              Period From February 15, 2007 to December
                              14, 2007
                              Agreed Upon Procedures Review of the
                              Implementation of the Strategic Objective
                              Implementation Letter (SOIL) No. 17 Dated
                              June 26, 2006 Under USAID/Guinea’s                 26        QC
 7-675-10-001-O      11/24/09
                              Education Strategic Objective, Concluded           26        UN
                              Between the Ministry of Pre-University and
                              Civic Education (MEPU-EC) and
                              USAID/Guinea
                              Recipient Contracted Audit of USAID
                              Resources Managed by Hope World Wide
                              Nigeria under the Assistance and Care for
                                                                                 79        QC
 7-620-10-001-R      11/12/09 Children orphaned and at Risk (ACCORD)
                                                                                 79        UN
                              Agreement No. 620-A-00-08-00111-00 for the
                              Period January 1, 2008 through December 31,
                              2008




BU—Better Use of Funds       QC—Questioned Costs    UN—Unsupported Costs      Note: UN is part of QC


                                         Appendix I—Table 1


70   USAID OFFICE OF INSPECTOR GENERAL
                                                                                    Amount
                                                                                                   Type
     Report        Date of                                                             of
                                               Report Title                                         of
     Number        Report                                                           Findings
                                                                                                 Findings
                                                                                    ($000s)
                            Financial Audit of the USAID Resources
                            Managed by “ENDA Groupes Recherche
                            Action Formation” (ENDA GRAF) under the
                                                                                     137          QC
 7-685-10-002-N    12/31/09 Improved Local Service Delivery and
                                                                                      36          UN
                            Sustainable Resource Use Program (No. 685-
                            A-00-03-00083-00) in Senegal for the Period
                            from April 2003 to April 2006
                            Recipient Contracted Audit of USAID and
                            Kreditanstalt Fuer Wiederaufbau (KFW)
                            Resources Managed by the Agency for the
                            Development of Social Marketing (ADEMAS)
 7-685-10-002-R    11/12/09
                            under Grant Agreement No. 685-A-00-03-
                            00118-00 and the KFW Program Agreement
                            No. 2002 65 033 for the period from
                            January 1, 2008 through December 31, 2008
                            Recipient Contracted Audit of USAID
                            Resources Managed by Network on Ethics,
                            Law/Human Rights, HIV/AIDS Prevention,
                            Support and Care (NELA) under the NELA                   130          QC
 7-620-10-003-R    12/23/09
                            Consortium AIDS Initiatives in Nigeria                   130          UN
                            (NECAIN) Agreement No. 620-A-00-07-
                            00211-00 for the period from October 15,
                            2007 through December 31, 2008
                            Recipient Contracted Audit of USAID
                            Resources Managed by Equip Liberia under the
                            Rehabilitation in Healthcare for Re-settled and
                                                                                     650          QC
 7-669-10-004-R    01/13/10 War Affected Populations Agreement No.
                                                                                     411          UN
                            669-G-05-00065-00 for the period from
                            November 1, 2005 through December 31,
                            2006
                            Recipient Contracted Audit of USAID
                            Resources Managed by Equip Liberia under the
                            Rehabilitation in Healthcare for Re-settled and          402          QC
 7-669-10-005-R    01/13/10
                            War Affected Populations Agreement No.                   348          UN
                            669-G-05-00065-00 for the period from
                            January 1, 2007 through December 31, 2007




BU—Better Use of Funds   QC—Questioned Costs        UN—Unsupported Costs           Note: UN is part of QC


                                      Appendix I—Table 1


                                     SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010   71
                                                                                Amount
                                                                                              Type
     Report           Date of                                                      of
                                                Report Title                                   of
     Number           Report                                                    Findings
                                                                                            Findings
                                                                                ($000s)
                              Recipient Contracted Audit of USAID
                              Resources managed by Equip Liberia under the
                              Rehabilitation in Healthcare for Re-settled and    388         QC
 7-669-10-006-R      01/13/10
                              War Affected Populations Agreement No.             295         UN
                              669-G-05-00065-00 for the period from
                              January 1, 2008 through December 31, 2008
                              Recipient Contracted Audit of USAID
                              Resources Managed by Christian Health
                              Association of Nigeria under the Nigeria           559         QC
 7-620-10-007-R      01/25/10
                              Indigenous Capacity Building Agreement No.         470         UN
                              620-A-00-07-00180-00 for the period from
                              October 1, 2007 through December 31, 2008
                              Recipient Contracted Audit of USAID
                              Resources Managed by the Young Women’s
                              Christian Association of Nigeria No. 620-A-
 7-620-10-008-R      02/02/10                                                      27        QC
                              00-07-00259-00 for the period from
                              November 15, 2007 through December 31,
                              2008
                              Recipient-Contracted Audit of USAID
                              Resources Managed by Pro-Health
                              International (PHI) of Nigeria under the
                                                                                 774         QC
 7-620-10-009-R      03/18/10 HIV/AIDS Reduction Program in the Niger
                                                                                 774         UN
                              Delta in Nigeria (CA No. 620-A-00-08-00132-
                              00) for the Period Beginning March 31, 2008
                              and Ending December 31, 2008
                              Consolidated Audit of USAID and Other
                              Donor Resources, Generated Resources, and
                              Member States Resources Granted to the             440         QC
 7-624-10-010-R      03/18/10
                              Permanent Interstate Committee for Drought         440         UN
                              Control in the Sahel (CILSS) for the Period
                              January 1, 2008 to December 31, 2008
                              Recipient Contracted Audit of the Fund
                              Accountability Statement for Society for
                              Family Health under the Improved
                              Reproductive Health in Nigeria (IRHIN)
                              Project No. 620-A-00-05-00098-00 and the             14        QC
 7-620-10-011-R      03/18/10
                              Comprehensive Integrated Approach to                 14        UN
                              HIV/AIDS Prevention and Care (CIHPAC)
                              Project No. 620-A-00-05-00100-00 for the
                              Period Beginning December 26, 2007 and
                              Ending December 25, 2008
BU—Better Use of Funds       QC—Questioned Costs    UN—Unsupported Costs        Note: UN is part of QC


                                         Appendix I—Table 1


72   USAID OFFICE OF INSPECTOR GENERAL
                                                                                     Amount
                                                                                                    Type
     Report        Date of                                                              of
                                                Report Title                                         of
     Number        Report                                                            Findings
                                                                                                  Findings
                                                                                     ($000s)
                            Audit of Billed Amounts by Gulf Catering
                            Company Under USAID Contract Number
 E-267-10-002-D    11/09/09                                                           315          QC
                            267-C-00-05-00514-00 From October 1, 2005
                            Through October 31, 2008
                             LOCAL-CURRENCY TRUST FUND
                         Financial Audit of USAID/Philippines’ Peso
                         Trust Fund for Operating Expenses, for the
 5-492-10-001-N 11/24/09
                         Period from January 1, 2008 to
                         December 31, 2008
                               U.S.-BASED CONTRACTORS
                              Abt Associates, Inc., Fiscal Year 2005
 0-000-10-001-D 10/01/09
                              Incurred Cost Audit
                         CDM Constructors, Inc., Evaluation of Cost
 0-000-10-002-D 11/10/09 Impact Proposal for Cost Accounting
                         Practice Change
                         Audit of Creative Associates International,
 0-000-10-003-D 12/29/09 Inc.’s Report on Application of Agreed
                         Upon Procedures
                         Report on Examination of Montgomery
                         Watson Harza Energy and Infrastructure,
                         Inc.’s Contractor Fiscal Year (CFY) 2001
 0-000-10-004-D 03/02/10
                         Direct Costs Incurred under Contract
                         Numbers 263-C-00-01-00007-00 and 263-
                         C-00-99-00008-00
                         Financial Audit of Local Costs Incurred by
                         the Joint Venture Louis Berger Group,
                         Inc./Black & Veatch Special Projects Corp.
                         to Implement the Afghanistan Infrastructure                    47         QC
 5-306-10-002-N 02/25/10
                         Rehabilitation Program, USAID/Afghanistan
                         Contract No. 306-I-00-06-00517-00, for the
                         Period from October 1, 2007 to
                         September 30, 2008
                         Close-Out Examination Procedures Related
                         to the Morganti Group Compliance With
                         Terms and Conditions of Contract Number
 6-294-10-004-N 11/23/09
                         294-C-00-05-00225-00, “Gaza Regional
                         Water Carrier Program,” for the Period
                         From August 23, 2005 to August 22, 2006


BU—Better Use of Funds   QC—Questioned Costs         UN—Unsupported Costs           Note: UN is part of QC


                                      Appendix I—Table 1


                                      SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010   73
                                                                            Amount
                                                                                          Type
     Report           Date of                                                  of
                                                 Report Title                              of
     Number           Report                                                Findings
                                                                                        Findings
                                                                            ($000s)
                         Audit of USAID Resources Managed by
                         Development Alternatives, Inc. Under USAID
                         Contract Number 294-M-00-05-00231-00,
 6-294-10-011-N 02/17/10                                                        1        QC
                         “Palestinian Enterprise Development”
                         Program, for the Period From September 22,
                         2005 to September 21, 2006
                         Audit of Costs Incurred and Billed to USAID
                         by CARANA Corporation, Under Task
                         Order Number AFP-I-01-03-00020-00,
 6-294-10-014-N 03/08/10                                                       87        QC
                         “Palestinian Agribusiness Partnership
                         Activity,” for the Period From April 1, 2006
                         to March 31, 2007
                         Audit of the Local Costs Incurred by
                         Chemonics under the Integrated Agriculture
                                                                             186         QC
 7-608-10-001-N 12/23/09 and Agribusiness Program No. 608-M-00-
                                                                             171         UN
                         05-00043 in Morocco for the Period from
                         February 10, 2005 through June 30, 2009
                                         U.S.-BASED GRANTEES
                         Central Asian-American Enterprise Fund,
 0-000-10-001-E 11/20/09 Fiscal Years Ended September 30, 2008 and
                         2007
                         Review of Audit Reports of International
 0-000-10-001-T 11/09/09 Food Policy Research Institute for Fiscal
                         Years Ending December 31, 2008 and 2007
                         Review of the Audit Report of the Western
 0-000-10-002-E 12/10/09 NIS Enterprise Fund for the Fiscal Years
                         Ended September 30, 2008 and 2007
                         Review of Audit Reports of the Eurasia
                         Foundation for the Fiscal Years Ended
 0-000-10-002-T 11/12/09
                         September 30, 2007 and September 30,
                         2008
                         Review of the Audit Report of Hungarian-
 0-000-10-003-E 12/08/09 American Enterprise Fund for Fiscal Years
                         2008 and 2007
                         Review of Audit Report of Viet-Nam
 0-000-10-003-T 11/23/09 Assistance for the Handicapped for the Year
                         Ended June 30, 2008



BU—Better Use of Funds       QC—Questioned Costs     UN—Unsupported Costs   Note: UN is part of QC


                                           Appendix I—Table 1


74   USAID OFFICE OF INSPECTOR GENERAL
                                                                                  Amount
                                                                                                 Type
     Report        Date of                                                           of
                                             Report Title                                         of
     Number        Report                                                         Findings
                                                                                               Findings
                                                                                  ($000s)
                         Review of Audit Report of Albanian-
 0-000-10-004-E 12/10/09 American Enterprise Fund for Fiscal Years
                         2008 and 2007
                         Review of Audit Report of Volunteers for
 0-000-10-004-T 01/08/10 Economic Growth Alliance for Fiscal Year
                         2008
                         Review of Audit Report of Baltic-American
 0-000-10-005-E 12/17/09 Enterprise Fund for Fiscal Years 2008 and
                         2007
                         Review of A–133 Audit Reports of
 0-000-10-005-T 02/26/10 Pathfinder International for Fiscal Years
                         June 30, 2008 and June 30, 2007
                         Polish-American Enterprise Fund (in Process
 0-000-10-006-E 12/17/09 of Liquidation) for Year Ended
                         September 30, 2008
                         Veterans for America, Inc., A–133 Audit
 0-000-10-006-T 02/19/10 Reports for Fiscal Years December 31, 2007                  19         QC
                         and 2008
                         Review of Audit Report of Czech & Slovak
 0-000-10-007-E 12/23/09 American Enterprise Fund for Fiscal Years
                         2008 and 2007
                         The Asia Foundation, A–133 Audit Reports
 0-000-10-007-T 02/22/10 for Fiscal Years (FY) Ending September 30,                  75         QC
                         2008 and 2007
                         Audit Report of the U.S. Russia Investment
                         Fund’s Financial Statements for the Fiscal
 0-000-10-008-E 01/12/10
                         Years Ended September 30, 2008 and
                         September 30, 2007
                         Review of Audit Reports of ACDI/VOCA
 0-000-10-008-T 02/24/10 for the Years Ended December 31, 2006,
                         2007, and 2008
                         Audit Report of the Bulgarian American
 0-000-10-009-E 01/28/10 Enterprise Fund for the Fiscal Year Ended
                         September 30, 2008
                         University Research Corporation
                         International OMB Circular A–133 Audit
 0-000-10-009-T 02/25/10
                         Reports for Fiscal Years Ending June 30,
                         2008 and 2007
BU—Better Use of Funds   QC—Questioned Costs      UN—Unsupported Costs           Note: UN is part of QC


                                    Appendix I—Table 1


                                   SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010   75
                                                                              Amount
                                                                                            Type
     Report           Date of                                                    of
                                                 Report Title                                of
     Number           Report                                                  Findings
                                                                                          Findings
                                                                              ($000s)
                         Audit Report of Romanian-American
                         Enterprise Fund’s Consolidated Financial
 0-000-10-010-E 01/12/10
                         Statements for the Years Ended
                         September 30, 2008 and 2007
                         Review of Audit Reports of Nazarene
                         Compassionate Ministries, Inc. for the Years
 0-000-10-010-T 02/25/10
                         Ended December 31, 2007, and
                         December 31, 2008
                         Review of the American Red Cross—
 0-000-10-011-T 03/09/10 National Sector, OMB Circular A–133 Audit
                         Report for Fiscal Year Ending June 30, 2008
                                  CARE USA, A–133 Audit Report for Fiscal
 0-000-10-012-T 03/17/10                                                       851         QC
                                  Year Ended June 30, 2008
                         Opportunity International, Inc. A–133 Audit
 0-000-10-013-T 03/12/10 Reports for Fiscal Years Ending                         15        QC
                         December 31, 2006, 2007 and 2008
                         Conservation International Foundation A–
                         133 Audit Reports for Fiscal Years Ended
 0-000-10-014-T 03/25/10                                                       106         QC
                         June 30, 2008, June 30, 2007, and June 30,
                         2006
                                  Conservation International Foundation and
 0-000-10-015-T 03/25/10
                                  Affiliates FYE June 30, 2009
                              Review of Audit Reports of the United States
                              Pharmacopeial Convention for the Years
 0-000-10-016-T      03/26/10
                              Ended June 30, 2008, June 30, 2007, and
                              June 30, 2006
                              Close-Out Audit of the Fund Accountability
                              Statement of Locally Incurred Costs of USAID
                              Resources Managed by Save the Children
                              Federation, Under Cooperative Agreement
 6-294-10-002-N      10/29/09
                              Number 294-A-00-01-00129-00, “Emergency
                              Financial Services Program in the West Bank
                              and Gaza,” for the Period From October 1,
                              2002 to September 30, 2006




BU—Better Use of Funds       QC—Questioned Costs     UN—Unsupported Costs     Note: UN is part of QC


                                          Appendix I—Table 1


76   USAID OFFICE OF INSPECTOR GENERAL
                                                                                    Amount
                                                                                                   Type
     Report        Date of                                                             of
                                               Report Title                                         of
     Number        Report                                                           Findings
                                                                                                 Findings
                                                                                    ($000s)
                            Audit of the Fund Accountability Statement of
                            USAID Resources Managed by Cooperative
                            Housing Foundation, Under Cooperative
                            Agreement Number 294-A-00-02-00201-00,
 6-294-10-003-N    10/29/09
                            “Palestinian Economic Opportunity Program
                            for Loans and Economic Development,” for
                            the Period From October 1, 2004 to
                            September 30, 2005
                            Audit of the Locally Incurred Costs of
                            USAID/Egypt Resources Managed by Financial
                            Service Volunteer Corps, Strengthen Egypt’s
 6-263-10-006-R    03/09/10 Financial and Non-Financial Sectors Activity,
                            Cooperative Agreement Number 263-A-00-
                            07-00099-00, for the Period From
                            September 30, 2007 to April 30, 2009
                            Close-out Audit of the Fund Accountability
                            Statement of USAID Resources Managed by
                            Save the Children Federation, Under
                            Cooperative Agreement Number 294-A-00-
 6-294-10-007-N    12/29/09
                            02-00233-00, Job Opportunities Through
                            Development of Small Scale Basic Community
                            Infrastructure, for the Period From October 1,
                            2005 to September 30, 2006
                            Audit of the Fund Accountability Statement of
                            USAID Resources Managed by Education
                            Development Center, Under Cooperative
 6-294-10-008-N    12/29/09 Agreement Number 294-A-00-05-00241-00,
                            Palestinian Youth Empowerment Program
                            (RUWWAD), for the Period From October 1,
                            2007 to June 30, 2008
                            Audit of the Fund Accountability Statement of
                            USAID Resources Managed by International
                            Orthodox Christian Charities, Under
 6-294-10-009-N    12/29/09 Cooperative Agreement Number 294-A-00-                     15         QC
                            04-00219-00, “Palestinian Infrastructure for
                            Needed Employment,” for the Period From
                            October 1, 2005 to September 30, 2006




BU—Better Use of Funds   QC—Questioned Costs        UN—Unsupported Costs           Note: UN is part of QC


                                     Appendix I—Table 1


                                     SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010   77
                                                                              Amount
                                                                                            Type
     Report           Date of                                                    of
                                                Report Title                                 of
     Number           Report                                                  Findings
                                                                                          Findings
                                                                              ($000s)
                              Audit of the Fund Accountability Statement of
                              USAID Resources Managed by America-
                              Mideast Education and Training Services,
 6-294-10-013-N      02/22/10 Under Cooperative Agreement Number 294-
                              A-00-06-00209-00, “American Scholarship
                              Fund Program,” for the Period From
                              September 29, 2006 to December 31, 2007
                              Financial Audit of Locally Incurred Costs of
                              American Institutes for Research, Under
 6-263-10-016-N      03/23/10 USAID Agreement Number 263-A-00-04-
                              00005-00, for the Period From October 1,
                              2005 to September 30, 2007
                              Audit of Direct Costs Incurred and Costs
                              Billed by the International Foundation for
                              Electoral Systems Under USAID Cooperative
                              Agreements Numbers 267-A-00-04-00405-00
                                                                              1,118        QC
 E-267-10-001-D      10/29/09 From October 1, 2005, Through June 30,
                                                                                868        UN
                              2007; AFP-A-00-04-00014-00 From July 9,
                              2004, Through June 30, 2006; and REE-A-00-
                              04-00050-00 From July 26, 2004, Through
                              July 31, 2006




BU—Better Use of Funds       QC—Questioned Costs     UN—Unsupported Costs     Note: UN is part of QC


                                         Appendix I—Table 1


78   USAID OFFICE OF INSPECTOR GENERAL
            FINANCIAL AUDIT REPORTS ISSUED
                        USADF

                  October 1, 2009–March 31, 2010
                                                                        Amount
                                                                                         Type
   Report        Date of                                                   of
                                        Report Title                                      of
   Number        Report                                                 Findings
                                                                                       Findings
                                                                        ($000s)
                      PROGRAMS AND OPERATIONS
                            Audit of the United States African
                            Development Foundation’s
0-ADF-10-002-C   11/13/09
                            Financial Statements for Fiscal
                            Years 2009 and 2008




            FINANCIAL AUDIT REPORTS ISSUED
                         IAF

                  October 1, 2009–March 31, 2010
                                                                         Amount
   Report         Date of                                                   of          Type of
                                         Report Title
   Number         Report                                                 Findings       Findings
                                                                         ($000s)
                      PROGRAMS AND OPERATIONS
                            Audit of the Inter-American
0-IAF-10-003-C   11/13/09   Foundation’s Financial Statements
                            for Fiscal Years 2009 and 2008




                              Appendix I—Table 1


                             SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010     79
              PERFORMANCE AUDIT REPORTS ISSUED
                           USAID

                            October 1, 2009–March 31, 2010
                                                                              Amount
                                                                                           Type
     Report           Date of                                                    of
                                                  Report Title                              of
     Number           Report                                                  Findings
                                                                                         Findings
                                                                              ($000s)
                                  ECONOMY AND EFFICIENCY
                                  Audit of USAID/Guatemala’s Democracy          634        QC
 1-520-10-001-P      10/30/09
                                  and Governance Program                         36        UN
                                  Audit of USAID/Haiti’s P.L. 480 Title II
 1-521-10-002-P      12/09/09
                                  Programs
                              Follow-Up Audit of USAID/Guyana’s
 1-504-10-003-P      12/29/09 Progress in Implementing the President’s
                              Emergency Plan for AIDS Relief
                                  Audit of USAID/Colombia’s Alternative
 1-514-10-004-P      03/12/10
                                  Development Program
                                  Audit of USAID/Dominican Republic’s Rural
 1-517-10-005-P      03/16/10
                                  Economic Diversification Project
                              Audit of USAID/Angola’s Procurement and
 4-654-10-001-P      12/21/09 Distribution of Commodities Under the             643        QC
                              President’s Malaria Initiative
                                  Audit of USAID/Rwanda’s HIV/AIDS
 4-696-10-002-P      03/24/10
                                  Treatment Activities
                                  Audit of USAID/Ethiopia’s Agricultural
 4-663-10-003-P      03/30/10
                                  Sector Productivity Activities
                                  Audit of USAID/East Africa’s Conflict
 4-623-10-004-P      03/30/10
                                  Mitigation Activities
                              Audit of USAID/Philippines’ Sustainable
                              Health Improvements through
 5-492-10-001-P      10/09/09
                              Empowerment and Local Development
                              Project
                              Audit of USAID/Afghanistan’s Power Sector
 5-306-10-002-P      11/10/09 Activities Under Its Afghanistan                2,078        QC
                              Infrastructure Rehabilitation Program
                                  Audit of Selected USAID/Bangladesh
 5-388-10-003-P      12/11/09
                                  Population and Health Activities

BU—Better Use of Funds       QC—Questioned Costs       UN—Unsupported Costs   Note: UN is part of QC


                                          Appendix I—Table 2


80   USAID OFFICE OF INSPECTOR GENERAL
                                                                                  Amount
                                                                                                 Type
     Report        Date of                                                           of
                                              Report Title                                        of
     Number        Report                                                         Findings
                                                                                               Findings
                                                                                  ($000s)
                              Audit of USAID/Afghanistan’s Afghan
 5-306-10-004-P    12/15/09
                              Civilian Assistance Program
                            Audit of USAID/Pakistan’s Capacity Building
 5-391-10-005-P    01/28/10 Program for the Federally Administered
                            Tribal Areas Development Program
                            Audit of USAID/Afghanistan’s Building
 5-306-10-006-P    01/29/10 Education Support Systems for Teachers
                            Project
                              Audit of USAID/Afghanistan’s Human
 5-306-10-007-P    03/31/10
                              Resources and Logistical Support Program
                              Audit of USAID/Egypt’s Democracy and
 6-263-10-001-P    10/27/09                                                            8          QC
                              Governance Activities
                              Audit of USAID/Egypt’s Financial Services
 6-263-10-002-P    11/30/09
                              Project
                            Audit of Internal Controls Over the
 6-263-10-003-P    01/14/10 Separate Maintenance Allowance at                          7          QC
                            Selected Missions in the Middle East Bureau
                            Audit of USAID/Jordan’s Sustainable
 6-278-10-004-P    03/31/10 Achievement of Business Expansion and
                            Quality Project
                            Audit of USAID/Democratic Republic of
 7-660-10-001-P    10/08/09 Congo’s Displaced Children and Orphans
                            Fund Activities
                            Audit of USAID/Nigeria’s PEPFAR-Funded
                                                                                      40          QC
                            Activities and Commodities for the
 7-620-10-002-P    01/19/10                                                           40          UN
                            Prevention of Mother-to-Child
                                                                                      57          BU
                            Transmission of HIV
                            Audit of USAID/West Africa’s P.L. 480
                            Title II Food Aid in Support of the
 7-685-10-003-P    02/11/10
                            Livelihood Expansion and Asset
                            Development Project in Sierra Leone
                                                                                      21          QC
 7-688-10-004-P    02/26/10 Audit of USAID/Mali’s Education Program
                                                                                      21          UN
                              Audit of USAID/Senegal’s Implementation
 7-685-10-005-P    03/15/10
                              of the President’s Malaria Initiative



BU—Better Use of Funds   QC—Questioned Costs        UN—Unsupported Costs          Note: UN is part of QC


                                      Appendix I—Table 2


                                    SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010     81
                                                                             Amount
                                                                                          Type
     Report           Date of                                                   of
                                                 Report Title                              of
     Number           Report                                                 Findings
                                                                                        Findings
                                                                             ($000s)
                                  Audit of USAID’s Process for Suspension
 9-000-10-001-P      10/01/09
                                  and Debarment
                                  Audit of USAID/Cambodia’s Counter
 9-000-10-002-P      12/10/09
                                  Trafficking in Persons Project
                                  Audit of USAID’s Internal Controls Over
 9-000-10-003-P      03/01/10
                                  the Separate Maintenance Allowance
                              Audit of USAID/Kosovo’s Efforts to
 9-000-10-004-P      03/09/10 Mitigate Environmental Impact in Its Project
                              Portfolio
                              Worldwide Audit of the PEPFAR-Funded
                              Activities and Commodities for the
 9-000-10-005-P      03/10/10
                              Prevention of Mother-to-Child Transmission
                              of HIV
                         Audit of USAID’s Compliance with the
 A-000-10-001-P 11/17/09 Federal Information Security Management
                         Act for Fiscal Year 2009
                         Audit of USAID’s Compliance with Section
 A-000-10-002-P 12/31/09 522 of the Consolidated Appropriations
                         Act of 2005
                                  Audit of USAID’s Internally Displaced
 E-267-10-001-P      03/31/10                                                  766        QC
                                  Persons Activities in Iraq




              PERFORMANCE AUDIT REPORTS ISSUED
                       USADF AND IAF

                            October 1, 2009–March 31, 2010
                                                                             Amount
                      Date of                                                   of      Type of
 Report Number                                   Report Title
                      Report                                                 Findings   Findings
                                                                             ($000s)




                                     NOTHING TO REPORT

BU—Better Use of Funds       QC—Questioned Costs      UN—Unsupported Costs   Note: UN is part of QC


                                          Appendix I—Table 2


82   USAID OFFICE OF INSPECTOR GENERAL
           MISCELLANEOUS AUDIT REPORTS ISSUED
                         USAID

                         October 1, 2009–March 31, 2010
                                                                                 Amount
                                                                                                Type
    Report          Date of                                                         of
                                              Report Title                                       of
    Number          Report                                                       Findings
                                                                                              Findings
                                                                                 ($000s)
                         QUALITY CONTROL REVIEWS (QCR)
                              Quality Control Review of BDO
0-000-10-001-Q     11/20/09   Seidman’s Audit of Christian Children’s
                              Fund for Fiscal Year Ended June 30, 2008
                              Quality Control Review of the Audit
                              Report and Audit Documentation for the
1-527-10-001-Q     12/03/09   Financial Audits Conducted by the
                              Controller General of the Republic of
                              Peru of USAID Funds
                              Quality Control Review of the Audit
                              Report and Audit Documentation for the
1-527-10-002-Q     12/09/09
                              Financial Audits Conducted by Portal Vega
                              and Associates of USAID Funds
                              Quality Control Review of the Audit of
                              Confederacao das Associacoes
                              Economicas de Mocambique (CTA) under
4-656-10-001-Q     10/01/09
                              Cooperative Agreement No. 656-A-00-
                              04-00050-00, for the year ended
                              September 30, 2005
                              Quality Control Review of the Audit of
                              Foundation for Professional Development
4-674-10-002-Q     10/22/09   under Cooperative Agreement No. 674-
                              A-00-08-00006-00, for the three months
                              period ended December 31, 2007
                              Quality Control Review of the Audit of
                              Wits Health Consortium under
4-674-10-003-Q     10/22/09   Cooperative Agreement Nos. 674-A-00-
                              05-00003-00 and 674-A-00-05-00004-00,
                              for the year ended December 31, 2006




BU—Better Use of Funds   QC—Questioned Costs       UN—Unsupported Costs          Note: UN is part of QC


                                    Appendix I—Table 3


                                   SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010     83
                                                                                 Amount
                                                                                              Type
     Report           Date of                                                       of
                                                   Report Title                                of
     Number           Report                                                     Findings
                                                                                            Findings
                                                                                 ($000s)
                                    Quality Control Review of the Audit of
                                    Foundation for Community Development
4-656-10-004-Q        10/22/09      under Cooperative Agreement No. 656-
                                    A-00-04-00041-00, for the year ended
                                    September 30, 2006
                                    Quality Control Review of the Audit of
                                    Foundation for Community Development
4-656-10-005-Q        10/22/09      under Cooperative Agreement No. 656-
                                    A-00-04-00041-00, for the year ended
                                    September 30, 2007
                                    Quality Control Review of the Audit of
                                    Foundation for Community Development
4-656-10-006-Q        10/22/09      under Cooperative Agreement No. 656-
                                    A-00-04-00041-00, for the year ended
                                    September 30, 2008
                                    Quality Control Review of
                                    PricewaterhouseCoopers Audit of the
                                    Fund Accountability Statement of USAID
                                    Resources Managed by America-Mideast
                                    Education and Training Services, Under
6-294-10-001-Q        02/22/10
                                    Cooperative Agreement Number 294-A-
                                    00-06-00209-00, “American Scholarship
                                    Fund Program,” for the Period From
                                    September 29, 2006 to December 31,
                                    2007
                                    Quality Control Review of Ernst and
                                    Young Close-out Audit of USAID
                                    Resources Managed by American Jewish
                                    Joint Distribution Committee, Under
6-294-10-002-Q        02/24/10
                                    Grant Agreement Number 294-G-00-05-
                                    00222-00, “Child Rehabilitation Initiative
                                    for Safety and Hope,” for the Period
                                    From September 2, 2006 to May 2, 2007




BU—Better Use of Funds       QC—Questioned Costs       UN—Unsupported Costs      Note: UN is part of QC


                                          Appendix I—Table 3


84   USAID OFFICE OF INSPECTOR GENERAL
                                                                                 Amount
                                                                                                Type
    Report          Date of                                                         of
                                              Report Title                                       of
    Number          Report                                                       Findings
                                                                                              Findings
                                                                                 ($000s)
                              Quality Control Review of BDO MBA of
                              Dakar, Senegal, Regarding the Audit of
                              USAID and the German Foundation
                              Kreditanstalt Fuer Wiederaufbau (KFW)
                              Resources Managed by the Agency for
                              the Development of Social Marketing
7-685-10-001-Q     12/30/09   (ADEMAS) under Cooperative
                              Agreement No. 685-A-00-03-00118-00 in
                              Senegal for the Period from January 1,
                              2005 to December 31, 2007 and the
                              KFW Program No. 1002 65 033 for the
                              Period from January 2007 to
                              December 31, 2007
                              Quality Control Review of the Audit of
                              the Fund Accountability Statement for
                              Society for Family Health (SFH) under the
                              Integrated Reproductive Health (IRHIN)
                              Project No. 620-A-00-05-00098-00 and
                              the Comprehensive Integrated Approach
                              to HIV/AIDS Prevention and Care
7-620-10-002-Q     01/15/10                                                        110          QC
                              (CIAHPAC) Project No. 620-A-00-05-
                              00100-00 Conducted by Akintola
                              Williams Deloitte of Abuja For the Period
                              From June 8, 2005 to December 25, 2005
                              and PricewaterhouseCoopers of Lagos,
                              Nigeria For the Period From December,
                              2005 to December 25, 2006
                              Quality Control Review of Akintola
                              Williams Deloitte of Abuja, Nigeria,
                              Regarding the Audit of the Fund
                              Accountability Statement for Society for
                              Family Health under the Integrated
                              Reproductive Health (RHIN) Project No.
7-620-10-003-Q     01/14/10
                              620-A-00-05-00098-00 and the
                              Comprehensive Integrated Approach to
                              HIV/AIDS Prevention and Care
                              (CIAHPAC) Project No. 620-A-00-05-
                              00100-00, in Nigeria for the Period From
                              June 8, 2005 to December 25, 2005




BU—Better Use of Funds   QC—Questioned Costs       UN—Unsupported Costs          Note: UN is part of QC


                                    Appendix I—Table 3


                                   SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010     85
                                                                               Amount
                                                                                            Type
     Report           Date of                                                     of
                                                  Report Title                               of
     Number           Report                                                   Findings
                                                                                          Findings
                                                                               ($000s)
                                    Quality Control Review of Cabinet Aziz
                                    Dieye Dakar, Senegal Regarding the Audit
                                    of USAID Resources Managed by the
                                    Agency for the Development of Social
7-685-10-004-Q        02/26/10      Marketing (ADEMAS) under the
                                    Decentralized Quality Health Services
                                    Program in Senegal (No. 685-0309-00)
                                    for the Period From September 3, 2003
                                    to December 31, 2004
                                               OTHER
                                     Review of USAID/Dominican Republic’s
                                     PEPFAR-Funded Activities and
1-517-10-001-S        01/15/10
                                     Commodities for the Prevention of
                                     Mother-To-Child Transmission of HIV




BU—Better Use of Funds       QC—Questioned Costs      UN—Unsupported Costs     Note: UN is part of QC


                                          Appendix I—Table 3


86   USAID OFFICE OF INSPECTOR GENERAL
    MISCELLANEOUS AUDIT REPORTS ISSUED
               USADF AND IAF

          October 1, 2009–March 31, 2010
                                                                 Amount
Report   Date of                                                    of          Type of
                                  Report Title
Number   Report                                                  Findings       Findings
                                                                 ($000s)




                   NOTHING TO REPORT




                      Appendix I—Table 3


                     SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010     87
                AFGHANISTAN, PAKISTAN, AND IRAQ
                     AUDIT REPORTS ISSUED
                             USAID

                            October 1, 2009–March 31, 2010
                                                                               Amount
     Report           Date of                                                     of        Type of
                                                 Report Title
     Number           Report                                                   Findings     Findings
                                                                               ($000s)

                                          AFGHANISTAN

                                  Financial Audit of the Afghanistan First
                                  Loss Reserve Fund, USAID/
                                  Afghanistan Cooperative Agreement No.
                                  306-A-00-05-00512-00, Managed by the
5-306-10-001-D       03/30/10                                                    57           QC
                                  Deutsche Investitions- und
                                  Entwicklungsgesellschaft mbH (DEG), for
                                  the Period from February 4, 2005 to
                                  December 31, 2008

                                  Financial Audit of Local Costs Incurred by
                                  the Joint Venture Louis Berger Group,
                                  Inc./Black & Veatch Special Projects Corp.
                                  to Implement the Afghanistan
5-306-10-002-N       02/25/10                                                    47           QC
                                  Infrastructure Rehabilitation Program,
                                  USAID/Afghanistan Contract No. 306-I-
                                  00-06-00517-00, for the Period from
                                  October 1, 2007 to September 30, 2008

                                  Audit of USAID/Afghanistan's Power
 5-306-10-002-P      11/10/09     Sector Activities Under Its Afghanistan      2,078          QC
                                  Infrastructure Rehabilitation Program

                                  Audit of USAID/Afghanistan's Afghan
 5-306-10-004-P      12/15/09
                                  Civilian Assistance Program

                                  Audit of USAID/Afghanistan’s Building
 5-306-10-006-P      01/29/10     Education Support Systems for Teachers
                                  Project

                                  Audit of USAID/Afghanistan's Human
 5-306-10-007-P      03/31/10
                                  Resources and Logistical Support Program



BU—Better Use of Funds       QC—Questioned Costs       UN—Unsupported Costs     Note: UN is part of QC


                                          Appendix I—Table 4


88   USAID OFFICE OF INSPECTOR GENERAL
                                                                                Amount
    Report         Date of                                                         of           Type of
                                             Report Title
    Number         Report                                                       Findings        Findings
                                                                                ($000s)

                                         PAKISTAN

                              Financial Audit of USAID Funds Managed
                              by Children’s Global Network Pakistan
                              (G) Limited (formerly Children’s                    362             QC
5-391-10-012-R     12/22/09
                              Resources International Pakistan (G)                320             UN
                              Limited), for the year ended June 30,
                              2008

                              Closeout Financial Audit of the Aga Khan
                              University–Examination Board (AKU-
                              EB), USAID/Pakistan Cooperative                      63             QC
5-391-10-020-R     02/10/10
                              Agreement No. 391-A-00-03-01003-00,                  63             UN
                              for the Period from January 1, 2007 to
                              December 31, 2007

                              Closeout Financial Audit of the Program
                              Entitled “Improved Pakistani Family
                              Planning and Reproductive Health
                              Services”: USAID/Pakistan Cooperative
5-391-10-026-R     03/24/10   Agreement No. 391-A-00-03-01016-00,
                              Managed by Greenstar Social Marketing
                              Pakistan (Guarantee) Limited, for the
                              Period from July 1, 2007 to December
                              31, 2007

                              Audit of USAID/Pakistan’s Capacity
                              Building Program for the Federally
5-391-10-005-P     01/28/10
                              Administered Tribal Areas
                              Development Program

                                             IRAQ

                              Audit of Direct Costs Incurred and
                              Costs Billed by the International
                              Foundation for Electoral Systems Under
                              USAID Cooperative Agreements
                              Numbers 267-A-00-04-00405-00 From                 1,118             QC
E-267-10-001-D     10/29/09
                              October 1, 2005, Through June 30,                   868             UN
                              2007; AFP-A-00-04-00014-00 From July
                              9, 2004, Through June 30, 2006; and
                              REE-A-00-04-00050-00 From July 26,
                              2004, Through July 31, 2006

BU—Better Use of Funds   QC—Questioned Costs        UN—Unsupported Costs          Note: UN is part of QC


                                     Appendix I—Table 4


                                    SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010   89
                                                                             Amount
     Report           Date of                                                   of        Type of
                                                Report Title
     Number           Report                                                 Findings     Findings
                                                                             ($000s)

                                  Audit of Billed Amounts by Gulf Catering
                                  Company Under USAID Contract
E-267-10-002-D       11/09/09     Number 267-C-00-05-00514-00 From            315           QC
                                  October 1, 2005 Through October 31,
                                  2008

                                  Audit of USAID's Internally Displaced
E-267-10-001-P       03/31/10                                                 766           QC
                                  Persons Activities in Iraq




BU—Better Use of Funds       QC—Questioned Costs      UN—Unsupported Costs    Note: UN is part of QC


                                         Appendix I—Table 4


90   USAID OFFICE OF INSPECTOR GENERAL
           UNSUPPORTED, QUESTIONED,
    OR DISALLOWED COSTS OF OVER $10 MILLION
         OR OTHER SIGNIFICANT FINDINGS
                     USAID

                    October 1, 2009–March 31, 2010

   Report                                                                             Questioned
                 Instrument                Report Title/Description
   Number                                                                               Costs

                               CARE USA A–133 Audit Report for Fiscal
                               Year Ended June 30, 2008. The audit was
                               conducted by an independent public
                               accountant, who expressed an unqualified
                               opinion on the financial statements and the
                               schedule of expenditures of Federal awards
                               and a qualified opinion on compliance with
                               requirements applicable to each major
                               program. The accountant identified 73
                               findings pertaining to nine compliance
                               requirements. Included in the audit findings
                               were 48 instances of material
                               noncompliance and 56 material weaknesses
                               in internal control over compliance with
                               requirements applicable to each major
                 Grants and    program. These findings were also
0-000-10-012-T   Cooperative   reported in prior years and pertain to the             $1.7 million
                 Agreements    following programs:

                                    •     Global AIDS (Catalog of Federal
                                          Domestic Assistance (CFDA) No.
                                          93.067)

                                    •     USAID Foreign Assistance for
                                          Programs Overseas (CFDA No.
                                          98.001)

                                    •     Food for Peace Development
                                          Assistance Program (CFDA No.
                                          98.007)

                                    •     Food for Peace Emergency
                                          Program (CDFA No. 98.008)




                                 Appendix I—Table 5


                               SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010     91
             UNSUPPORTED, QUESTIONED,
      OR DISALLOWED COSTS OF OVER $10 MILLION
           OR OTHER SIGNIFICANT FINDINGS
                   USADF AND IAF

                            October 1, 2009–March 31, 2010

     Report                                                              Questioned
                         Instrument           Report Title/Description
     Number                                                                Costs




                                     NOTHING TO REPORT




                                         Appendix I—Table 5


92   USAID OFFICE OF INSPECTOR GENERAL
            AUDIT REPORTS OVER 6 MONTHS OLD
             WITH NO MANAGEMENT DECISION
                          USAID

                     October 1, 2009–March 31, 2010
   Report                     Issue                              Current
                 Auditee
   Number                     Date                         Recommendation Status
                                          Recommendation No. 5: Pursuant to the provisions of
                                          the Privacy Act of 1974 (5 U.S.C. 552a), USAID
                                          established a new system of records entitled the
                                          “Partner Vetting System” (PVS). The information
                                          collected would be used to conduct screening to
                                          ensure that USAID funds and USAID-funded activities
                                          are not purposefully or inadvertently used to provide
                                          support to entities or individuals deemed to be a risk
                                          to national security. On November 6, 2007, OIG made
                                          a recommendation to USAID’s Office of Security to
                                          develop a plan to expand and then implement its
                 Office of                antiterrorism vetting database for worldwide use. The
9-000-08-001-P   Security    11/06/07     Fiscal Year 2010 State and Foreign Operations
                  (SEC)                   Appropriations bill prohibits the use of funds for
                                          implementation of PVS on a worldwide basis, but it
                                          also provides that funds appropriated under that act
                                          may be used for a PVS pilot program, which is to apply
                                          equally to the programs and activities of the
                                          Department of State and USAID. The Department of
                                          State and USAID have formed a working group to
                                          determine a way forward and possible approaches are
                                          being examined. USAID is continuing with
                                          development of the necessary technical components
                                          and expects to undertake a pilot implementation later
                                          in fiscal year 2010.




                                      Appendix I—Table 6


                                 SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010   93
               AUDIT REPORTS OVER 6 MONTHS OLD
                WITH NO MANAGEMENT DECISION
                         USADF AND IAF

                             October 1, 2009–March 31, 2010
     Report                               Issue                              Current
                     Auditee
     Number                               Date                         Recommendation Status




                                     NOTHING TO REPORT




                                                  Appendix I—Table 6


94    USAID OFFICE OF INSPECTOR GENERAL
         SIGNIFICANT AUDIT RECOMMENDATIONS
           DESCRIBED IN PREVIOUS SEMIANNUAL
            REPORTS WITHOUT FINAL ACTION
                          USAID

                       October 1, 2009–March 31, 2010
                                                                                               Final
   Report                                             Issue       Rec.    Management          Action
                       Subject of Report
   Number                                             Date        No.     Decision Date       Target
                                                                                               Date
               Audit of USAID’s Compliance
               with the Federal Information
A-000-08-009-P                                      09/29/08       17         09/29/08        06/10
               Security Management Act for
               Fiscal Year 2008
               Audit of USAID’s Financial
0-000-09-001-C Statements for Fiscal Years          11/14/08        1         11/14/08        09/10
               2008 and 2007
                                                                    2         01/15/09        09/10
                                                                    3         01/15/09        09/10
               Audit of Engender Health’s                           5         01/15/09        09/10
1-511-09-004-P Management of Activities             01/15/09
               Financed by USAID/Bolivia                            6         01/15/09        09/10
                                                                    7         04/27/09        09/10
                                                                    8         04/27/09        09/10
                                                                    1         05/18/09        04/10
                                                                    2         05/18/09        04/10
               Audit of the USAID/Honduras                          3         05/18/09        12/10
1-522-09-006-P Trade, Investment, and               02/26/09        4         05/18/09        12/10
               Competitiveness Program                              5         05/18/09        04/10
                                                                    6         05/18/09        04/10
                                                                    8         05/18/09        04/10
                                                                    1         03/06/09        09/10
                 Audit of USAID/Colombia’s                          3         03/06/09        09/10
1-514-09-007-P                                      03/06/09
                 Human Rights Program                               4         03/06/09        06/10
                                                                    6         03/06/09        04/10
               Audit of USAID/West Africa’s
               Procurement and Distribution                         4         05/08/09        05/10
7-624-09-002-P of Commodities in Côte               05/08/09
               d’Ivoire for the President’s                         9         05/08/09        05/10
               Emergency Plan for AIDS Relief


                                    Appendix I—Table 7


                                  SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010    95
                                                                                         Final
     Report                                             Issue    Rec.   Management      Action
                             Subject of Report
     Number                                             Date     No.    Decision Date   Target
                                                                                         Date
                                                                   1       07/30/09     04/10
                                                                   2       07/30/09     04/10
                                                                   3       07/30/09     04/10
               Audit of USAID/Honduras’                            4       06/04/09     04/10
1-522-09-009-P Democracy and Governance               06/04/09     5       07/30/09     04/10
               Program                                             7       06/04/09     04/10
                                                                   8       07/30/09     04/10
                                                                   9       07/30/09     04/10
                                                                 10        07/30/09     04/10
               Audit of USAID/Ethiopia’s
               PEPFAR-Funded Activities and                        3       08/19/09     08/10
9-663-09-008-P Commodities for the                    06/25/09
               Prevention of Mother-to-Child                       4       06/25/09     08/10
               Transmission of HIV
                                                                   2       07/17/09     05/10
                                                                   3       07/17/09     05/10
               Audit of USAID’s Faith-Based
9-000-09-009-P                                        07/17/09     4       07/17/09     05/10
               and Community Initiatives
                                                                   5       07/17/09     04/10
                                                                   7       07/17/09     05/10
               Audit of USAID’s
               Implementation of the
9-000-09-010-P Millennium Challenge                   08/12/09     1       08/12/09     06/10
               Corporation’s Threshold
               Program
                                                                   1       08/28/09     08/10
                                                                   2       08/28/09     08/10
               Audit of USAID/Tanzania’s
               PEPFAR-Funded Activities and                        3       08/28/09     08/10
4-621-09-008-P Commodities for the                    08/28/09     4       08/28/09     08/10
               Prevention of Mother-to-Child                       5       08/28/09     08/10
               Transmission of HIV
                                                                   6       08/28/09     08/10
                                                                   7       08/28/09     08/10
                                                                   1       09/02/09     08/10
               Audit of the Millennium                             3       09/02/09     08/10
               Challenge Corporation                               4       09/02/09     08/10
1-526-09-010-P Threshold Program                      09/02/09
               Administered by                                     5       09/02/09     08/10
               USAID/Paraguay                                      7       09/02/09     06/10
                                                                   8       09/02/09     06/10


                                          Appendix I—Table 7


96   USAID OFFICE OF INSPECTOR GENERAL
        SIGNIFICANT AUDIT RECOMMENDATIONS
          DESCRIBED IN PREVIOUS SEMIANNUAL
           REPORTS WITHOUT FINAL ACTION
                        USADF

                    October 1, 2009–March 31, 2010
                                                                                              Final
                                                                           Management
   Report                                              Issue       Rec.                      Action
                       Subject of Report                                    Decision
   Number                                              Date        No.                       Target
                                                                              Date
                                                                                              Date
               Follow-up Audit of the Awarding                      16       06/12/08        07/10
7-ADF-08-006-P and Monitoring of Grants by the 06/12/08
               African Development Foundation                       18       06/12/08        07/10

                                                                    1        09/17/08        07/10
                                                                    5        01/27/09        07/10
                                                                    7        09/17/08        07/10
               African Development                                  14       09/17/08        07/10
7-ADF-08-007-P Foundation/Ghana Project              09/17/08
               Activities                                         17.1       09/26/08        07/10
                                                                  17.2       09/26/08        07/10
                                                                  17.3       09/26/08        07/10
                                                                  17.4       09/26/08        07/10




        SIGNIFICANT AUDIT RECOMMENDATIONS
          DESCRIBED IN PREVIOUS SEMIANNUAL
           REPORTS WITHOUT FINAL ACTION
                          IAF

                    October 1, 2009–March 31, 2010
                                                                                       Final
                                                                           Management
   Report                                              Issue       Rec.               Action
                       Subject of Report                                    Decision
   Number                                              Date        No.                Target
                                                                              Date
                                                                                       Date




                           NOTHING TO REPORT

                                  Appendix I—Table 7


                               SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010   97
                 REPORTS ISSUED WITH QUESTIONED
                     AND UNSUPPORTED COSTS
                               USAID

                             October 1, 2009–March 31, 2010
                                                   Number of          Questioned            Unsupported
                      Reports                        Audit              Costs                 Costs 1
                                                    Reports              ($)                    ($)
 A. For which no management decision
    had been made as of September 30,                   48           231,984,783 2, 3        219,070,8092,3
    2009
 B.   Reports issued October 1, 2009–
                                                        92              23,248,520 4           12,010,5144
      March 31, 2010

           Subtotal                                    140             255,233,303            231,081,323

 C. Reports with a management decision
    made October 1, 2009–March 31,                      86 5          241,913,518 6           222,235,854
    2010
           Value of recommendations
                                                                       204,989,094            195,040,804
           disallowed by Agency officials

           Value of recommendations allowed
                                                                        36,924,424              27,195,050
           by Agency officials

 D. For which no management decision
                                                        56              13,319,785 7             8,845,4697
    had been made as of March 31, 2010

 1 Unsupported costs are included in questioned costs, but they are provided as additional information, as

required by the Inspector General Act, as amended 1988 (Public Law 100–504).
 2 The ending balances at September 30, 2009, for questioned costs totaling $136,145,061 and for

unsupported costs totaling $123,144,732 were increased by $95,839,722 and $95,926,077, respectively, to
reflect adjustments in recommendations from prior periods.
 3 Amounts include $105,455,834 in questioned costs and $100,993,791 in unsupported costs for audits

performed for OIG by other Federal audit agencies.
 4 Amounts include $1,489,897 in questioned costs and $867,609 in unsupported costs for audits performed

for OIG by other Federal audit agencies.
 5 Unlike the monetary figures of this row, this figure is not being subtracted from the subtotal. Some audit

reports counted here may be counted again in the figure below it because some reports have multiple
recommendations and fall into both categories.
 6 Amounts include $314,907 in questioned costs for audits performed for OIG by other Federal audit

agencies.
 7 Amounts include $1,118,016 in questioned costs and $867,609 in unsupported costs for audits performed

for OIG by other Federal audit agencies.

                                            Appendix I—Table 8


98    USAID OFFICE OF INSPECTOR GENERAL
REPORTS ISSUED WITH QUESTIONED
    AND UNSUPPORTED COSTS
          USADF AND IAF

          October 1, 2009–March 31, 2010
                          Number of
                                              Questioned             Unsupported
Reports                     Audit
                                                Costs                   Costs
                           Reports




                NOTHING TO REPORT




                   Appendix I—Table 8


                 SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010   99
         REPORTS ISSUED WITH RECOMMENDATIONS
            THAT FUNDS BE PUT TO BETTER USE
                          USAID

                             October 1, 2009–March 31, 2010
                                                                        Number of   Amount
                                    Reports                               Audit
                                                                         Reports      ($)

A. For which no management decision had been made as of
                                                                            0            0
   September 30, 2009

B.    Reports issued October 1, 2009–March 31, 2010                         1        57,000

           Subtotal                                                         1        57,000

C. Reports with a management decision made October 1, 2009–
                                                                            0            0
   March 31, 2010

           Value of recommendations agreed to by Agency officials                        0

           Value of recommendations not agreed to by Agency officials                    0

D. For which no management decision had been made as of
                                                                            1        57,000
   March 31, 2010




         REPORTS ISSUED WITH RECOMMENDATIONS
            THAT FUNDS BE PUT TO BETTER USE
                      USADF AND IAF

                             October 1, 2009–March 31, 2010
                                                                        Number of
                                                                                    Amount
                                   Reports                                Audit
                                                                                      ($)
                                                                         Reports




                                          NOTHING TO REPORT




                                              Appendix I—Table 9


100   USAID OFFICE OF INSPECTOR GENERAL
                                      APPENDIX II

                           SUMMARY TABLES
                          USAID, USADF, AND IAF


                                             List of Tables

1. Summary of Audits Conducted and Results ................................................................... 103
2. Summary of Investigative Activities and Results ............................................................ 104
3. Fraud Awareness Briefings Conducted Worldwide...................................................... 105




                                                 Appendix II


                                         SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010     101
102   USAID OFFICE OF INSPECTOR GENERAL
                SUMMARY OF AUDITS CONDUCTED
                        AND RESULTS
                                   As of March 31, 2010
                                                                                     Amount of
                                                           Number of
                  Type of Report                                                  Recommendations
                                                            Reports
                                                                                        ($)

  Financial Audits

      USAID (ARRA)*                                               0                                0

      USAID programs and operations                               1                                0

      Foundations’ programs and operations                        2                                0

      U.S.-based contractors                                      9                         321,230

      U.S.-based grantees                                       25                       2,199,875

               Quality-control reviews                           1                                 0

      Foreign-based organizations                              146                      16,419,331

               Quality-control reviews                          14                          109,953

      Enterprise Funds                                          10                                 0

  Performance Audits

      USAID economy and efficiency                              33                       4,255,131

      Foundations’ economy and efficiency                        0                                 0

  Other                                                           2                                0

                       Total                                   243                      23,305,520


* American Recovery and Reinvestment Act of 2009, Public Law III–5.




                                         Appendix II—Table 1


                                      SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010   103
                   SUMMARY OF INVESTIGATIVE ACTIVITIES
                             AND RESULTS
                                 USAID

                                             As of March 31, 2010

                         Workload                                              Civil

Cases opened                                        55       Civil referrals                       2

Cases closed                                        64       Civil declinations                    1

                                                             Complaints                            0

                                                             Judgments / Recoveries                0

                                                             Settlements                           1

                    Criminal                                             Administrative

Prosecutive referrals                                8       Reprimands / Demotions                0

Prosecutive declinations                             5       Personnel suspensions                 0

Arrests                                              1       Resignations / Terminations           1

Indictments                                          6       Other administrative actions          0

Convictions                                          6       Recoveries                            0

Sentencing                                           5                    Procurements

Fines                                                3       Suspensions / Debarments              0

Restitutions                                         2       Savings                               1

                                                             Recoveries                            2

                                                             Systemic changes                      0


        Judicial recoveries                                                        $1,489,272

        Administrative recoveries                                                             0

        Savings                                                                        2,024,280

                  Total investigative savings / recoveries                         $3,513,552



                                                Appendix II—Table 2


 104     USAID OFFICE OF INSPECTOR GENERAL
             FRAUD AWARENESS BRIEFINGS
              CONDUCTED WORLDWIDE
                              As of March 31, 2010

                                                                                      Professional
Month         Location                         Sessions        Attendees
                                                                                       Affiliation

        Baghdad, Iraq                               1               15          USAID contractors
Oct.    Bangkok, Thailand                           5              103          USAID contractors
        Beirut, Lebanon                             2               37          USAID personnel


        Amman, Jordan                               4              175          USAID personnel
        Baghdad, Iraq                               3                94         USAID contractors
        Dhaka, Bangladesh                           3              138          USAID personnel
Nov.    Dhaka, Bangladesh                           1                49         USAID contractors
        Colombo, Sri Lanka                          3                51         USAID personnel
        Kabul, Afghanistan                          1                20         USAID contractors
        Washington, DC                              1                16         USAID contractors


        Baghdad, Iraq                               1                28         USAID personnel
Dec.
        Kabul, Afghanistan                          1                25         USAID contractors


        Baghdad, Iraq                               1                36         USAID contractors
        Cairo, Egypt                                1                 5         USAID personnel
Jan.
        New Delhi, India                            4              142          USAID contractors
        Manila, Philippines                         1                28         USAID contractors


        Baghdad, Iraq                               4                94         USAID contractors
Feb.    Manila, Philippines                         1                36         USAID personnel
        San Salvador, El Salvador                   1                 7         USAID contractors


        Kabul, Afghanistan
                                                    4                27         USAID contractors
        Santo Domingo,
                                                    4                34         USAID contractors
Mar.       Dominican Republic
                                                    1                11         USAID personnel
        Managua, Nicaragua
                                                    9              225          USAID personnel
        Port-au-Prince, Haiti

                Total                             57             1,396



                                  Appendix II—Table 3


                                SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010   105
106   USAID OFFICE OF INSPECTOR GENERAL
SEMIANNUAL REPORT TO THE CONGRESS

    Millennium Challenge Corporation (MCC)




               SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010   107
108   USAID OFFICE OF INSPECTOR GENERAL
MILLENNIUM CHALLENGE CORPORATION
            Introduction
Established in 2004 by the Millennium Challenge Act of 2003, 14 the Millennium Challenge
Corporation (MCC) is a U.S. Government corporation that works to reduce poverty
and stimulate economic growth in some of the poorest countries in the world. When a
country meets the performance standards of MCC’s 17 policy indicators, it may become
eligible to receive a compact—the chief grant instrument between MCC and the
country to fund specific programs.

Compact countries must ensure that certain conditions are met after the agreement is
signed, which can take several months to resolve. When the agreement conditions are
met, the agreement timeline begins, and the agreement is said to “enter into force.”
According to MCC officials, entry into force is the point at which a binding commitment is
recognized and compact funds are obligated. Each compact country identifies an agency or
entity that will manage the compact funds or accounts. Such organizations are usually
called Millennium Challenge Accounts (MCA) and refer to the funds of the compact.

To help oversee the corporation’s financial and performance accountability, OIG has
used several mechanisms. Financial audits of U.S. taxpayer monies granted to compact
countries are an important component of OIG’s audit activities. During this reporting
period, with the assistance of independent audit firms, OIG issued eight audit reports
covering approximately $105 million expended by compact countries. The audits
identified questioned costs of about $100,000. In addition, during this period, OIG
completed a limited-scope review in Tanzania that identified approximately $71,000 in
questioned costs.

OIG carried out performance audits related to (1) the Access to Markets Program,
which involved improving the performance of the Port of Cotonou in Benin, (2) the
termination of the compact with Madagascar, and (3) MCC’s policies and procedures to
address U.S. Government anti-trafficking policy. OIG made 15 recommendations to
improve MCC’s operations in these areas.

We also contracted with an independent public accounting firm to conduct an audit of
MCC’s financial statements, internal controls, and compliance with laws and regulations
for the periods ending September 30 in 2009 and 2008. The audit found that MCC’s
financial statements were presented fairly in all material respects and in conformity with
generally accepted accounting principles for Federal reporting entities. However, the
audit identified five significant deficiencies (one considered a material weakness) in the
area of internal controls over financial reporting.




14   Public Law 108–199.



                                  SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010   109
110   USAID OFFICE OF INSPECTOR GENERAL
        SIGNIFICANT ACCOMPLISHMENTS
                     MCC

       ECONOMIC GROWTH AND PROSPERITY

Economic Security
Audit of MCC’s Access to Markets Project in Benin. The February 22, 2006,
compact between the Millennium Challenge Corporation and the Government of Benin
provided $169 million for the Access to Markets Project. The project was designed to
promote access to markets by improving the Port of Cotonou’s performance, security,
and capacity. The objective of the audit was to determine whether improvements to the
port have resulted in better access to markets.

The audit found that it was too early to determine whether the project will increase the
efficiency of the port’s operations because the work has only recently started and is
scheduled to be completed by the compact’s end in October 2011. While the Access to
Markets Program had a monitoring and evaluation plan in place to measure program
results, MCC could not measure the gains in overall efficiency or the project activities’
individual contributions to achieving these overall gains.

OIG identified problems with compact implementation. Certain projects that should
contribute to increasing the efficiency of the port (1) will not likely be implemented, such
as the dry port, dry bulk conveyor system, and seafood processing/inspection facility;




     MCC activities at the Port of Cotonou in Benin include extending the jetty (top left)
    and constructing of a new wharf to accommodate additional containerized merchant
      marine vessels. The left side of the U-shaped harbor will become the new South
                wharf. (Photograph courtesy of Port of Cotonou Web site.)



                                   SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010   111
(2) may not improve the port’s efficiency, such as the computerization and streamlining of
the customs operations of the port; and (3) may not be completed by the compact’s end,
such as the landside improvements, including the electricity and lighting systems,
prevention and protection network, port security and video access, and access gates to
the port.

The audit found additional problems. Radioactive materials were found at the port, but
the environmental impact assessment did not identify this environmental risk so that
mitigation measures could be implemented. Also, a procurement conducted by MCA-
Benin included technical specifications requiring the contractor to purchase machine
guns and patrol boats for patrolling the harbor, although such purchases are specifically
prohibited by the compact. Finally, frequent changes of the general manager of the port
could impair the continuity of operations as well as the sustainability of improvements
funded by MCC.

The report contained five recommendations, of which final action was taken on one
recommendation, management decisions were pending on two recommendations, and
MCC disagreed with two recommendations.

(Audit Report No. M-000-10-001-P)

Review of the Termination of the MCC’s Compact With Madagascar. On
April 15, 2005, Madagascar became the first country to receive an MCC compact when
the Millennium Challenge Corporation and the Republic of Madagascar signed a 4-year,
$110 million agreement. In March 2009, an undemocratic transfer of power occurred in
Madagascar when members of the Malagasy military acted in support of an opposition
party leader. In response, the U.S. Department of State determined in early April 2009
that the events had triggered a provision of U.S. law that prohibits the expenditure of
funds appropriated by Congress to finance directly any assistance to the government of
a country whose duly elected head of government has been deposed by military coup or
decree. On May 19, 2009, the MCC Board of Directors made a decision to authorize
the termination of the Madagascar compact. MCC determined that the compact would
officially end August 31, 2009, and that all project wind-up activities, including
disposition of project assets, would end December 3, 2009.

Although MCC had developed policies and procedures in a wind-up plan to facilitate a
timely termination of its compact with Madagascar, the plan’s guidance was incomplete.
The review team found that MCC had not addressed the financial requirements for
termination in its draft of the plan. In addition, the Government of Madagascar owed
MCC more than $3.8 million in value-added-tax (VAT) assessments, and the draft lacked a
requirement for determining VAT liability for assets sold to former staff of the Millennium
Challenge Account (MCA)-Madagascar and the public. Furthermore, MCC chose not to
transfer its title of MCA-Madagascar’s program assets and did not include any requirement
in the draft that MCA-Madagascar must remove sensitive data from its information
technology systems. MCC also did not fully follow the asset disposition and inventory
procedures from the draft wind-up plan and did not require legal documents from
NGOs that would receive its assets.




112   USAID OFFICE OF INSPECTOR GENERAL
Finally, although the Agricultural Business Investment Project (ABIP) and Land Tenure
Project yielded positive results in selected activities, these projects did not achieve all of
their results because of implementation constraints and the political climate in
Madagascar. Most of the farmers who had received technical assistance did not use the
skills they had learned, and more than half of the land-tenure indicators for the third
year of the compact
were 13 percent or
more below their
targets. In addition,
25 percent of the ABIP
NGOs and the only
land-tenure NGO that
will receive assets
from MCA-Madagascar
were newly
established and had
limited funding; these
drawbacks may
prevent the programs
from furthering the
compact objectives.            A local land-tenure office in the Vakinankaratra region of
                                            Madagascar. (Photograph by OIG.)
Of the eight
recommendations made to MCC, two of the recommendations received a management
decision. MCC agreed with three of the recommendations but did not provide sufficient
information to reach management decision. Finally, MCC did not agree with the
remaining three recommendations.

(Review Report No. M-000-10-002-P)

Survey of MCC Policies and Procedures to Address U.S. Government Anti-
Trafficking Policy. USAID/OIG works to identify contracts with issues regarding
human trafficking, in compliance the William Wilberforce Trafficking Victims Protection
Reauthorization Act of 2008, Public Law 110–457. The statute directs selected
inspectors general to investigate a sample of contracts and report the findings to
Congress by January 15 of each year.

The objective of the survey was to determine whether MCC had policies and
procedures in place to address U.S. policy against trafficking. The survey found that the
MCC had instituted processes to identify, address, and guard against forced labor, child
labor, and other forms of trafficking in persons. The survey also found that MCC
contracts included clauses that would allow the contracts to be terminated if trafficking
in persons occurred and addressed trafficking early in the compact development phase.

However, the survey also noted that MCC did not have a (1) formal policy or written
procedures that defined how trafficking is addressed throughout compact development and
over the life of compact implementation, (2) written policy that addressed how MCC will
comply with the U.S. policy against trafficking, or (3) policy and written procedures in place
related to anti-trafficking that address the special circumstances surrounding any country




                                    SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010   113
that the Department of State rates as “Tier-2 Watch”15 for 2 consecutive years. In addition,
a review of nine road contracts, valued at a total of $221.5 million, for five compact
countries found that the contracts contained clauses related to trafficking.

The survey contained two recommendations for MCC, involving the need to develop a
formal policy and written procedures on anti-trafficking and addressing plans for action
when countries are designated as “Tier-2 Watch” for the first year and subsequent
consecutive years. A management decision was reached on both recommendations.

(Survey Report No. M-000-10-001-S)



                     MANAGEMENT CAPABILITIES

Financial Management
Audit of MCC’s Financial Statements, Internal Controls, and Compliance for
the Periods Ending September 30, 2009, and 2008. OIG contracted with an
independent public accounting firm, Cotton & Company LLP, to conduct an audit of MCC’s
financial statements, internal controls, and compliance with laws and regulations for the
periods ending September 30, 2009, and September 30, 2008.

The audit reported that MCC’s financial statements are presented fairly in all material
respects and in conformity with generally accepted U.S. Government accounting
principles. The audit report disclosed the following matters concerning internal controls
over financial reporting and compliance with laws and regulations:

•     Five significant deficiencies, one of which is considered a material weakness, in the
      internal controls over financial reporting and its operation.
•     No instances of material noncompliance with laws and regulations.

The five significant deficiencies in the internal controls over financial reporting and its
operation are listed below:

•     Control over mission activities and support (material weakness).
•     Quality control over financial reporting.
•     Controls over payroll processes.
•     Proper reporting period.
•     Fund balance with Treasury reconciliation.

In finalizing the report, OIG received and considered MCC’s response to the draft
report. In its comments, MCC concurred with all of the recommendations. Therefore,
management decision was reached on all five.

(Audit Report No. M-000-10-001-C)

15 This rating indicates that the government does not fully comply with the minimum standards but is

making significant efforts to do so and that certain other conditions exist.



114   USAID OFFICE OF INSPECTOR GENERAL
Limited-Scope Review of Tanzania. OIG performed this review, in part, to obtain
reasonable assurance that (1) MCA-Tanzania was complying with MCC’s “Policies and
Procedures for Common Payment System,” and (2) MCA-Tanzania’s representations
per its fund accountability statements were compliant with MCC’s “Cost Principles for
Government Affiliates Involved in MCC Compact Implementation,” fiscal accountability
plan, the compact, and any other applicable laws, regulations, and guidance.

Our review identified numerous instances of noncompliance with compact
requirements. We identified findings and questioned costs related to (1) revenue
excluded from the fund accountability statements, (2) unallocable building renovations of
$10,329, (3) unallowable advertising costs of $8,942, (4) $51,706 of currency loss based
on noncompliance with the procurement guidelines, and (5) excess cash in safe and
unreported cash balances. We recommended that MCC require MCA-Tanzania to
provide a plan to correct the internal control deficiencies and recover any portion of
the $70,977 in questioned costs determined to be unallowable.

(Audit Report No. M-000-10-002-S)

Fund Accountability Statements
Fund Accountability Statements. The OIG financial audit team is responsible for
reviewing and issuing semiannual fund accountability statement audits of each accountable
entity that is awarded a compact. The audits are conducted by independent public auditors,
as required by compact agreements. The OIG financial audit team also performs limited-
scope audits of accountable entities, which are different from those performed by
independent public auditors. In addition, the OIG financial audit team also reviews the
quality of work performed by independent public auditors (quality-control reviews) and
approve audit firms to ensure their eligibility to conduct audits of compact funds. This
section also discusses the audit reports issued and the supporting work under the financial
audit program.

Under the terms of MCC compacts, funds expended by a recipient country must be
audited at least annually but are usually audited twice a year. The recipient establishes an
MCA account and produces financial statements documenting account activity. The audit
of the fund accountability statement is conducted by a firm that OIG has approved.

The selected audit firm issues an opinion on whether the financial statements present
fairly, in all material respects, the program revenues and costs incurred and reimbursed,
in conformity with the terms of a compact agreement and related supplemental
agreements for the period being audited. In addition, the audit firm is required to
employ generally accepted government auditing standards in performing the audits. All
audit reports are reviewed, approved, and issued by OIG.

Armenia. The MCA-Armenia audit covered incurred costs of nearly $7 million for the
period January 1–June 30, 2009. The $235.7 million, 5-year compact focuses on reducing
rural poverty through a sustainable increase in the economic performance of the
agricultural sector.

The auditors reported that, except for unsupported questioned costs of $22,786, the
fund accountability statement presented fairly, in all material respects, program revenues


                                    SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010   115
and costs incurred for the period audited. Of the unsupported costs, $22,753 related to
interim payments made to the contractor, SADE/SHMSH 23; the remaining $33 related
to unsupported transportation expenses.

The audit noted internal control material weaknesses concerning documentation of civil
works under the Rehabilitation of Six Main Canals contract and payment terms under a
contract for consulting services for supervision of construction works under the
Irrigated Agriculture Project’s Infrastructure Activity.

(Audit Report No. M-000-010-007-N)

Benin. The MCA-Benin audit covered incurred costs of nearly $6.5 million for the period
January 1–June 30, 2009. The 5-year compact for approximately $307 million addresses
improved physical and institutional infrastructure by focusing on access to land, financial
services, justice, and markets.

The fund accountability statement presented fairly, in all material respects, program
revenue received and expenses incurred and reimbursed during the period under audit.

The auditors documented three internal control deficiencies and identified significant
noncompliance with the fiscal accountability plan requirements related to travel advances.

(Audit Report No. M-000-10-005-N)

Cape Verde. The MCA-Cape Verde audit covered incurred costs of $17.6 million for the
period July 1–December 31, 2008. The 5-year compact for $110 million supports
watershed management, agriculture, infrastructure, and private-sector development.

The MCA-Cape Verde fund accountability statement presents fairly, in all material
respects, program revenue received and expenses incurred and reimbursed during the
period under audit. In addition, no internal control or compliance problems were
reported during this period.

However, prior audits had identified internal control deficiencies, which had existed in
the prior periods and continue during the current period. Moreover, the prior audit had
identified three areas of continuing noncompliance.

(Audit Report No. M-000-10-003-N)

Ghana. The MCA-Ghana audit covered incurred costs of nearly $35.5 million for the
period January 1–June 30, 2009. The 5-year compact for $547 million is meant to
(1) enhance the profitability of cultivation, (2) provide services to agriculture and
product handling in support of the expansion of commercial agriculture among groups
of small-holder farms; (3) reduce the transportation costs affecting the agricultural
commerce regionally and subregionally; and (4) strengthen the rural institutions that
provide services to complement and support agricultural and agribusiness development.

The auditors reported that, except for questioned costs totaling $50,711, the fund
accountability statement presented fairly, in all material respects, program revenues and
expenditures for the period audited. The questioned costs relate to ineligible costs of




116   USAID OFFICE OF INSPECTOR GENERAL
$25,912 for paid value-added taxes and unsupported costs of $25,519 for outstanding
travel advances to employees.

The independent auditors reported material weaknesses in internal control involving
overstatement of expenditures and inadequate monitoring of employee travel advances. The
auditors also reported a material instance of noncompliance—value-added taxes were paid.

OIG recommended that MCC make a management decision on the $50,711 in
questioned costs, recover any amounts determined to be unallowable, and request that
MCA-Ghana submit a corrective action plan to correct the material weakness in internal
control and the material instances of noncompliance.

(Audit Report No. M-000-010-010-N)

Madagascar. The MCA-Madagascar audit covered incurred costs of $18.3 million for the
period July 1–December 31, 2008. The 5-year, $109.8 million compact is designed to
improve the environment for private sector investment through legal and policy reform as
well as development of financial infrastructure, increased land security, and expanded
knowledge of market opportunities and requirements in rural areas. The compact also will
develop a public-private partnership in the management of key public enterprises, to
include representatives of the Malagasy Government and the beneficiaries in the decision-
making body.

The MCA-Madagascar fund accountability statement presents fairly, in all material
respects, program revenue received and expenses incurred and reimbursed during the
period under audit. In addition, no internal control or compliance problems were
reported during this period.

(Audit Report M-000-10-004-N)

Mali. The MCA-Mali audit covered incurred costs of over $11.6 million for the period
January 1–June 30, 2009. The 5-year compact for approximately $461 million aims to
support policy reform and the development of key infrastructure for productive sectors
by addressing Mali’s constraints to growth and capitalizing on two of the country’s major
assets, the Bamako-Sénou International Airport, a gateway for regional and international
trade, and the Niger River Delta for irrigated agriculture.

The fund accountability statement presented fairly, in all material respects, program
revenues received and expenses incurred and reimbursed during the period under audit.
The auditors identified no significant deficiencies in MCA-Mali’s internal control, and
testing disclosed no instances of noncompliance that were required to be reported
under generally accepted government auditing standards.

(Audit Report No. M-000-10-001-N)

Mongolia. The MCA-Mongolia audit for the period October 22, 2007, to December 31,
2008, covered expenditures totaling nearly $2.8 million. The $284.9 million, 5-year
compact is designed to advance Mongolia’s economic growth and reduce poverty.

The independent auditors Dalaivan Audit LLC reported that, except for an ineligible
questioned cost of $2,545 and an unsupported questioned cost of $23,963, the fund


                                 SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010   117
accountability statement presented fairly, in all material respects, program revenues and
costs incurred for the period October 22, 2007, to December 31, 2008. The ineligible
questioned cost pertains to expenses for fitness facilities, a swimming pool, and a gym
hall not allowed in accordance with MCC’s cost principles. The unsupported questioned
cost pertains to expenses for travel and public outreach events for which MCA-
Mongolia did not provide adequate supporting documentation and evidence documents
for prior approval.

Dalaivan Audit LLC identified 4 reportable conditions in the internal control structure
and 12 instances of noncompliance.

(Audit Report No. M-000-10-002-N)

Vanuatu. The MCA-Vanuatu audit covered $5.7 million for the period January 1–June 30,
2009. The 5-year compact for $65 million will strengthen transportation infrastructure
and institutions. The auditors reported that the fund accountability statement presented
fairly, in all material respects, program revenues and costs incurred for the period
audited.

The auditors found internal control deficiencies concerning discrepancies in employee
claims for annual leave, outstanding bills for airfare, irregular fuel purchases, allowance
overpayment, and loss of electronic files. The report noted compliance deficiencies
concerning misappropriation of funds and incomplete vehicle logs.

(Audit Report No. M-000-010-006-N)

Quality-Control Review—Tanzania. OIG conducted a quality-control review of the
audit firm that conducts the semiannual audits of the compact funds in Tanzania. The
review found that the audit work was substandard, and the audit reports were put on
hold until significant errors and omissions were rectified. The auditors were required to
perform additional audit work in order to comply with the requirements of the
Guidelines for Audits Contracted by the Millennium Challenge Corporation’s Accountable
Entities and generally accepted government auditing standards. Nine matters for
comment were discussed and concurred upon, with the auditors performing additional
audit work to increase the quality of the audit to an acceptable level and revising the
firm’s policies and procedures.

(Quality-Control Review Report No. M-000-10-001-Q)




118   USAID OFFICE OF INSPECTOR GENERAL
                                            APPENDIX III

                   REPORTING REQUIREMENTS
                        AND SUMMARY
                            MCC


                                                     List of Tables

 1.   Financial Audit Reports Issued ........................................................................................... 121
 2.   Performance Audit Reports Issued ................................................................................... 123
 3.   Miscellaneous Audit Reports Issued ................................................................................. 124
 4.   Limited-Scope Review Reports Issued ............................................................................. 125
 5.   Audit Reports Over 6 Months Old With No Management Decision ...................... 126
 6.   Significant Audit Recommendations Described in Previous Semiannual
      Reports Without Final Action ............................................................................................ 127
 7.   Reports Issued With Questioned and Unsupported Costs ........................................ 128
 8.   Reports Issued With Recommendations That Funds Be Put to Better Use ........... 129
 9.   Summary of Audits Conducted and Results ................................................................... 130
10.   Fraud Awareness Briefings Conducted ............................................................................ 131




                                                         Appendix III


                                                SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010               119
120   USAID OFFICE OF INSPECTOR GENERAL
                FINANCIAL AUDIT REPORTS ISSUED
                            MCC

                         October 1, 2009–March 31, 2010
                                                                               Amount
      Report         Date of                                                      of          Type of
                                             Report Title
      Number         Report                                                    Findings       Findings
                                                                               ($000s)
                            PROGRAMS AND OPERATIONS
                              Audit of the Millennium Challenge
                              Corporation’s Financial Statements,
 M-000-10-001-C      11/16/09 Internal Controls, and Compliance for
                              the Period Ending September 30, 2009
                              and 2008
                               MCA AUDITS AND REVIEWS
                              Audit of the Millennium Challenge
                              Corporation (MCC) Resources
                              Managed by Millennium Challenge
 M-000-10-001-N      11/23/09 Account-Mali (MCA-Mali), Under the
                              Compact Agreement Between the MCC
                              and the Government of Mali from
                              January 1, 2009 to June 30, 2009
                              Audit of the Millennium Challenge
                              Corporation (MCC) Resources Managed
                              by Millennium Challenge Account-
                                                                                  27            QC
 M-000-10-002-N      11/23/09 Mongolia (MCA-Mongolia), Under the
                                                                                  24            UN
                              Compact Agreement Between the MCC
                              and the Government of Mongolia from
                              October 22, 2007 to December 31, 2008
                              Audit of the Millennium Challenge
                              Corporation (MCC) Resources
                              Managed by Millennium Challenge
                              Account-Cape Verde (MCA-Cape
 M-000-10-003-N      11/23/09
                              Verde), Under the Compact Agreement
                              Between the MCC and the
                              Government of Cape Verde from July 1,
                              2008 to December 31, 2008




BU—Better Use of Funds   QC—Questioned Costs       UN—Unsupported Costs          Note: UN is part of QC


                                    Appendix III—Table 1


                                   SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010   121
                                                                            Amount
      Report             Date of                                               of      Type of
                                                 Report Title
      Number             Report                                             Findings   Findings
                                                                            ($000s)
                                 Audit of the Millennium Challenge
                                 Corporation (MCC) Resources
                                 Managed by Millennium Challenge
                                 Account-Madagascar (MCA-
 M-000-10-004-N         11/25/09
                                 Madagascar), Under the Compact
                                 Agreement Between the MCC and the
                                 Government of Madagascar from July 1,
                                 2008 to December 31, 2008
                                 Audit of the Millennium Challenge
                                 Corporation (MCC) Resources
                                 Managed by Millennium Challenge
                                 Account-Benin (MCA-Benin), Under the
 M-000-10-005-N         01/21/10
                                 Compact Agreement dated February 22,
                                 2006 Between the MCC and the
                                 Government of Benin from January 1,
                                 2009 to June 30, 2009
                                 Audit of the Millennium Challenge
                                 Corporation (MCC) Resources
                                 Managed by Millennium Challenge
                                 Account-Vanuatu (MCA-Vanuatu),
 M-000-10-006-N         03/01/10
                                 Under the Compact Agreement
                                 Between the MCC and the
                                 Government of Vanuatu from January 1,
                                 2009 to June 30, 2009
                                 Audit of the Millennium Challenge
                                 Corporation (MCC) Resources
                                 Managed by Millennium Challenge
                                 Account-Armenia (MCA-Armenia),               23          QC
 M-000-10-007-N         03/09/10
                                 Under the Compact Agreement                  23          UN
                                 Between the MCC and the
                                 Government of Armenia from January 1,
                                 2009 to June 30, 2009
                                 Audit of the Millennium Challenge
                                 Corporation (MCC) Resources
                                 Managed by Millennium Development
                                 Authority-Ghana (MiDA), Under the            51          QC
 M-000-10-010-N         03/31/10
                                 Compact Agreement Between the MCC            26          UN
                                 and the Government of Republic of
                                 Ghana from January 1, 2009 to June 30,
                                 2009


BU—Better Use of Funds        QC—Questioned Costs    UN—Unsupported Costs    Note: UN is part of QC


                                          Appendix III—Table 1


122   USAID OFFICE OF INSPECTOR GENERAL
             PERFORMANCE AUDIT REPORTS ISSUED
                          MCC

                         October 1, 2009–March 31, 2010
                                                                                 Amount
     Report          Date of                                                        of         Type of
                                               Report Title
     Number          Report                                                      Findings      Findings
                                                                                 ($000s)
                                ECONOMY AND EFFICIENCY
                                 Audit of the Millennium Challenge
 M-000-10-001-P      03/31/10    Corporation’s Access to Markets
                                 Project in Benin
                                 Review of the Termination of the
 M-000-10-002-P      03/31/10    Millennium Challenge Corporation
                                 Compact with Madagascar




BU—Better Use of Funds   QC—Questioned Costs        UN—Unsupported Costs          Note: UN is part of QC


                                     Appendix III—Table 2


                                    SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010   123
             MISCELLANEOUS AUDIT REPORTS ISSUED
                            MCC

                             October 1, 2009–March 31, 2010
                                                                             Amount
       Report            Date of                                                of      Type of
                                                  Report Title
       Number            Report                                              Findings   Findings
                                                                             ($000s)
                             QUALITY CONTROL REVIEWS (QCR)
                                 Quality Control Review (QCR) of
                                 INNOVEX Auditor’s audits of the MCC
                                 Resources Managed by Millennium
                                 Challenge Account-Tanzania (MCA-
                                 Tanzania), Under the Compact
 M-000-10-001-Q         01/05/10
                                 Agreement Between the MCC and the
                                 Government of the Tanzania from
                                 September 1, 2007 to December 31,
                                 2008, and January 1, 2009 to June 30,
                                 2009
                                               OTHER
                                 Survey of the Millennium Challenge
                                 Corporation’s Policies and Procedures
  M-000-10-001-S        03/17/10
                                 to Address US Government Anti-
                                 Trafficking Policy




BU—Better Use of Funds        QC—Questioned Costs     UN—Unsupported Costs   Note: UN is part of QC


                                          Appendix III—Table 3


124   USAID OFFICE OF INSPECTOR GENERAL
            LIMITED-SCOPE REVIEW REPORTS ISSUED
                            MCC

                         October 1, 2009–March 31, 2010
                                                                                 Amount
     Report         Date of                                                         of         Type of
                                             Report Title
     Number         Report                                                       Findings      Findings
                                                                                 ($000s)
                               LIMITED-SCOPE REVIEW
                            Limited Scope Review of the Millennium
                            Challenge Corporation (MCC) Resources
                            Managed by Millennium Challenge
 M-000-10-002-S    03/30/10 Account-Tanzania (MCA-Tanzania), Under                  71           QC
                            the Compact Agreement Between the
                            MCC and the Government of the
                            Republic of Tanzania




BU—Better Use of Funds   QC—Questioned Costs       UN—Unsupported Costs          Note: UN is part of QC


                                   Appendix III—Table 4


                                   SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010   125
         AUDIT REPORTS OVER 6 MONTHS OLD WITH
                NO MANAGEMENT DECISION
                          MCC

                                          As of March 31, 2010
       Report                                  Issue
                             Auditee                                Recommendation Status
       Number                                  Date
                                                      3: MCC does not concur with this
                                                      recommendation. MCC’s authorizing
                                                      legislation provides a significant degree of
                                                      flexibility to the Board regarding the selection
                                                      of threshold-eligible countries by not requiring
                                                      definitive standards and benchmarks. Although
                                                      these specific measurements are not required,
                                                      MCC agrees that certain elements should be
                                                      consistently considered during an eligibility
                                                      review. The Board’s selections of threshold
                                                      countries have resulted in a range of partner
                                                      countries, some of which are further away
                                                      from qualifying for compact eligibility than
                         Department of
                                                      others. MCC currently recommends that the
                            Policy and
  M-000-09-003-P                             04/29/09 Board consider the following five factors when
                          International
                                                      reviewing threshold program eligibility: the
                            Relations
                                                      number of policy areas that need to be
                                                      addressed, the type of policy reforms
                                                      necessary, the degree of improvement needed,
                                                      the government’s commitment to positive
                                                      trends on reform, and whether MCC’s
                                                      assistance will improve the country’s policy
                                                      performance. These factors were introduced
                                                      in FY 2008 and are currently being used.
                                                      Developing more definitive guidance or criteria
                                                      would reduce the flexibility provided to the
                                                      Board in the Millennium Challenge Act, and
                                                      MCC does not believe that reducing this
                                                      flexibility is either necessary or advisable.
  M-000-09-018-N         MCG-Georgia         06/24/09 No management decision reached
  M-000-09-019-N            MCA-Mali         06/25/09 No management decision reached
  M-000-09-020-N           MCA-Benin         07/20/09 No management decision reached
  M-000-09-022-N MCA-Nicaragua 08/26/09 No management decision reached
  M-000-09-023-N          MiDA-Ghana         09/10/09 No management decision reached




                                             Appendix III—Table 5


126   USAID OFFICE OF INSPECTOR GENERAL
     SIGNIFICANT AUDIT RECOMMENDATIONS
   DESCRIBED IN PREVIOUS SEMIANNUAL REPORTS
             WITHOUT FINAL ACTION
                      MCC

                            As of March 31, 2010
                                                                                             Final
                                                                          Management
   Report                                              Issue      Rec.                      Action
                       Subject of Report                                   Decision
   Number                                              Date       No.                       Target
                                                                             Date
                                                                                             Date
                 Audit of the Millennium
                 Challenge Corporation (MCC)
                 Resources managed by
                 Millennium Challenge Fund
                 Georgia (MCG), Under the                           1
M-000-09-018-N                                      06/24/09
                 Compact Agreement between                          2
                 the MCC and the
                 Government of Georgia from
                 June 30, 2008 to December 31,
                 2008




                                 Appendix III—Table 6


                               SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010   127
                 REPORTS ISSUED WITH QUESTIONED
                     AND UNSUPPORTED COSTS
                               MCC

                             October 1, 2009–March 31, 2010
                                                         Number of   Questioned   Unsupported
                          Reports                          Audit       Costs         Costs
                                                          Reports       ($)           ($)
A. For which no management decision had been
                                                                 8   1,554,190     1,306,141
   made as of October 1, 2009
B.    Reports issued October 1, 2009–March 31,
                                                                 4     170,982        72,268
      2010

          Subtotal                                           12      1,725,172     1,378,409

C. Reports with a management decision made
                                                                 4     248,749        20,975
   October 1, 2009–March 31, 2010
          Value of recommendations disallowed by
                                                                       162,884        20,975
          Agency officials
          Value of recommendations allowed by
                                                                        85,865            0
          Agency officials
D. For which no management decision had been
                                                                 8   1,476,423     1,357,434
   made as of March 31, 2010




                                          Appendix III—Table 7


128   USAID OFFICE OF INSPECTOR GENERAL
       REPORTS ISSUED WITH RECOMMENDATIONS
          THAT FUNDS BE PUT TO BETTER USE
                        MCC

                        October 1, 2009–March 31, 2010
                                                                           Number of
                                                                                              Amount
                              Reports                                        Audit
                                                                                                ($)
                                                                            Reports
A. For which no management decision had been made as of
                                                                                 0                0
   October 1, 2009

B.   Reports issued October 1, 2009–March 31, 2010                               0                0

        Subtotal                                                                 0                0

C. Reports with a management decision made
                                                                                 0                0
   October 1, 2009–March 31, 2010

        Value of recommendations agreed to by Agency officials                                    0

        Value of recommendations not agreed to by Agency officials                                0

D. For which no management decision had been made as of
                                                                                 0                0
   March 31, 2010




                                        Appendix III—Table 8


                                     SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010   129
                  SUMMARY OF AUDITS CONDUCTED
                          AND RESULTS
                              MCC

                                          As of March 31, 2010
                                                       Number of    Amount of Recommendations
                  Type of Report
                                                        Reports                ($)*

 Financial Audits

      MCA fund accountability statement
                                                            8                  100,005
      audits

      Limited-scope reviews                                 1                   70,977

      Quality-control reviews                               1                       0

      Programs and operations                               1                       0

 Performance Audits

      Economy and efficiency                                2                       0

      Other                                                 1                       0

                       Total                              14               $170,982




                        * Monetary recommendations include questioned costs.




                                             Appendix III—Table 9


130   USAID OFFICE OF INSPECTOR GENERAL
       FRAUD AWARENESS BRIEFINGS CONDUCTED
                       MCC

                            As of March 31, 2010

Month           Location              Sessions        Attendees         Professional Affiliation



Oct.       NA                           NA             NA               NA



Nov.       NA                           NA             NA               NA



Dec.       NA                           NA             NA               NA



Jan.       NA                           NA             NA               NA



Feb.       NA                           NA             NA               NA


           San Salvador,
              El Salvador               1              23               MCC personnel
Mar.
                                        1              45               MCC personnel
           Managua, Nicaragua

                 Total                  2              68




                                Appendix III—Table 10


                              SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010    131
132   USAID OFFICE OF INSPECTOR GENERAL
                    ABBREVIATIONS
ARRA       American Recovery and Reinvestment Act of 2009
AOTR       agreement officer’s technical representative
COTR       contracting officer’s technical representative
DCAA       Defense Contract Audit Agency
FAR        Federal Acquisition Regulation
FISMA      Federal Information Security Management Act of 2002
           (Public Law 107–347)
FSN        Foreign Service National
FY         fiscal year
GAO        Government Accountability Office
HIV/AIDS   human immunodeficiency virus/acquired immunodeficiency syndrome
IAF        Inter-American Foundation
MCC        Millennium Challenge Corporation
MOU        memorandum of understanding
NGO        nongovernmental organization
OMB        Office of Management and Budget
PEPFAR     President’s Emergency Plan for AIDS Relief
PMTCT      prevention of mother-to-child transmission (of HIV)
SAI        Supreme Audit Institution
USADF      United States African Development Foundation




                                 Appendix IV


                          SEMIANNUAL REPORT TO THE CONGRESS: October 1, 2009–March 31, 2010   133
        U.S. Agency for International Development
               Office of Inspector General
               1300 Pennsylvania Avenue NW
                         Room 6.6D
                  Washington, DC 20523

                       www.usaid.gov/oig




The Semiannual Report to the Congress is available on the Internet at
     www.usaid.gov/oig/public/semiann/semiannualrecent.htm
